<html>
<title> - COMBATING TERRORISM THROUGH EDUCATION: THE NEAR EAST AND SOUTH ASIAN EXPERIENCE</title>
<body><pre>[Senate Hearing 109-155]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-155
 
 COMBATING TERRORISM THROUGH EDUCATION: THE NEAR EAST AND SOUTH ASIAN 
                               EXPERIENCE

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED NINETH CONGRESS



                             FIRST SESSION



                               __________

                             APRIL 19, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
24-020                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Ahmed, Samina, South Asia Project Director, International Crisis 
  Group, Islamabad, Pakistan.....................................    25
    Prepared statement...........................................    29
Awadallah, Bassem, Minister of Finance, Hashemite Kingdom of 
  Jordan, Amman, Jordan..........................................     4
    Prepared statement...........................................     7
    Human Resource Development in Jordan.........................     9
Burki, Shahid Javed, Consultant, Nathan Associates, Potomac, MD..    15
    Prepared statement...........................................    18
Cheney, Elizabeth, Principal Deputy Assistant Secretary for Near 
  Eastern Affairs, Department of State, Washington, DC...........    48
    Prepared statement...........................................    51
    Responses to questions submitted for the record by Senator 
      Lugar......................................................    79
Kunder, James, Assistant Administrator for Asia and the Near 
  East, U.S. Agency for International Development, Washington, DC    54
    Prepared statement...........................................    58
    Education Initiatives by Country.............................    70
Lugar, Hon. Richard G., U.S. Senator from Indiana................     1
Method, Frank, Director of International Education Policy and 
  Systems, Research Triangle Institute, Washington, DC...........    33
    Prepared statement...........................................    36
Nelson, Hon. Bill, U.S. Senator from Florida.....................     3

             Additional Statement Submitted for the Record

Chafee, Hon. Lincoln, U.S. Senator from Rhode Island.............    78

                                 (iii)

  


 COMBATING TERRORISM THROUGH EDUCATION: THE NEAR EAST AND SOUTH ASIAN 
                               EXPERIENCE

                              ----------                              


                        TUESDAY, APRIL 19, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar, chairman of the committee, presiding.
    Present: Senators Lugar and Nelson.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Today, the Foreign Relations Committee meets to discuss 
American education assistance programs in the Near East and 
South Asia and their contribution to United States national 
security. Outdated and poorly funded education systems in many 
Near Eastern and South Asian countries have led to an education 
deficit. This gap has contributed to the rise of extremist 
ideologies that have provided fertile ground for terrorist 
recruitment during the last decade. It is imperative that we 
focus sufficient attention and resources on promoting strong 
education systems as a way to counter extremism at its roots.
    The 2003 Arab Human Development Report by the United 
Nations Development Program highlights this ``knowledge 
deficit'' and concludes that overhauling the region's education 
systems should be a critical priority. It notes that these 
changes should come from within the region, drawing from its 
rich cultural, linguistic, and intellectual heritages.
    The lack of educational opportunities for women in the Near 
East and South Asia is of particular concern. Statistics show 
that while 73 percent of men in Arab States are literate, only 
50 percent of women in these countries can read and write. In 
Pakistan, only 39 percent of women are literate, compared to 63 
percent of males, with the largest disparities in rural areas. 
Finding ways to encourage the education of girls and women, 
while respecting cultural norms, is crucial to fostering 
economic growth, democracy, and stability.
    The Bush administration and the Congress have established 
the Middle East Partnership Initiative, the Millennium 
Challenge Account, and the Broader Middle East and North Africa 
Initiative to promote reform. These efforts complement our 
bilateral education assistance programs in countries such as 
Egypt, Morocco, Pakistan, and Bangladesh.
    Today, we want to assess the effectiveness of these efforts 
and ask what can be done better. About 3 percent of total 
United States foreign aid to Near Eastern countries, (excluding 
Israel), is devoted to education. Can we achieve better results 
if we shift aid resources from traditional forms of economic 
assistance to education? The United States recently has tripled 
its education spending in Pakistan, where the connections 
between the education system and the development of extremism 
are particularly acute. We need to assess whether national 
security benefits could be achieved by taking similar steps in 
other nations.
    I encourage the administration to devise and implement 
programs under the new authorities provided by the National 
Intelligence Reform Act, signed in December, to expand 
educational and cultural exchanges. Last October, the Foreign 
Relations Committee held a hearing to examine the impact of our 
visa policies on foreign students studying in the United 
States. Several leaders of prominent United States universities 
testified on the benefits of international educational exchange 
programs and on the importance of maintaining these programs 
despite new visa restrictions. The committee hosted two 
roundtables that focused on ways to ameliorate the problems of 
visa delays without sacrificing national security. I believe it 
is essential that we expand student exchange programs, not 
scale them back, as they not only serve our national security 
interests, but also enrich our society and our culture.
    In June of last year, I introduced Senate Resolution 375, 
supporting reform and modernization initiatives in the Greater 
Middle East, including a Twenty-First Century Trust. This 
resolution acknowledged that advancement in educational 
opportunities has yet to reach large percentages of the people 
in the Near East and South Asia regions. It further noted that 
reform and modernization must come from the people of the 
region, and cannot be imposed from the outside.
    Next month, an Education Ministerial meeting in Jordan will 
bring together leaders from the G-8 and the Greater Middle East 
and North Africa to address challenges of modernizing education 
through collaborative partnerships. I applaud this as an 
excellent example of regional coordination.
    We have two distinguished panels for today's discussion. On 
the first panel, we will hear testimony from Dr. Bassem 
Awadallah, former Minister of Planning and newly appointed 
Finance Minister of Jordan; Shahid Javed Burki, former Finance 
Minister of Pakistan, and now a consultant with Nathan 
Associates; Dr. Samina Ahmed, South Asia Project Director for 
the International Crisis Group, based in Islamabad, Pakistan; 
and Mr. Frank Method, Director of International Education 
Policy and Systems at the Research Triangle Institute. Each of 
these distinguished witnesses has been active in education 
reform efforts in the Near East and South Asia. The committee 
looks forward to their unique perspectives.
    On the second panel, we will hear from two administration 
officials. Mrs. Liz Cheney is the Principal Deputy Assistant 
Secretary of State for Near Eastern Affairs and the point-
person for the Middle East Partnership Initiative. Mr. James 
Kunder is the Assistant Administrator for Asia and the Near 
East at USAID. Both Ms. Cheney and Mr. Kunder bring a wealth of 
expertise to today's topic. We welcome them to the committee.
    Let me note the distinguished presence of the Senator from 
Florida. Do you have an opening thought or comment?

    STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman, I do. First of 
all, I want to thank you for recognizing the importance of this 
subject to our Nation.
    We've read in the newspapers recently about Pakistan, for 
example, wanting to purchase F-16s. It's not in the $3 billion 
package over 5 years that has been promised to support 
Pakistan. There's other money in there for P-3 aircraft, TOW-2A 
antiarmor guided missiles, and Phalanx close-in weapons 
systems. All of that does not include the F-16s. But of the 
$1\1/2\ billion that is set aside for domestic assistance, only 
$100 million over 5 years is suggested by the administration 
for education reform; $200 to $300 million is set aside, to go 
directly to budget support in Pakistan. That means that the 
Pakistani Government can use it for virtually anything they 
want.
    And it seems to me--and thank goodness you are sensitive to 
this, as our chairman, recognizing the desperate need for 
education in, not only Pakistan, but other areas, other 
countries in that area--of the money that we give to them, it 
is one of the greatest benefits to the free world to elevate 
the educational awareness and attainment of people in that part 
of the world?
    And so, in the course of this hearing--and I must admit, 
I've got to go to another one; we're confirming the Deputy 
Secretary of Defense in another committee--but I wish the panel 
would address: How big is the education program in Afghanistan 
by comparison to Pakistan? What is your estimation of the 
amount of money that Pakistan could use to truly reform its 
education system over the next 5 years? And if there were real 
reform in the Pakistani education system, what types of jobs 
will these young people be able to find with the new skills?
    And perhaps the second panel could discuss: How much does 
the Pakistani Government actually spend on education annually? 
What is the percentage of their budget for that? And if you 
ranked the priorities in Pakistan, where would education be on 
that scale? And then, overall, why doesn't our aid to Pakistan 
support that goal of education?
    I must admit that in a couple of trips to Pakistan, in 
discussions with a number of officials there, it seems like 
we've got a long way to go and that we could better further the 
interests of the United States if we'd be serious about getting 
the money, not to the government, but making sure that it gets 
right down there to the level of education.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Nelson. 
The panel can be reassured that you start with strong 
bipartisan support this morning, as well as a desire to hear 
more.
    I will ask that you testify in the order that I introduced 
you. If it is possible, please either give your statements or 
summarize them within approximately a 10-minute period of time. 
The Chair will not be unduly rigorous about that, because we've 
come to hear you. At the same time, we want to have ample 
opportunity, as Members appear, for questions. We also have a 
second panel. As life goes on, we will have rollcall votes 
coming along at 11:30 or 11:45. So, we can accomplish a great 
deal in that period of time, but I'm hopeful that you will help 
me in that respect.
    Let me, first of all, call upon you, Dr. Bassem. We are 
delighted that you are here. We congratulate you on your new 
assignment in your country.

 STATEMENT OF BASSEM AWADALLAH, MINISTER OF FINANCE, HASHEMITE 
                KINGDOM OF JORDAN, AMMAN, JORDAN

    Dr. Awadallah. Thank you very much, Mr. Chairman. I am 
honored and privileged to represent the Government of the 
Hashemite Kingdom of Jordan this morning in front of you, and I 
wish to thank you and to express our gratitude, and that of His 
Majesty the King and the Government of Jordan, to you, 
personally, for taking the initiative to look at reform and 
development in the Middle East and to pay a lot of attention to 
the need for a Marshall Plan for the reform and the development 
of our part of the world.
    In particular, your emphasis on education is extremely 
important, and we very much value and appreciate the emphasis 
that you have given to this, and this hearing, which we are 
proud to participate in.
    The Chairman. Thank you.
    Dr. Awadallah. Mr. Chairman, I have taken the liberty of 
sending the testimony that I'm going to make, and the remarks 
that I'm going to make, in to your office, and you most 
probably have a copy of it.
    The Chairman. We do, and it will be published in full. And 
that will be true for each of the statements that you have 
written. They will be published in full in the record; so that 
if you choose to summarize, please know that your full text 
will be a part of our hearing record.
    Dr. Awadallah. Thank you very much, Mr. Chairman.
    I will depart from the written statement. I will just use 
some relevant parts of it and try to limit myself to the 10-
minute----
    The Chairman. Thank you.
    Dr. Awadallah [continuing]. Deadline that you've given.
    Mr. Chairman, the most important point, which you referred 
to in your introductory statement, is about the demography and 
the demographic explosion that we will face in our part of the 
region.
    Some statistics. By 2010, we will have 146 million people 
who will seek employment in our part of the world, 185 million 
by the year 2020. With unemployment rates now at about 15 
percent, we will need to create close to 50 million jobs in the 
coming 5 years, and 100 million jobs by the year 2020. This is 
doubling the current level of employment just within the first 
two decades of this century. So when we speak about reform in 
the Middle East, it's not because this particular 
administration of the United States has paid attention to it, 
it's because of the need for reform; because if we do not have 
reform, there is no future for our part of the world. And it 
starts with educational reform.
    In Jordan, we have a population of 5.35 million people. Our 
population is growing at 2.4 percent per annum. And we have a 
demographic composition of a predominantly young people; 72 
percent of our people are under the age of 29, 60 percent of 
our people are under the age of 25, and 51 percent of our 
people are under the age of 18.
    Now, our ability in Jordan to transform into a knowledged-
based economy and to join the ranks of the more advanced 
nations will be significantly determined by the contribution 
capacity of the young and the growing population; and there is 
only one way to do that, and that is educational reform.
    This is exactly what the Government of Jordan, under the 
leadership of His Majesty the King, did in 1999 upon his 
accession to the throne. Through a public/private partnership, 
he got together more than 180 people to come up with a 
blueprint for reform for Jordan, to accelerate reform; hence, 
the homegrown nature of that kind of reform.
    We identified what we needed to do in our public schools. 
We identified the need to introduce kindergartens for early-
childhood development in public schooling. We identified the 
need to introduce English in grade one in our public schools, 
and not in grade five. And we identified the need to bring 
computer skills to the curriculum of our school system.
    Five years later, we have spent more than 250 million U.S. 
dollars. More than 85 million U.S. dollars came from the Senate 
and the House and the administration of the United States in 
support of this initiative. And we are proud to say that our 
educational reform not only includes brick and mortar and the 
construction of new schools, but it includes the training of 
teachers, it includes the development of e-learning 
capabilities, the revamping of our curricula to introduce e-
content. And the introduction of an e-learning platform that 
was designed by a Jordanian company, and now that is being 
exported to Saudi Arabia, to Bahrain, and even to the New 
Jersey system of education.
    So, we are proud of the amount of achievement that we have 
made over the past few years, and we have started to see the 
results, in terms of the achievement of the public school.
    Perhaps most importantly, Mr. Chairman, we had a dichotomy 
in our society between those who had and those who did not 
have. Those who had, could afford to go to private schools, 
could afford to have personal computers and learn English, and 
even French, in their private schools; and those who didn't--
and those are the majority of the people of Jordan--had to go 
to a public schooling system, where they did not see a computer 
throughout their education, until they graduated, and where 
they only received English at grade five. Today, that dichotomy 
is being addressed, and equal opportunity is being given to 
everybody in Jordan through an education system. We believe 
that that's where equal opportunity starts, this is where 
reform starts, and this is where pure and good governance comes 
along.
    Mr. Chairman, one of the major ideas that we initially 
started with, which was the introduction of computers and 
English language in public schools, was not very favorably 
accepted by our people. They thought that this was being 
imposed on us, and, Why do we need to introduce computers, when 
kids did not have milk in school? They said, ``Instead of the 
computers, why don't you have milk?'' Five years later, there's 
a tremendous buy-in by the people of Jordan for the need for 
educational reform. They all know, they all realize now, that 
through the educational reform initiative, their kids are being 
offered equal opportunity, and that if you offer them 
computers, it is not mutually exclusive to offering them milk 
or anything else in schools.
    So the public buy-in and the popular support for reform 
initiatives is extremely important to sustain these 
initiatives. Beyond just writing about them or testifying about 
these initiatives in front of you, our own people need to see 
value for these reforms, they need to realize that these 
reforms are going to be reflected on their lives in a positive 
and tangible manner.
    I am proud to say that the partnership we've had with the 
U.S. Government and with the U.S. Congress over the last 5 
years has been a very, very positive factor in accelerating the 
pace of the reforms, and people in our part of the world are 
realizing that.
    When opposition groups in our Parliament, the Islamic 
Action Front, accused us of importing the educational e-
curricula from the United States, we stood tall, and we said, 
``We developed this curricula. We, in Jordan. We did it in 
1999, even before this administration came to power. We did it 
in order to focus our minds and our entire mental ability on 
reforming the educational system in Jordan. Yes, it is true, we 
got the American taxpayers' money to help us fund these 
programs, and the American administration and the Congress were 
very positive and understanding and supportive in this effort. 
But it was a homegrown effort of educational reform supported 
by external powers?'' And this is extremely important to 
continue to remember.
    One last thing, Mr. Chairman. In the year 2000, in Davos, 
in Switzerland, His Majesty met with a group of American 
companies, U.S. corporations, led by Cisco--by John Chambers, 
of Cisco. They've identified Jordan as one of the areas which 
can be an example for other developing countries in harnessing 
IT for educational purposes. As a result, an initiative grew. 
It's called the Jordan Education Initiative. We have, today, 35 
United States--35 corporations, many of them are United States 
corporations, including Intel and Microsoft, that are 
participating in this public/private partnership to build 100 
Discovery Schools in Jordan. I hope you will have the time, on 
your next visit to Jordan, to come and visit these schools, 
which have become a real shining example of what educational 
reform is all about.
    This initiative is currently being modeled in the 
Palestinian areas. In Davos, in January of this year, we met 
with the Minister of Finance of Palestine and with Cisco and 
with representatives of the MEPI program in the State 
Department, and we all agreed that this example should be 
replicated in the Palestinian areas. And it is. It is also 
being replicated in Egypt, and it will be replicated in Bahrain 
in order to introduce a model house, if you will, of what 
educational reform products will be like in 5 years' time. It 
will show people how achievement in schools will be able to 
change their lives and to offer them opportunities.
    Obviously, the main challenge remains, Mr. Chairman, for us 
to find the jobs and to matchmake between the educational 
output and the input that is required by the labor markets. 
This is something that requires governments, private sector, 
and academicians and universities, in particular, vocational 
training centers, as well, to cooperate together in order to 
identify what are the needs, what are the projected needs in 
the economies of the Middle East, and how the educational 
reform process can help prepare all the young minds, all these 
big numbers that I mentioned at the start of this testimony, in 
order to get them the jobs, to give them hope, to give them a 
vested interest in the moderation and the stability of our 
region. Failing that, we are going to have a major catastrophe. 
Thank you, Mr. Chairman.
    [The prepared statement and additional material submitted 
by Dr. Awadallah follow:]

   Prepared Statement of Dr. Bassem Awadallah, Minister of Finance, 
               Hashemite Kingdom of Jordan, Amman, Jordan

    Mr. Chairman, thank you for the opportunity to share with you my 
thoughts on educational reform in the Middle East, the nexus between 
education and terrorism, and our efforts in Jordan to place education 
at the center of the reform and development agenda. To be sure, the 
Middle East is faced with the immense challenge of its demographic 
trends: By 2010 some 146 million workers will seek employment, 185 
million by 2020. With unemployment rates now at about 15 percent, the 
ambitious goal of absorbing unemployed workers in addition to the new 
job entrants implies the need to create close to 50 million jobs in the 
coming 5 years and 100 million jobs by 2020; that is, doubling the 
current level of employment within the first two decades of this 
century.
    But within this stark statistic lies the hope of regional 
renaissance. Regardless of natural resource endowment, the future of 
the region will hinge on its ability to harness its human potential. 
Human resources, nurtured and provided with the opportunity to produce 
and innovate is the only way toward closing the knowledge and 
development gap that currently exists.
    Hatred, bigotry, and violence are not caused by the lack of access 
to knowledge, but rather, by the lack of opportunity. And education is 
central in allowing people to seek opportunity.
    Education must reflect a culture, a distinct understanding of the 
role of the individual and that of society. Closed societies with a 
reference point long lost in the past cannot teach knowledge as 
culture, but rather teach dogma as truism.
    This, Mr. Chairman, should be, in my modest opinion, the starting 
point and driver for any educational reform effort in the region. The 
central role that education plays is not lost on anyone in the region--
we live in young societies that yearn for it, whether through popular 
culture, media, or how we used to do it when I was in school, through 
reading.
    Terror and ideology are taught as doctrine in many places around 
the world. But helping build schools and pay for more teachers is not 
the solution--it is part of it though. The solution is the creation of 
an incentive-based system of assistance, particularly in education, in 
which countries modernizing their educational systems, encouraging 
creative thinking, problem solving, and trusting their students to make 
their own judgments about what is right and wrong are asssisted.
    There are three principal difficulties that challenge education in 
East Asia today: (i) The poor quality of basic education; (ii) limited 
access to educational opportunities, especially for girls; and (iii) 
the inadequate relevance to economic, social, and health needs.
    For our part in Jordan, the primacy of education in our development 
process has long been established, and we have long sought to invest 
heavily in our youth. The focus of Jordan's human resource development 
covers wide-ranging activities including public and higher education, 
vocational and technical training, and youth development. We find a 
pressing need to incorporate enhanced levels of student learning 
capabilities to include analytical skills, team-based activity, and 
computer literacy at every stage of the education system, enabling 
citizens to become increasingly highly educated, broadly skilled, 
adaptable, and motivated.
    This has been carried out through a 5-year comprehensive program 
(2003-2008) at a cost of US$380: The Education Reform for the Knowledge 
Economy program (ERfKE), devised in close coordination with the World 
Bank and other donors. It sets out a coordinated and integrated plan of 
action to meet the current and future needs of society in Jordan in the 
context of the knowledge economy. That is, relevant knowledge, adequate 
physical environments, and an environment in which students can 
discover, absorb, and contemplate values, thoughts, and knowledge.
    Since 2002, more than US$180 million have been channeled in human 
resource development, 39 percent of which was provided by the United 
States (US$70.6 million). Double shifts have been phased out in almost 
all schools; about 180 schools are being established, 140 kindergartens 
have been established, 650 science laboratories were built and 
equipped, while more than 500 schools have already been computerized, 
resulting in the ratio of students to personal computers decreasing 
from 42 to 16. Further, 14 new vocational training centers have been 
established, and 8,000 people have received, or are currently 
receiving, increasingly demand-driven training.
    Today, Jordan ranks 51st of 127 countries (and first among Arab 
States) in UNESCO's Education for All (EFA) Development Index 
(measuring primary enrollment rates, adult literacy rates, gender 
specific EFA, and survival rate to grade five).
    The Middle East region today is home to 130 million children who 
constitute 50 percent of the population. While most governments have 
made tremendous strides toward extending access to basic education to 
all children, the region is characterized by great underlying variation 
at the country level. For example, Egypt, Jordan, and Tunisia have 
achieved near universal enrollment, while literacy in Morocco is less 
than 40 percent. Similarly, access to education continues to be uneven 
across the population.
    Clearly much more needs to be done. USAID investments in education 
in the region of US$43 in 2003 are not sufficient. Educational reform 
will continue to occupy center stage, and we cannot but start with our 
young to lead a comprehensive national renaissance. Schools still need 
to be built, old curricula need to be revised, new e-curricula needs to 
be developed, and youth need to be trained with relevant skills. They 
must be provided with the tools necessary to lead productive and 
fulfilling lives.
    Within the framework of change to meet the economic needs of the 
future, and given the similarities and differences between countries of 
the region, there are a number of success stories that could be 
replicated through adaptation and modification in other locations and 
countries in the region. Given the pressing need to improve education 
and training, and given the scarcity of resources, it is important for 
all countries to consider what the necessary changes are, what 
approaches to change can be employed, and how sustainable change can be 
achieved. We have much to learn from each other through discussion, 
sharing of ideas, debate, and application.
    At the heart of any modernization plans in the region must be a 
review of the educational systems and a discussion of the modalities 
for reshaping them into true vehicles for advancement. Knowledge 
societies that cherish innovation and scholarship are the bedrock of 
development. The region's history of innovation is indeed a suitable 
backdrop for discussion, and a true revival of this tradition lies at 
the heart of a meeting of Education Ministers from the Middle East and 
the G-8.
    A renewed faith in partnership and shared interests is the main 
impetus for the meeting. This process was launched at the Forum for the 
Future meeting in Rabat, Morocco, in December 2004, where Jordan 
outlined its suggestions for cooperation between the G-8 and BMENA 
countries in educational reform.
    In a preparatory meeting held in London in February 2004, Jordan 
presented the following areas as what it expects will be the outcomes 
that will emerge from the ministerial meeting on education.

          a. A renewed commitment by countries of the BMENA region to 
        initiate and pursue homegrown and credible educational reform 
        initiatives.
          b. A clear and practical framework of action based on 
        technical consultations to explore the mechanisms of 
        implementing educational reforms. This is to be reviewed and 
        vetted at the Forum for the Future meeting in Bahrain in 
        November 2005.
          c. A commitment by countries of the G-8 to render support 
        (financial, technical, and political) to the educational reform 
        efforts in the region.

    Agreement has been reached on the agenda for the ministerial to 
tackle four main agenda items, as follows:
Agenda item I: Critical success factors for educational reform
    a. Political commitment.
    b. Financial commitment (importance of budgetary transparency and 
access to resources).
    c. Building on best practices.
    d. Systemwide governance.
    e. Monitoring and evaluation.
    f. Partnership with schools, parents, civil society, business, and 
donors.
    g. Systemic approach to reform.
Agenda item II: Literacy and access
    a. Support and commit to the framework of action to halve 
illiteracy as agreed upon in the Literacy Workshop to be held in 
Algeria in April 2005 (agreement on regional program).
    b. Support for regional and national plans to enhance access to, 
and participation in, education.
    c. Develop mechanisms for lifelong learning and out-of-school 
children.
Agenda item III: Equity and social inclusion
    a. Innovative uses of ICT in special education programs.
    b. Specialized outreach programs for disadvantaged students.
    c. Mechanisms to provide equal opportunities for girls and people 
in need.
    d. Inclusive models of schooling.
Agenda item IV: Quality of education
    a. Curricula renewal that maintains national identities and 
respects cultural particularities while facilitating modernization and 
development.
    b. E-content development.
    c. Quality assurance at all levels based on international standards 
and benchmarks.
    d. Occupational standards to ensure quality and facilitate labor 
mobility.
    e. Skills-based pedagogy backed by support for efficient 
professional development programs.

    The ministerial meeting on education will take place in the period 
22-23 May 2005, on the sidelines of the World Economic Forum meeting. 
Given the wide participation of the private sector and civil society, 
the ministerial meeting on education will have a rich pool to draw upon 
in its consultations.
    On 22 May 2005, a sub-Cabinet meeting on education will be held, in 
which roundtables will be formed to discuss each of the four agenda 
items outlined above. Each roundtable will include representatives from 
BMENA and G-8 countries, as well as representatives from the private 
sector and civil society organizations. Discussions will aim at 
producing a framework for action within each agenda item. The resulting 
frameworks for action will then be collated into a general framework 
that will be presented the following day for the ministerial meeting. 
The ministerial meeting will then review and discuss the document, with 
the aim of reaching agreement on the framework by the end of the day, 
and will be making an announcement to that effect.
    The support of the G-8 to the reform efforts of countries in the 
region is instrumental in their timely implementation and in ensuring 
their success. With the realization that regional reforms that reflect 
the realities of the region and address the fears of the people and the 
deficiencies of the existing systems are undoubtedly necessary, the G-8 
countries have much to contribute, in both expertise and resources. 
Education is no exception.
    Thank you very much.
                                 ______
                                 

                  Human Resource Development in Jordan

                              INTRODUCTION

    Following the economic crisis that was witnessed in 1989, Jordan 
underwent a series of deep structural economic reform programs that 
were primarily aimed at eliminating macroeconomic imbalances and 
reinstating macroeconomic stability. However, despite the reform 
efforts throughout the 1990s, strong and sustainable growth in real 
output continued to be low, and per capita income remained stagnant. 
This, combined with the high population and labor force growth, has led 
to a marginal reduction in unemployment and poverty levels. 
Furthermore, Jordan remained to be faced with a number of other 
critical challenges such as a high external debt, a high budget deficit 
(after grants), chronic water deficit, and an unproductive private 
sector.
    Reform efforts were hence revisited in 1999 when His Majesty King 
Abdullah II ascended the throne, prompting an accelerated pace and the 
launch of new strategies and initiatives aimed at enhancing the welfare 
of the Jordanian people and propelling economic growth to higher and 
sustainable levels. During the past 5 years, the government began to 
focus on devising and implementing measures to combat the critical 
challenges facing the economy, while at the same time laying the 
foundation for building a new Jordanian model that is commensurate with 
the evolving global trends. This new model is based on the premise of 
transforming into a knowledge-based society that is built on the vast 
potential of the people--its most valuable asset.
    With a population of 5.2 million that is growing at 2.8 percent per 
annum, coupled with a demographic composition that is predominantly 
young (72 percent of the population are below the age of 29), Jordan's 
ability to transform into a knowledge-based economy and join the ranks 
of the more advanced nations will be significantly determined by the 
contribution capacity of its young and growing population. Although 
education has always ranked high on the government's development 
agenda, the educational system is yet to meet the evolving labor market 
requirements of excellence, innovation, competitiveness, and 
productivity.
    The need for citizens to be highly educated, broadly skilled, 
adaptable, and motivated has been recognized and validated. In this 
regard, educational reform efforts and investment in human resource 
development began to intensify in recent years, and particularly 
following the launch of the Social and Economic Transformation Program 
(SETP) in November 2001, which made funding more readily available for 
such extensive endeavors.

            HUMAN RESOURCE DEVELOPMENT COMPONENT OF THE SETP

    Human resource development (HRD) comprises one of the major 
cornerstones of the SETP, an integrated socioeconomic development 
program, spanning a period of 3 years (2002-2004), with the main aim of 
attaining sustainable development, and elevating the quality and 
standard of living of all Jordanians. Acknowledging the global shift 
from a resource-based to a knowledge-based economy, the government 
recognized the pressing need to emphasize analytical skills, team-based 
activity, and computer literacy at every stage of the educational 
system.
    Total investment in the Human Resource Development component over 
the 3-year period 2002-2004 amounts to US$180.6 million, of which 
US$64.1 million has been allocated for 2002, US$81.8 million has been 
allocated for 2003, and US$34.7 million has been allocated for 2004
    The HRD component of the SETP focuses mainly on investing in public 
education, higher eucation, and vocational and technical training.
(1) Public Education
    Modernizing the public education system has been an ongoing process 
since 1989. Nevertheless, initial reform efforts were mainly focused on 
building and expanding school facilities, particularly in the 
disadvantaged areas of the country. In recent years, however, efforts 
began to focus on transforming and modernizing the educational system 
to meet the challenges and needs of a knowledge-based economy through 
designing a system that adequately prepares future participants in the 
labor force, as well as improving the skills of the current labor 
force. The growing mismatch of skills was giving rise to higher 
unemployment rates, as secondary education graduates were increasingly 
unable to secure jobs in the highly complex and evolving labor market. 
In fact, the unemployment rate for this segment currently stands at an 
alarming 40 percent.
    In addressing this challenge, the government identified the need to 
realize lifelong learning in the medium to long term, and to adjust 
curricula to meet market requirements. In the near term, early 
childhood education opportunities need to be extended and gains at the 
basic education level to be consolidated. The SETP will enable the 
government to target additional public investments in the qualitative 
reform of the educational system to enhance Jordan's competitiveness, 
domestically, regionally, and globally.
    To this end, the government is concentrating its efforts on 
training students to think creatively, flexibly, and critically. The 
ultimate goal is to enable students to become socially active and 
responsible, to be more productive and work-oriented, and to be more 
self-reliant and independent in learning. Therefore, the government is 
keen to modernize the educational system by adopting new curricula 
development processes that meet the highest standards.
    Total SETP investment in public education projects over the 3-year 
period 2002-2004 amounts to US$72.6 million, of which US$21.1 million 
was allocated for 2002, US$25.2 million was allocated for 2003, and 
US$26.3 million was allocated for 2004.

               EDUCATION REFORM FOR THE KNOWLEDGE ECONOMY

    The guide for government investment in public education is the 
ERfKE program, which was devised by the government in close 
coordination with the World Bank and other donors. It sets out a 
coordinated and integrated plan of action to meet the current and 
future needs of learners and society in Jordan in the context of a 
knowledge-based economy. The total cost of the first phase of the 
project is estimated at US$380 million, and implementation will span 
over the 5-year period 2003-2008.
    From this new vision for human resource development in Jordan, four 
broad national initiatives were identified in transforming the current 
educational system to meet the requirements of the new knowledge 
economy. These include:

  <bullet> Structuring the educational system to ensure lifelong 
        learning;
  <bullet> Ensuring responsiveness of the educational system to the 
        economy;
  <bullet> Accessing and utilizing information and communications 
        technologies to support effective learning and system 
        management; and
  <bullet> Ensuring quality learning experiences and environments.

    ERfKE represents a landmark step in the progress of change in 
education in Jordan, embodying all four initiatives. A relevant and 
responsive quality education system is the bridge to the achievement of 
these goals. The program sets out in detail the intentions for reform 
of early, basic, and secondary schooling within an extensive and 
inclusive framework. The need for, and value of, highly educated, 
broadly skilled, adaptable, and motivated citizens has been recognized 
and validated in the program. These citizens will be the people with 
the knowledge and skills to make Jordan's economy competitive in the 
global marketplace and maintain and extend the security and stability 
of Jordanian society. It is also possible that due to the rapidly 
changing social and economic environment, certain skills and areas of 
content will consequently have a relatively short lifespan. Therefore, 
the knowledge economy will require lifelong learners who can readily 
acquire new skills sets and access, create, adapt and share knowledge 
throughout their lives.
    Jordan has made remarkable progress in education coverage over the 
past decade. The net enrollment rate in 2000/2001 was reported at 96 
percent for grades 1-6 (primary cycle), 92 percent for grades 1-10 
(basic cycle) and 80 percent for grades 7-12 (lower and upper 
secondary). The primary completion rate in the same year is estimated 
at 100 percent for boys and girls. Significantly, Jordan is also well 
advanced with regard to the elimination of gender disparities: In 2001, 
female enrollments accounted for 46 percent of all kindergarten 
enrollments, 49 percent of all basic education enrollments, and 50.5 
percent of the upper secondary enrollments. Reform efforts are intended 
to have an additional positive impact upon these encouraging enrollment 
and participation statistics.
    The reform program is organized into four major interconnected and 
interdependent components:
    Component I: ``Reorient Education Policy Objectives and Strategy 
through Governance and Administrative Reform.'' This component supports 
the development and implementation of policies and strategies to 
reorient and enable the effective management of the education system to 
serve the needs of the individual learner and society at large. It 
includes the formulation of a clear vision, the articulation of a 
comprehensive and integrated national strategy, and the effective 
transfer of authority and responsibility to regional and local 
education authorities, including the schools. The intentions and 
activities for reform in Component I are crucial elements for initial 
and continued success in each of the other components.
    Component II: ``Transform Education Programs and Practices to 
Achieve Learning Outcomes Relevant to the Knowledge Economy.'' This 
component confronts the central issue of education reform as it deals 
with the nature of, and expectations for, learning and teaching within 
the context of a new curriculum, designed to prepare students for life 
and work in the knowledge economy. Furthermore, professional 
development and training, as well as providing the resources to support 
effective training, are central to this component.
    Component III: ``Support Provision of Quality Physical Learning 
Environments,'' The purpose of this component is to describe and 
explain the goals and activities that have been determined as the most 
effective ways in which to improve the quality of education by 
improving the physical quality of the learning environment in public 
schools. Substantially, this involves the alleviation of overcrowding, 
the replacement of unsafe buildings, and the upgrading of facilities to 
support the education reform initiatives for transformations in the 
learning for the knowledge economy.
    Component IV: ``Promote Learning Readiness through Early Childhood 
Education.'' The ERfKE project will directly assist the government, 
specifically through the Ministry of Education, in partnership with a 
wide range of international and local funding organizations, 
nongovernmental organizations, and the private sector, in the 
implementation of a comprehensive approach to improving the scope and 
quality of essential early childhood services. This component has been 
subdivided into four main areas of activity and intended outcomes. 
These areas cover a series of important themes, and success in each of 
them over the next 5 years will make significant inroads into the 
realization of better opportunity, support, and achievement of 4-6-
year-old children in Jordan.
    Following is a brief on the progress of the ERfKE project by 
component:

  <bullet> Component I: Reorient Education Policy Objectives and 
        Strategy Through Governance and Administrative Reform

    --National Public Relations Campaign: Negotiations with the 
            selected firm started 5 December 2004, and have been 
            concluded successfully.
    --Gender issues: Further attention will be given by the Ministry of 
            Education (MOE) in regards to gender issues and ERfKE as 
            the MOE has indicated that part of the curriculum renewal 
            process under ERfKE will investigate the gender 
            stereotyping in the curriculum and work on addressing them. 
            There will also be a gender specialist attached to the 
            project (funded by CIDA) for the next 2-3 years to assist 
            in integrating gender further into ERfKE activities.
    --Integrated Education Decision Support System (EDSS): An inception 
            report was completed and an awareness workshop on the 
            nature and purpose of EDSS was held in October 2004.
    --National Learning Assessment: A National Learning Assessment Test 
            has been administered and the results are currently under 
            analysis.
    --Learning Readiness Assessment: Pre-pilot, pilot, and main surveys 
            have been administered, analysis is underway, and the final 
            report is scheduled for March 2005.

  <bullet> Component II: Transform Education Programs and Practices

    --Curriculum and Learning Assessment Framework: The General 
            Curriculum and Learning Assessment Framework document has 
            been appraised and approved.
    --Institutional Capacity Building of DCT and Exams: An 
            international consultant is in the process of following up 
            on the implementation of an integrated plan and designing a 
            leadership training plan in the MOE.
    --Curriculum Development: A master schedule for curriculum renewal; 
            phasing and resource acquisition completed.
    --Monitoring and Review of Curriculum Implementation: A UNESCO 
            consultant submitted an inception report on M&E needs of 
            ERfKE.
    --ICT Training of Teachers, Principals, and Administrators: 18,000 
            teachers successfully completed training on ICDL, 600 
            teachers completed training on Worldlinks and 14,000 
            teachers on Intel.

  <bullet> Component III: Support Provision of Quality Physical 
        Learning Environment

    --Construct 160 new schools to replace confirmed existing unsafe 
            facilities: 40 schools funded by WB (construction phase) 
            are all under construction; 42 of the 45 schools funded by 
            EIB (design phase) are ready for construction; 38 schools 
            funded by the Arab Fund (construction phase) are under 
            construction; 9 of the 26 schools funded by IDB 
            (construction phase) have been awarded; approximately 15 
            schools are to be funded by the KFW (design phase).

  <bullet> Component IV: Promotion of Learning Readiness Through Early 
        Childhood Education

    --Development and Monitoring of Early Childhood Development (ECD) 
            curriculum: The curriculum is in place, and was officially 
            launched under the patronage of Her Majesty Queen Rania 
            along with the Kidsmart program on September 1.
    --Recommendations for the monitoring and evaluation framework for 
            the national curriculum has been prepared.
    --Learning Readiness Assessment: Pre-pilot and pilot surveys have 
            been completed, and the main survey has also been 
            conducted. Analysis of the main survey is underway and the 
            final report is scheduled for March 2005.
    --Train Trainers, Teachers, Supervisors and Principals: 89 teachers 
            successfully completed training on Wisconsin and have been 
            certified in 2004.
    --Buildings and Facilities Extensions Design phase: The design of 
            140 KGs is underway.
    --Furnishing 100 KG Classrooms: A contract for the renovation of 4 
            KGs has been signed, and delivery is scheduled for the end 
            of January 2005.

(2) Higher Education
    Universities are increasingly assessed by their relevance and 
contribution to national economic performance and quality of life. 
While there has been rapid quantitative expansion of the higher 
education system in Jordan, it has not yet been accompanied by a 
sufficient qualitative shift. Jordan's capacity to reach its goal of 
becoming more competitive within the global economy will be largely 
dependent upon the orientation of its higher education graduates.
    There are currently 21 universities in Jordan (13 private and 8 
public), with around 150,000 enrolled students. The government has 
recently identified the major issues for higher education reform, and 
will embark on a major reform agenda that will encompass the following:

  <bullet> Focusing on quality control issues to enhance the level of 
        higher education.
  <bullet> Updating and modernizing the higher education curricula to 
        meet the hard and soft skill requirements labor market (both 
        domestic and international).
  <bullet> Revisiting admission requirements to allow students to 
        pursue their desired career tracks.
  <bullet> Allowing for the licensing of new private universities.
  <bullet> Channeling more funding for higher education.
  <bullet> Promoting research and development.
  <bullet> Amending the necessary legislation to allow for greater 
        private sector participation in higher education and allow for 
        their affiliation with prominent higher education institutions.

    SETP projects will work in tandem to improve the performance of 
public higher education institutions, strengthen the accreditation 
process with the aim of meeting international standards, and improve 
the reputation and standards of universities in the areas of 
computerization, information technologies, and English language 
teaching.
    The total cost of this subcomponent over the 3-year period 2002-
2004 is US$49.6 million, of which US$19.8 million was allocated for 
2002 and US$29.8 million was allocated for 2003.
(3) Vocational and Technical Training
    Recognizing that there has been limited change over the past 
several years in the provision of vocational and technical training, 
the reform of this sector has recently become a government priority. 
Vocational and technical education has tended to emphasize the supply 
of narrow, occupationally specific skills as opposed to broad-based, 
labor- and global-market relevant skills.
    The SETP aims to reorient the focus of existing vocational and 
technical training programs from an information-based training model, 
to one that is demand-driven, competency-based and provides the 
employability skills required to increase worker productivity, 
technological adaptation and innovation. Specifically, the SETP will 
reactivate the Higher Council for Vocational and Technical Education 
and Training to improve the coordination of vocational training 
programs and services; computerize training centers to encourage the 
acquisition of information technology skills; develop competency-based 
training programs and curricula that are more responsive to labor-
market needs; upgrade instructor skills; encourage private sector 
participation in adapting training to meet their human resource 
requirements; and support additional activities for upgrading and 
updating the current technical labor pool. Furthermore, support will 
also be provided for specialized, regional-based technical vocational 
training centers, such as training centers for women and training 
centers responsive to domestic labor market needs, such as those for 
the hospitality services, electronics industry, construction industry, 
and metal industries.
    The total cost of this subcomponent over the 3-year period 2002-
2004 is US$41.6 million, of which US$18.9 million was allocated for 
2002, US$19.4 million was allocated for 2003, and US$6.7 million was 
allocated for 2004.

              INTRODUCING ICT INTO THE EDUCATIONAL SYSTEM

EduWave Project
    One of the main pillars of educational reform is the increased 
access to information and communications technology (ICT). Extensive 
efforts have been made at computerization of schools, as 500 schools 
that include about 173,000 students have been computerized, resulting 
in the ratio of students to personal computers decreasing from 42 to 
15. Moreover, 32,000 teachers have been trained on ICDL, and an 
additional 2,070 schools now have Internet access. Providing schools 
with computers alone, however, does not ensure a transformation in the 
educational process. The deployment of the necessary tools that will 
allow students, teachers, and administrators alike, to effectively use 
ICT for their own benefit is as imperative as the hardware itself.
    With over 1.5 million students in schools, the educational system 
in Jordan directly affects over one-third of the population. The 
government realizes that a special initiative should be adopted to 
bring students, teachers, and administrators up to pace. Thus, and as a 
result of a true partnership between the Jordanian public and private 
sectors, the national Jordanian e-learning initiative was launched in 
September 2002.
    One of the main pillars of this initiative is EduWave, which is a 
comprehensive e-learning solution that was fully designed and developed 
by a leading Jordanian IT company. With EduWave, the 1.5 million 
students will be connected to a broadband network and will be able to 
learn, and access learning content and information inside and outside 
their classrooms, during and after school hours. Furthermore, around 
35,000 teachers will be able to work and interact with their students 
online. They will be able to track individual student performance and 
accordingly apply the appropriate educational schemes that suit each 
student's individual strengths. Teachers will also have access to a 
pool of learning tools, which they can use and reuse to build a variety 
of courses and educational material from which students can learn. 
Through on-line group study sessions, resources will be maximized, and 
teachers along with students will be able to share information and 
study sessions across distances. Furthermore, administrators will have 
access to educational related data that would help them in 
decisionmaking and in better future planning.
    The vision is to make learning available in places where there is 
none, to enhance resources where there are few, and to open the 
learning place and expand the learning day. The prime goal is to make 
the learning experience more exciting and effective. EduWave will:

  <bullet> Provide all school students, teachers, and education 
        administrators with access to information and resources 
        relevant to their educational needs.
  <bullet> Enhance productivity in the educational sector by 
        integrating technology, innovation, and cutting edge 
        educational practices to maximize student benefits.
  <bullet> Provide students with tools to improve their learning and 
        self-development and to monitor their performance.
  <bullet> Provide teachers with tools to help them communicate ideas 
        and concepts and measure students' performance and 
        developments.
  <bullet> Provide administrators with tools that help them develop 
        full school systems by creating a data bank that can help them 
        monitor development and performance and adjust resources 
        accordingly.
  <bullet> Provide the educational sector with a system that utilizes 
        reusable learning tools to achieve predefined learning outcomes 
        allowing maximum benefit from all content.
  <bullet> Personalize the learning experience according to every 
        student's needs in order to maximize performance results.
  <bullet> Offer new and innovative ways for faculty and students to 
        engage in the process of teaching and learning.
  <bullet> Allow for smooth transition into the new digital era using 
        easy-to-use tools and authoring tools.
  <bullet> Help bridge the digital divide and close the gap between the 
        mere presence of technology and its effective integration into 
        curricula to deliver the skills needed for the 21st century.
  <bullet> Allow easier and more equitable access to education.
  <bullet> Improve the level and quality of education both inside and 
        outside the classroom.
  <bullet> Increase efficiency in the classroom, allowing for more room 
        for innovation and creativity.
  <bullet> Allow for customization of the learning experience to 
        maximize results.
  <bullet> Increase efficiency in the process of student assessment.
  <bullet> Allow for a high level of teacher-student interaction.
  <bullet> Foster innovation and creativity in education, society, and 
        the economy.
  <bullet> Enhance and complement the teachers' role in the classroom 
        by allowing for effective guidance and support.

                               CONCLUSION

    Human resource development has always ranked high on the 
development agenda of the Government of Jordan. In recent years, 
however, a new direction was adopted in the education reform agenda to 
ensure that the extensive investment in the human capital will yield 
the desired returns of equipping people with the needed skills that are 
required by today's evolving labor market.
    The course of this direction is also commensurate with the overall 
development path that Jordan is taking. The ultimate goal is to build a 
sustainable resilient and liberal socioeconomic model that effectively 
enhances the welfare of all Jordanians. Without equipping people with 
the needed skills to compete in the global market, Jordan's growth 
potential will continue to be hindered by the mismatch between the 
output of the educational system and the requirements of the labor 
market, and the resulting high unemployment rates among the growing 
young stratum of society.
    Educational reform and the extensive investment in HRD is necessary 
for attaining sustainable socioeconomic development. Thus, the 
government has identified the weaknesses in the educational system and 
is embarking on a sweeping reform agenda to equip people with the 
needed skills to compete in the global arena.

    The Chairman. Well, Doctor, thank you very much for that 
very exciting testimony of optimism and challenge. We thank you 
very much.
    Mr. Burki.

STATEMENT OF SHAHID JAVED BURKI, CONSULTANT, NATHAN ASSOCIATES, 
                          POTOMAC, MD

    Mr. Burki. Mr. Chairman, first allow me to thank you for 
giving me the opportunity to appear before you. It's a singular 
honor, because under your leadership the United States has 
embarked upon a very important program to bring education to 
the Muslim masses in what has now come to be called the Near 
Eastern Region. And with your devotion and your commitment and 
your leadership, I hope both sides, working together, the 
countries in the Muslim world and the American Government and 
the American Congress, will be able to achieve good results.
    Mr. Chairman, in my own introductory remarks, I really 
don't have a great deal of--a great deal to say about 
achievements. I will focus much more on the problems that my 
country faces. And, as you know, these problems are severe, 
they need to be handled with a great deal of imagination, 
courage, and some commitment of resources. I'll come to the 
question of resources. But it's an area that needs urgent 
attention. And I believe that it is right for the world to 
focus on a country such as Pakistan, which has a very large 
population, growing very rapidly. Pakistan today has 155 
million people; of this, about one-half of the population is 
less than 18 years old. For a person like me, who's been living 
in the United States for a very long time, it's interesting to 
make a comparison between the structure--age structure of your 
population and the age structure of my country's population. 
You have twice as many people in the United States, but the 
number of young in the United States is exactly the same as the 
number of young in Pakistan, with half the population. So that 
gives you some flavor of the problem that the country faces.
    It is right for donor agencies, including the United 
States, to focus on the Pakistani problem. This is not the 
first time that this has been done. I was, for many years, at 
the World Bank, and my old institution put together a program 
called Social Action Program, in which billions of dollars were 
committed. Unfortunately, much of this money was wasted; and, 
therefore, the new donor involvement in the reform of education 
in Pakistan has to be handled with a great deal of care.
    Mr. Chairman, one worry that I have is that there has been 
an excessive focus on madrasas in Pakistan. It is correct to 
focus on madrasas, but, at the same time, it is important to 
underscore that madrasas don't provide education to a very 
large number of people. Estimates vary. I have seen estimates 
from 1 to 5 percent, but it's a relatively small number of 
school-going children who are attending madrasas.
    The main problem, Mr. Chairman, is in public-sector 
education. This has become dysfunctional over time. It caters 
to something like 73 percent of the school-going population in 
Pakistan. And if this system is not fixed, then we really have 
a big problem on our hands. And my view is that if, as the 9/11 
Commission report wrote eloquently about this problem, it is 
not the madrasa that could provide manpower, pulling foot 
soldiers to jihadi causes, it will be the dissatisfied, unhappy 
graduates of the public school system, who have spent years in 
a system which doesn't provide education, and when they come 
out they are not ready to enter the modern economy.
    I wish I could tell you the same about Pakistan as we heard 
about Jordan, the great achievements that have been made. In 
the case of Pakistan, those achievements are still in the 
future.
    I'm convinced, Mr. Chairman, that the Pakistani problem 
will not be solved by throwing more money at the problem. It 
has been done before; and, as I said, there was a lot of 
wastage, a fair amount of corruption. What is needed is a 
reform of the system. And listening to a report, day before 
yesterday, at the Woodrow Wilson Center, I was heartened to 
note that the United States involvement through AID is now, 
indeed, focused on systemic reform, and not just providing easy 
access to lots of money to those who are managing the Pakistani 
system.
    One other thing that I would like to underscore, and this 
is something that is not often recognized when people talk 
about the Pakistani education, is the enormous role, and 
important role, that the private sector has begun to play. 
There are estimates which suggest that something like one-
fifth--or one-fourth of the school-going population now is 
attending private schools. Most of these schools are run on 
profit basis; some of them are run on nonprofit basis. Some of 
these schools are run very well. They provide Western liberal 
education. And they are producing the types of people that a 
country like Pakistan, and an economy like Pakistan, will need.
    So, I say this, because it is my view, that in designing a 
reform program for the education sector, it is extremely 
important to include within it the role of the private sector 
and how a private/public sector partnership could work.
    Mr. Chairman, I have, as I was requested, put in a 
reasonably long statement for the record, but I'll just like to 
conclude by offering you, very quickly, 12 suggestions that I 
think would be appropriate for the reform of the sector.
    As I said, my first suggestion is that reforming the entire 
public sector should be the main area of focus.
    Second, there is now evidence, from many parts of the 
world, to indicate that for functional literacy it is important 
to have children stay in school, not for 5 years, but for a 
much longer period of time; as long as 10 to 12 years.
    When I was at the World Bank, I was responsible for the 
region of Latin America and the Caribbean, and folks in Chile 
did some very interesting analysis and came to the conclusion 
that it is rather wasteful to say that compulsory education is 
only for 5 years, if you really want to make a difference to 
how well people get equipped with knowledge and behavioral 
change. And they suggested something like 10 to 11 years.
    I would like to see something very similar done, in the 
countries of the Muslim world, that just focus on primary 
education can be wasteful. It has--children have to be kept in 
school for a much longer period. And this particularly applies 
to female education, where all these countries, barring none, 
have fallen way behind.
    I've already indicated, and that's one of my suggestions, 
that we should just not focus too much attention on money, but 
we should focus a great deal of attention on reforming the 
entire system, particularly, the institutional aspects of this 
system. One area that needs tremendous attention, so much so, 
in one conversation I had with President Musharraf, not--in 
fact, very recently--I said to him that he should make this his 
passion, the education of girls, because I am of the view, 
which everybody shares in the development field, that a country 
that condemns its women to backwardness condemns itself to 
eternal backwardness. And, unfortunately, Pakistan has done 
that, and continues to provide all kinds of obstacles for the 
advancement of women. And so, women's situation, starting with 
education, has to become a very important part of this program.
    It is important for the reformers to develop a 
comprehensive approach that includes curriculum improvement, 
teacher training, improving the physical infrastructure, 
improving the quality of textbooks, and so forth. So there are 
lots of things to be done.
    What is very important, Mr. Chairman, is improving the 
quality of governance in the country, particularly in Pakistan. 
My longer paper talks about why Pakistan's educational system 
has become dysfunctional. It became dysfunctional because it 
was politicized. And so, politics has to be taken out of the 
system.
    And one other initiative which is taken by the present 
government, to--which I hope it does not backtrack from--is a 
devolution of government authority right down to the community 
level. And we saw this in Latin America, that whenever you 
brought education closer to the people, it worked very well, 
and this is something that Pakistan should do.
    It is my view that the donor community should provide some 
of its assistance directly to nongovernment organizations, 
private-sector institutions, and for student assistance. Some 
of the schools that I talked about, which are providing 
excellent education, are not accessible to children of poor 
families, because they charge very high fees. So, it is 
important to put together a program of providing assistance to 
children of poor families who can access these institutions.
    When I was at the World Bank in Mexico, we started a 
similar program in which the banking system was used in order 
to provide scholarships and low-cost loans to the students.
    One other aspect which should come into play is the 
economic significance of the Pakistani diaspora in the United 
States. It's a subject about which I've done some work. There 
are about half a million Pakistanis in this country. Their 
total income is roughly equal to 25 percent of Pakistan's GDP, 
so it's an enormous resource that is available, in terms of the 
proportion of GDP generated by this particular group. Pakistani 
diaspora is one of the largest in the world, and I know that 
these people are now very keen to help education in Pakistan 
through the creation of various foundations, and so forth. So, 
it would be an appropriate time to get this particular group 
involved.
    Finally, Mr. Chairman, the role of the state. My own view 
is that the state should unburden itself from directly managing 
public-sector institutions, but play much more of a role in a 
regulatory sense. Regulate the training of teachers, regulate 
the certification of teachers, regulate the certification of 
schools, develop a core curriculum that must be taught in all 
schools, whether they are madrasas or Western oriented, and so 
on. So, this is the kind of role that a state should be 
playing, rather than spending scarce resources on managing 
universities, colleges, and schools. And this, I think, should 
become a primary interest on the part of the donor community.
    Thank you, Mr. Chairman. I'll stop with that.
    [The prepared statement of Mr. Burki follows:]

     Prepared Statement by Shahid Javed Burki, Consultant, Nathan 
                        Associates, Potomac, MD

        EDUCATING THE PAKISTANI MASSES: THE WORLD NEEDS TO HELP

Introduction
    Let me start this brief presentation with the main conclusions that 
I have to offer with respect to the deteriorating state of education in 
Pakistan and how this could affect the rest of the world. I would like 
to underscore the following six conclusions. One, it is right for the 
world to worry about the larger impact of Pakistan's dysfunctional 
educational system, especially when it has been demonstrated that 
poorly educated young men in a country as large as Pakistan pose a 
serious security threat to the rest of the world. Two, it is timely for 
the world's donor agencies to offer help to Pakistan to reform its 
system of education so that it can produce people who have the right 
kinds of skills to operate in the modern economy. Three, it is correct 
to focus on the reform of the madrasa system but it would be imprudent 
to give too much attention to this part of the educational system in 
the country. Four, the part of the system that really needs attention 
is the one managed by the public sector. This is the system that looks 
after the education of some 90 percent of the school going age. 
Reforming it is of critical importance. Five, the problem of public 
education will not be solved by throwing more money into the system. 
What is required is systemic reform. Six, and finally, the private 
sector has an important role to play in reforming the educational 
system. This is an area in which the large and well-endowed communities 
of Pakistanis resident in the United States could also participate.
    I will develop these conclusions in five parts. In the first, I 
will provide a quick overview of Pakistan's demographic situation and 
how it has affected the system of education. In the second part, I will 
give a brief description of the structure of the educational system in 
the country from the time of independence in 1947 to the early 1970s 
when it began to deteriorate. The third part will provide a quick 
overview of the reasons that led to slow collapse of the educational 
system. In the fourth part I will indicate the lessons Pakistan can 
learn from attempted reforms in other parts of the world to improve its 
own system. In the fifth and final part I will suggest some approaches 
to the reform of the Pakistani system.

Pakistan's demographic situation and how it has impacted on the system 
        of education
    Pakistanis, both policymakers based in Islamabad and the public at 
large, were slow to recognize that the country's large and increasingly 
young population was mostly illiterate and was singularly ill-equipped 
to participate in the economic life of the country.
    Pakistan's young did not even have the wherewithal to participate 
in the process of ``outsourcing'' that had brought economic 
modernization and social improvement to many parts of India. The 
economic and social revolution that India is witnessing today could 
have also occurred in Pakistan but for a number of unfortunate 
developments discussed below. For the moment we will reflect on the 
problem Pakistanis face today--in 2005.
    In 2005, Pakistan is the world's sixth largest country, after 
China, India, the United States, Indonesia, and Brazil. Its population 
is estimated at 155 million; of this, one-half, or 77 million, is below 
the age of 18 years. Pakistan, in other words, has one of the youngest 
populations in the world. In 2005, the number of people below the age 
of 18 in the United States was less than those in Pakistan and yet the 
American population is almost twice as large as that of Pakistan. What 
is more, with each passing year the population is getting younger.
    In spite of a significant decline in the level of fertility in 
recent years, Pakistan's population is still growing at a rate well 
above 2 percent a year. Even with some further reduction in birth rate, 
by 2030 Pakistan could--a quarter century from now--overtake Brazil and 
become the world's fifth most populous country, with a population of 
255 million. Or, put in another way, Pakistan is set to add another 100 
million people to its already large population over the next 25 years.
    A significant number of this additional population will end up in 
the already crowded cities of the country, in particular Karachi, in 
Lahore, and in the urban centers on the periphery of Lahore. Karachi 
already has more than 10 million people; by 2030 it could have a 
population of 25 million. By the same time, Greater Lahore may have a 
population of 15 million. Will such large urban populations live in 
peace and become active contributors to Pakistan's economic growth and 
development? Or will they become increasingly restive and disturb peace 
not only within the country but also outside the country's borders? The 
answers to these two questions lay in the way the authorities and 
people of Pakistan approach the subject of education and what kind of 
assistance they can receive from the world outside.
    There are four characteristics of Pakistan's demographic situation 
that have attracted attention in the Western World, particularly in the 
United States, One, that in two to three decades Pakistan will have the 
largest concentration of Muslims in the world, more than in Indonesia 
and in India. Two, the population of Muslims will be very young. Out of 
a population of some 255 million projected for 2030, about 170 million 
will be below the age of 18. Three, unless an ambitious program is 
launched soon and implemented with the government's full attention and 
energy, a significant proportion of the young will be poorly educated 
and will have skills that will not be of much use as a factor of 
production in a modern economy. Four, an indifferently educated 
workforce made up of millions of young people, living in a few crowded 
mega cities, will become attractive recruits for groups and 
organizations that are alienated from the global economic, political, 
and social system. In a Muslim country such as Pakistan, the groups 
that will be able to attract the young espouse various radical Islamic 
causes.
    There are two questions that need to be answered in order to 
explain the situation in Pakistan. One, why did the education system in 
Pakistan deteriorate to the point where it now threatens economic, 
political, and social stability, not only within the country, but also 
poses a real danger for the world at large? Two, what can be done to 
redress this situation?

The structure of the system after the creation of the State of Pakistan
    In the late 1940s and up to the early 1970s, Pakistan had a 
reasonably efficient system of education, not much different from other 
countries of the South Asian subcontinent. It was dominated by the 
public sector; educational departments in the provinces administered 
schools and colleges while a small number of public sector universities 
provided post-graduate instruction. The private sector was active at 
the two extreme ends of the educational spectrum. On the one end were 
missionary schools and colleges specializing in Western-style liberal 
education. At the opposite end were religious schools, called dini 
madrasas that imparted religious instruction. Some of the better 
institutions belonging to this genre were either imports from India or 
were patterned after the old madrasas in what was now the Indian State 
of Uttar Pradesh. The best known of these was the Darul Uloom at 
Deoband that had developed its own curriculum and taught a highly 
orthodox or fundamentalist interpretation of Islam. Following the 
partition of India and the birth of Pakistan, a number of ulema 
(Islamic scholars) from Deoband migrated to Pakistan and established 
seminaries in the new country. Two of these, a madrasa at Mora Khattak 
near Islamabad called Darul Uloom Haqqania and the other in Banori 
township of Karachi played a prominent role in bringing an austere form 
of Islam to Pakistan. We will return to the subject of these madrasas a 
little later.
    The private schools catered mostly to the elite while the religious 
schools produced imams (preachers) for the mosques or teachers for the 
madrasa system of education. These two systems are producing two 
different social classes with very different world views and views 
about the way Pakistan should be managed. The two groups are now 
clashing in the political and social arena. One recent example of this 
is the controversy over the deletion of a box in the newly designed and 
machine readable passport that initially did not have a column 
indicating the religious affiliation of the passport holder. This step 
was taken by the government headed by General Musharraf as one small 
move toward what he has called ``enlightened moderation.'' He was, 
however, beaten back by the religious parties and the ``religion 
column'' was reinserted in the passport.
    In between these two social classes is a large inert group, the 
product of the public educational system, The large public school 
system includes all aspects of the system of education. It starts with 
kindergarten and primary schools at the bottom, includes secondary and 
higher schools, and has at its apex semiautonomous but publicly funded 
universities. For several decades the standard of instruction provided 
by this system was adequate; the system's graduates were able to 
provide workforce for the large public sector and also for the rapidly 
growing private sector of the economy. Those graduates of the system 
who went abroad for further education, either at their own expenditure 
or relying on the funds provided by various donor supported scholarship 
schemes, did not experience much difficulty in getting adjusted to the 
foreign systems. Some of Pakistan's better known scholars and 
professionals, such as the Noble Prize winning Physicist Professor 
Abdul Salaam and the well-known economist Mahbubul Haq, were the 
products of this system.
    However, the system has deteriorated over time to the extent that 
it has become common to describe Pakistan as the country that has done 
the least for the social development of its large population. It is 
also common to fear that without major investment in education, 
Pakistan may well become a large exporter of manpower to the stateless 
Islamic organizations--al-Qaida being the most prominent among them--
that will continue their crusade against the West, Western values, and 
anything else they see from their narrow prism as anti-Islamic.
    How did Pakistan travel the distance from a moderate Muslim country 
with a reasonably efficient educational system to a country in which 
the public system of education is virtually broken down and in which a 
large number of educational institutions are providing instruction that 
teaches hate for those who hold different points of view and encourages 
jihad against them? Pakistan's gradual transformation from one state to 
the other occurred slowly under many different impulses. As such the 
country offers a good case study of how a society can get derailed.

Systems progressive collapse over time
    The Pakistani educational system collapsed slowly, at times its 
progressive deterioration was not even noticed by the people who later 
were to be most affected by it. The collapse occurred for basically 
four reasons. The first jolt was given in the early 1970s by government 
headed by Prime Minister Zulfikar Ali Bhutto. Bhutto decided to 
nationalize private schools, in particular those run by various 
Christian missionary orders. His motive was simple. He was of the view 
that private schools encouraged elitism in the society whereas he 
wanted equality and equal opportunity for all.
    Bhutto was also responsible for delivering the system the second 
shock and this time around the motive was political expediency. His 
rise to political power was viewed with great apprehension by the 
religious forces in the country. They considered the socialism Bhutto 
espoused as ``godless'' and were determined to prevent him, and the 
Pakistan People's Party founded by him, from gaining ground. The two 
sides--Bhutto and the Islamists--chose to use the college and 
university campuses to fight the battle for the control of the 
political mind in the country. Both sought to mobilize the student body 
by establishing student organizations representatives of their 
different points of view.
    For a number of years campuses of the publicly run institutions 
became the battle ground for gaining political influence at the expense 
of providing education. It was in this battle, waged in educational 
institutions, that Pakistan witnessed the birth of another 
organization--the Muhajir Qaumi Mahaz--that was to use violence in 
order to spread its word and make its presence felt.
    The third development to turn the system of education dysfunctional 
occurred in the 1980s when a coalition, led by the United States and 
included Pakistan and Saudi Arabia, decided to use the seminaries as 
training grounds for the mujahideen who were being instructed to battle 
the Soviet Union's troops occupying Afghanistan. There was an unspoken 
understanding about their respective roles among these three partners. 
The United States was to provide equipment and training for the foot 
soldiers of the jihad. Pakistan was to set up madrasas in the Afghan 
refugee camps and along the country's long border with Afghanistan. Its 
military, with better knowledge of the Afghan terrain, was to be 
actively involved in training the mujahideen. The government of 
Islamabad also reserved the right to choose among the various groups 
that were prepared to do battle in Afghanistan. The Saudis were happy 
to aid the effort with money as long as they were allowed to teach 
Wahabism, their brand of Islam, in the seminaries that were to be used 
for training the jihadis. This proved to be a potent mix of motives: 
The United States was able to recruit highly motivated fighters to go 
after the occupying forces of the Soviet Union in Afghanistan, Pakistan 
was able to further its influence in Afghanistan and Saudi Arabia was 
able to introduce its extremely conservative interpretation of Islam 
into a large Muslim country that had hitherto subscribed to a 
relatively liberal, accommodating assimilative form of religion.
    The fourth unhappy development to affect the sector of education 
was the political confusion that prevailed in the country for more than 
a decade, from the death of President Zia ul-Haq in August 1988 to the 
return of the military under General Pervez Musharraf in October 1999. 
In this period four elected governments and three interim 
administrations governed the country. Preoccupied with prolonging their 
stay, the elected governments paid little attention to economic 
development in general and social development in particular. Under the 
watch of these administrations, public sector education deteriorated 
significantly.
    The failure of Pakistan to educate its young was the result of the 
failure of the state to provide basic services to the people. As 
already noted, the collapse of the public sector began in the mid-
seventies when the socialist-leaning administration of Prime Minister 
Zulfikar Ali Bhutto nationalized some parts of the educational system 
while denying an expanded public sector the resources it needed. In the 
30-year period since then, various governments, both military and 
civilian, continued to neglect public education while allowing it to be 
politicized. Politicization took the form of increased political 
activity on the part of student organizations representing various 
political parties. It was the Islamic parties that gained the most in 
the battle to influence the campuses.
    The progressive failure of the public sector to provide reasonable 
education to the masses brought in two very different types of 
educational entrepreneurs into the sector. On one end of the spectrum 
were groups of entrepreneurs who filled the space for Western-style 
liberal education. Since there was enough demand for this type of 
education on the part of the relatively well-to-do segments of the 
society, a number of for-profit institutions were established. They 
have flourished over time, providing high quality education to the 
upper end of the society.
    At the other end of the social spectrum were the poor who needed 
institutions that could provide basic education to their children 
without placing an unbearable economic burden on the families. This is 
when the madrasas stepped in with the financial wherewithal to take in 
male students, provide them with board and lodging, and give them 
instruction in religion. Most of these institutions did not have 
qualified teachers who could give instruction in mathematics, sciences, 
and languages other than Urdu to their students.
    The result of all this is that the Pakistani society today is split 
three ways when viewed from the perspective of education. At the top 
are the students who have received reasonably good education from 
Western-style institutions that operate mostly for profit. They count 
for perhaps 5 percent of the student body in the 5- to 18-year age 
group of some 70 million people. At the bottom are the religious 
schools that provide education to an equal number of students. In 
between is 90 percent of the student population dependent on a public 
system that is inefficient and corrupt. It is, in other words, 
dysfunctional. Before addressing the important subject of the remedies 
that are available to improve the educational system, we should take a 
look at the situation as it is today.

Reforming an educational system
    There are several ways of assessing the status of an educational 
system in the developing world. Among the more frequently used 
indicators are adult literacy rates for both men and women in various 
parts of the country; enrollment rates for both girls and boys at 
different levels of education and in different areas of the country; 
the dropout rates at different levels of education; the number of years 
boys and girls spend in schools; the amount of resources committed to 
education as a proportion of the gross domestic product, particularly 
by the public sector; the amount of money spent on items other than 
paying for teachers' salaries; and, finally, some measure of the 
quality of education provided. To these indicators, one should also add 
the quality of data and information available about education. 
Unfortunately, Pakistan's record is relatively poor on all these 
counts, including the quality and reliability of the data which makes 
it difficult to provide a reasonably accurate description of the state 
of affairs in the sector.
    The latest information available for Pakistan suggests an adult 
literacy rate of only 43.5 percent for the entire population above the 
age of 15 years. The rates for Sri Lanka and India are considerably 
higher than for Pakistan; 92.1 percent and 61.3 percent respectively. 
Of the South Asian countries, only Bangladesh has a slightly lower 
rate, 41.1 percent. Since the level of literacy has a profound impact 
on the quality of human development, Pakistan ranks 142 in terms of the 
UNDP's Human Development Index. Sri Lanka ranks at 96, India at 127, 
and Bangladesh at 138.
    There are noticeable differences in gender literacy and in the 
level of literacy in different parts of the country. Some 58 percent of 
the male population qualifies as literate while female literacy rate is 
estimated at only 32 percent. In other words, two-thirds of the 
country's women can't read or write. There is not a significant amount 
of difference in the rates of literacy among different provinces. 
Sindh, on account of Karachi, has the highest rate at 60 percent while 
Balochistan at 53 percent has the lowest rate. However, it is among 
women living in different parts of the country that literacy rates vary 
a great deal: In Balochistan the rate is as low as 15 percent while it 
is 36 percent for Punjab's women. It is clear that the women of 
Balochistan must be targeted in any drive to educate the masses in the 
country.
    There are wide discrepancies in the various estimates of enrollment 
provided by various sources of information. My own estimates are for 
the year 2003 when the number of children in the primary school age was 
22 million of which 11.5 million were boys and 10.5 million girls. 
According to the Ministry of Education in Islamabad 9.6 million boys 
were in school, giving an enrollment rate of 83.4 percent. The number 
of girls attending primary school was estimated at 6.6 million, giving 
an enrollment rate of nearly 63 percent. There was in other words a 
gender gap of almost 20 percentage points. Once again the policy 
implication of this information is the need to focus on the provision 
of education for girls. Another conclusion suggested by these numbers 
is that we should expect a fairly significant increase in the rate of 
literacy as the cohorts presently in school reach adulthood.
    There is considerable disparity in the rates of enrollment among 
the richest 20 percent of the population compared to the poorest 20 
percent. The gap is 2\1/2\ times as large in the urban areas and even 
larger in the rural areas. Applying these number to overall literacy 
rates, it appears that while universal primary education has been 
achieved for the richest one-fifth of the population for both boys and 
girls, the enrollment rate for the poorest 20, one-fifth is only a 
shade above 45 percent. Public policy aimed at increasing the level of 
education must, therefore, focus on the poor in both urban and rural 
areas. There is demand among the poor for education; if it is not 
satisfied by the public sector, it will be met by the dini madrasas.
    As is to be expected, the well-to-do families tend to enroll their 
children in high performing privately managed schools while the poor 
are forced into the public sector system. According to a recent survey 
while only 27 percent of the children from the richest 20 percent of 
the households were enrolled in government schools; these schools 
catered to as much as 75 percent of the children from the poorest 20 
percent of the families. This means that the rich have been able to 
bypass the part of the educational sector managed by the government 
while the poor have no recourse but to send their children to public 
schools. This process of selection according to income levels is 
reducing the quality of the student body in government schools.
    There is a high-level dropout rate in the public system with the 
rate increasing as we go higher up in the system. Barely 10 percent of 
the school going age children complete 12 years of schooling; around 25 
percent leave after 8 years of schooling and another 15 percent by 
grade 10. Such a high level of dropout has serious budgetary 
implications. At least 50 percent of the educational budget is spent on 
the children who drop out early. This is a tremendous waste for a 
sector that is already short of resources.
    A high dropout rate has one other adverse consequence. Even if the 
level of literacy increases in the country, the level of skill 
acquisition will not improve. For many years a number of development 
institutions emphasized the provision of primary instruction without 
focusing attention on higher level education. It is only recently that 
there is recognition that human development means more than primary 
education. Some researchers maintain that universal education should 
mean more than 5 years of schooling; it take a much longer stay in 
schools to be able to become functional in a modern economy.
    In light of this, what are the options available to policymakers 
and to the donor community that is eager to help the country reform its 
educational system? The donor interest in the country's educational 
system reflects the understandable fear that, unless the educational 
system is fundamentally reformed, it would create a large body of young 
alienated people who would be prepared to lend a helping hand to the 
forces of radical Islamic not just in Pakistan but in all corners of 
the world.

Educating the Pakistani masses: A new approach
    The conventional approach for addressing the problem posed by the 
underdevelopment of the educational sector involved is based on five 
assumptions. One problem--by far the most important one according to 
most experts--many societies face is that the opportunity cost of 
sending children to school is greater than the benefit education is 
likely to bring. Parents bear costs even when education is free. 
Perceived cost of education is likely to be more of an inhibiting 
factor for the attendance of girls in schools than for boys. In poor 
households girls help their mothers handle a variety of chores 
including the care of their siblings. One way of approaching this 
problem is to provide monetary incentives to parents to send their 
children to school. School feeding programs fall into this category of 
assistance; they lower the cost of education for parents.
    Two, the state may not be spending enough on education. The remedy 
is to increase the proportion of public resources going into education. 
The donor community has been prepared to help with funds if there was 
the fear that the domestic resources were too constrained to allow for 
an increase in public sector expenditure on education. This was one 
reason why development institutions such as the World Bank 
significantly increased their lending for education.
    Three, typically a state spends more on secondary, tertiary, and 
university education than on primary education. The cure is to divert 
more funds into primary schooling.
    Four, the quality of instruction is poor. The obvious solution is 
to invest in teacher training, reforming the curriculum, and improving 
the quality of text books. Sometimes the quality may suffer because 
schools may lack proper physical facilities. They may be poorly 
constructed or the buildings may be poorly maintained. The students may 
not even have chairs and desks on which they can sit and work. This 
problem can be handled, once again, by committing more resources for 
public sector education.
    Five, the educational bureaucracy is too remote from the parents 
who wish to see an improvement in the quality of education given to 
their children. This gap between the provider and the receiver can be 
bridged by organizing parents to oversee the working of the educational 
system. Teachers can be made responsible to the parents' association in 
addition to being responsible to the educational departments in some 
distant place.
    Six, in highly traditional societies, parents will be prepared to 
send their girls to school only if they don't have to travel long 
distances, if they are taught by female teachers, and if the schools 
have appropriate toilet facilities. In some situations parents would 
educate girls if there are single-sex schools. The solution for this 
problem is to build more schools for girls and to employ more female 
teachers.
    All this was learned from a great deal of experience by the donor 
agencies from their work around the world. Most of these lessons were 
incorporated in a high-profile program of assistance for educational 
improvement launched by the World Bank in Pakistan in the late 1980s. 
Called the Social Action Program, the plan developed by the Bank was 
supported by a number of donor agencies and billions of dollars were 
spent on it for over a decade. The result was disheartening. The 
program was inconsequential in achieving even the most fundamental 
objectives: Increasing the rate of enrollment in primary schools for 
both boys and girls and bring education even to the more remote areas 
of the country. The Bank made several attempts to correct the course 
during the implementation phase but the program did not succeed. There 
was one simple reason for the program's failure. It did not take full 
cognizance of the fact that the educational bureaucracy was so corrupt, 
inefficient, and dysfunctional that it could not possibly deliver a 
program of this size. Ultimately the donors decided to abandon the 
program.
    Given this experience and given the magnitude of the problem the 
country faces what options are available to the policymakers in the 
country and the donor community interested in providing help to 
Pakistan?
    A variety of donors have already committed large amounts of finance 
for helping Pakistan educate its large population. According to a 
recent count by the Ministry of Education in Islamabad, foreign 
commitment for education is currently estimated at $1.44 billion spread 
over a period of 7 years, from 2002 to 2009. Of this $450 million is 
being provided as grants with the United States at $100 million the 
largest donor. The remaining $1 billion is being given in the form of 
soft loans by the World Bank ($650 million) and the Asian Development 
Bank ($339 million). These commitments amount to some $370 million a 
year.
    The government has also announced its intention to significantly 
increase the amount of public funds for education. In 2000-2001, 
funding for education amounted to only 1.96 percent of the gross 
domestic product. This increased to 2.7 percent by 2003-2004 when the 
government spent about $2 billion on education, of which about one-
quarter was provided by donors. It is the government's intention to 
increase the amount of public resources committed to education to about 
4 percent of GDP which would bring the expenditure in par with that of 
most other developing countries.
    However, the experience with the World Bank funded and supervised 
Social Action Program tells us that a mere increase in the availability 
of resources will not address the problem. What is required is a 
multipronged approach in which resource increase plays only a small 
part. For Pakistan to succeed this time around, it will have to be 
imaginative and comprehensive in the strategy it adopts. There are at 
least six elements of this approach.
    First, the government must develop a core curriculum that must be 
taught in all schools up to the 12th grade. Along with the prescription 
of such a core syllabus, the government should also create a body to 
oversee the textbooks used for instruction. There should be no 
restriction on the submission of books that can be used as authorized 
text and there should be a fair amount of choice available to schools. 
They should be able to pick from an approved list. The selected books 
must carry the ``good housekeeping seal of approval'' of the authority 
created for this purpose. The members of the authority should be 
selected by an autonomous Education Commission which can be nominated 
by the government and approved by the national assembly.
    Second, no institution should be allowed to take in students unless 
it registers with the Education Commission. The Commission should issue 
certificates of registration to the institutions which should indicate 
what kind of curriculum is being taught in addition to the core 
syllabus. Overtime the Commission should develop the expertise to grade 
schools according to their quality. A scale of the type used by credit 
rating agencies could be used by the Commission as a way of informing 
the parents about the type and quality of education on offer.
    Third, either the Education Commission or a similar body should 
issue certificates to qualified teachers. No school, no matter what 
kind of curriculum it teaches, should be allowed to hire teachers 
unless they have been appropriately certified by the authority. The 
certificate should indicate which subject(s) the teacher has the 
competence to teach.
    Fourth, in order to further encourage the participation of the 
private sector while lessening the burden of the public sector, the 
state should encourage the establishment of Private Education 
Foundations that will be run on nonprofit basis and will raise funds 
that will qualify for tax exemption. These foundations should also be 
encouraged to register abroad so that they can receive contributions 
from the members of the Pakistani diasporas in the United States, 
Britain, and the Middle East. The government should offer for sale to 
the Foundations the institutions it manages at all levels. This will be 
a form of privatization with the intent to encourage not only 
educational entrepreneurs to enter the field but to involve the people 
who are interested in improving the quality of education in the 
country.
    Fifth, the government must reform the management of the educational 
system. One way of doing this is to decentralize the system's running 
to the local level. The recent devolution of authority permitted by the 
reform of the local government structure has created an opportunity for 
the involvement of local communities in educational management. The 
development of the local government system as envisaged by the 
administration of President Pervez Musharraf is being challenged by 
some vested interests including the members of the National and 
Provincial legislatures who fear erosion of power as more authority 
flows to the local level. The old bureaucracy that had exercised 
enormous power under the old structure is also reluctant to loosen its 
grip. This resistance will need to be overcome.
    Sixth, parent-teacher-administrator associations should be created 
that manage funds and allocate them to the areas in which serious 
deficiencies exist. These associations should also have the authority 
to assess the performance of the teachers and administrators based on 
the quality of education given. Parental involvement in education, even 
when the parents themselves were not literate or poorly educated 
yielded very positive results in several countries of Central America.
    Seventh, the government should attempt to level the playing field 
by making it possible for children of less well-to-do households to 
gain admission into the privately managed schools. The government could 
initiate a program of grants and loans that should be administered by 
the commercial banks. Such an approach was tried successfully in 
Mexico. Letting the bank's manage these programs will save them from 
being corrupted.
    Eighth, to address the serious problem of youth unemployment in a 
population growing rapidly and in a society that is becoming 
increasingly susceptible to accepting destructive ideologies, it is 
important to focus a great deal of attention on skill development. This 
will require investment in vocational schools or adding technical 
skills to the school curriculum.
    Ninth, in undertaking a school construction program to improve 
physical facilities, special attention should be given to the needs of 
girls. Only then will the parents have the assurance that the schools 
to which they are sending their daughters can handle their special 
needs.
    Tenth, and finally, a serious review of current expenditure on 
public sector education should be undertaken. It is well known that the 
state pays to a large number of ``ghost teachers'' who don't teach but 
turn up to collect their monthly pay checks. It is also well known that 
the annual recurrent cost in well-managed private schools that are able 
to provide high quality education is one-half the recurrent cost of 
public schools. Rationalization of these expenditures will increase the 
productivity of resource use.

Conclusion
    Pakistan's educational system requires an almost total overhaul. It 
will not be reformed simply by the deployment of additional resources. 
This was tried once before by the donor community under the auspices of 
the World Bank's Social Action Program. That as we noted above did not 
succeed. What is required now is a well thought out and comprehensive 
approach that deals with all facets of the system.

    The Chairman. Thank you very much, Mr. Burki.
    Dr. Ahmed, may we have your testimony?

    STATEMENT OF SAMINA AHMED, SOUTH ASIA PROJECT DIRECTOR, 
        INTERNATIONAL CRISIS GROUP, ISLAMABAD, PAKISTAN

    Dr. Ahmed. Thank you very much, Mr. Chairman, for allowing 
me to testify on behalf of the International Crisis Group. Like 
you, we are deeply concerned about the absence of meaningful 
educational reform in an area which, as you know, has, in the 
past, and may continue to add to the numbers of the Islamic 
extremists that threaten not just the stability of their own 
countries, but U.S. national security, as well.
    We've issued this report yesterday. It's on sectarian 
conflict in Pakistan. And I point this out because it is so 
important, when you're talking about educational reform, to 
talk about the political context.

    [Editor's note: The report, ``The State of Sectarianism in 
Pakistan,'' will be retained in the complete record of the 
hearing or can be accessed at www.crisisgroup.org.]

    I'm going to be touching on Pakistan, Bangladesh, and 
Afghanistan. My focus will be on the issue of what should you 
do? How do you reform the education sector to make sure that 
more and more young people are not drawn to Islamic extremism, 
and that they, too, become not just citizens in their own 
societies that contribute to their own state, but they also 
contribute to international security and stability?
    There is a problem here, and we need to address it. And the 
problem lies in the fact that, in Pakistan at this point in 
time, you have the moderate secular parties sidelined, the 
religious parties in alliance with the ruling party, 
controlling the provincial education ministries in two of the 
four federating units. How can you expect reform from these 
people, who are the most resistant to reform, not just the 
reform of the madrasas sector, which is their own turf, but 
even of the public education sector?
    So there is a challenge here, and the challenges lies in 
the fact that we cannot ignore the threat, and that threat must 
be dealt with. It is not the role of the United States to 
dictate to governments in Pakistan and in Bangladesh what they 
must do with their educational systems, but, certainly, it is 
in United States national interest and in the interest of these 
states, themselves, to regulate these institutions that we call 
madrasas, which are the religious ceremonies.
    In both Bangladesh and in Pakistan, you have three 
different educational systems at work. You have the public-
school sector. You have private schools, which are elite 
schools, a large number of them. You need to have money to go 
to those schools. And then you have the madrasas. And those 
numbers matter because when we go to schools in the region, we 
see the state the students have to study in. You have teachers 
who are barely literate. You have schools with no 
infrastructure--no toilets, no running water, no playing 
fields, very often not even a roof over the heads of these 
children, no boundary walls.
    We want to increase the enrollment of female children. 
Well, you know what? Some of these schools are located so far 
away from the villages that parents are scared to send their 
girls. This is not a cultural matter here. People talk about 
cultural problems: ``Well, you know, these are Islamic 
countries; and so, there is a resistance to female education.'' 
That's not true. We've gone to remote areas of Baluchistan, 
where people have said, ``If only I could send my child to 
school, but it's too far away, and it's unsafe.'' This is why 
you see a gender disparity in particular in places like 
Baluchistan and in the northwest frontier province, where, as 
you know, given past history, it's essential to bring about 
education reform of a people that have been exposed to, 
unfortunately, because of state policy, the madrasa system. It 
created the Taliban. The Taliban have not gone away. There are 
Pakistani Taliban and Afghan Taliban. They emerge out of these 
schools, and the schools are unregulated.
    When we talk in terms of percentages of children in 
schools, we forget one thing: Why is there such a very high 
dropout rate, first at the primary level and then again at the 
secondary level? But it does matter, when we are talking in 
terms of investing either the United States taxpayers' money 
into these educational systems or, for that matter, Pakistani 
Government resources into these systems.
    It's really quite simple. The madrasas are booming. 
Absolutely no doubt about it. If you actually look at the 
numbers, they're astounding. In Bangladesh, you've had, at 
least, a tenfold increase in the number of madrasas since 1986; 
in Pakistan, a fourfold increase since 1988. There are anywhere 
between 10,000 to 13,000 madrasa schools, and we really don't 
know and the government doesn't know because there is no 
regulatory authority.
    It's true in Bangladesh, as well. There are no ways of 
regulating what's happening in the madrasas. What do they 
teach? Where do they get their sources of finances from, which 
is so important? That is a responsibility of the state, and, in 
fact, an international obligation, under U.N. Security Council 
resolutions. Who are the students? We don't know. All of that 
is very disturbing.
    However, the U.S. Government focus, in terms of allocating 
funding, is, and should be, on the public school system. The 
dropout rates here are disturbing as well.
    If you take an average number, given by government 
ministers, of the students in madrasas, which is anywhere 
between 1, 1.5, to 1.7 million, nobody seems to know, and then 
you look at the dropout rates, which can be available from the 
data of primary schools and secondary schools, by the time 
children drop out of primary school, there are only 4.2 million 
children left in the primary schools. And you know what? That 
only covers 4 years of education; 4 years of education. Just 
imagine if that was happening in the United States. What kind 
of a youth would you have in the United States? How could they 
contribute constructively? And then when you go on further, to 
grade 12, all of a sudden you have a huge dropout rate again. 
And then, in fact, at the high school you almost get down to 
one on one, because so many kids have dropped out.
    Why do they drop out, even where facilities are available? 
Because the education is bad. Because it doesn't provide for 
job opportunities. Because parents realize the need to send 
their child to school, but also realize, if the child only has 
under 4 years or 6 years or 8 years of schooling, how is that 
child going to get a job with the education that child has got?
    So it is so important to actually look at these issues. And 
I know that the U.S. Government is addressing a number of these 
issues on the ground, but one of the things we would strongly 
suggest is that as part of the ongoing assessment of new 
districts that AID will be allocating funds for, consider needs 
assessments from the communities on the ground. Where is it the 
need is greatest? Where is it that they have a real gender 
imbalance in the schools? Where is it that you have more 
madrasas booming, being constructed there? Because with the 
absence of public schools, you are going to have the children 
going to the madrasa. The madrasa is also attractive--free 
board, free housing; but it's also so dangerous, because it's 
indoctrination.
    That said, it is equally important to reform the public 
school educational curriculum, because one of the policies that 
the Government of Pakistan seems to be adopting at this point 
in time--and I'm sure the Bangladesh Government might be 
tempted to go down that route--is to mainstream the madrasa. In 
other words, you introduce three or four subjects into the 
madrasa and don't touch the religious content of the education. 
So you would introduce computer sciences and maths and social 
studies. But children are being taught in the public-school 
sector, in social studies and in history, to demonize other 
religions--the Hindu is the enemy; Pakistan is threatened by 
India--to demonize the neighbors, to demonize other religions, 
as well, and, more so, to glorify the jihad. You actually see 
that in the national curriculum. ``Jihad. Describe how 
important the jihad is to you. Jihad is central to your 
existence.'' This is the indoctrination that the children are 
getting in their regular school system. Now, if the children in 
the madrasas are going to be taught that, what difference would 
it make?
    To introduce English language, where one of the things the 
madrasa administrations have said to this point in time, they 
said, ``Fine, we'll have our own English-language textbooks.'' 
And you can well imagine the content.
    For us, it's very, very important that with the funding 
that the United States is planning to put into the educational 
sector in the next few years, these are the issues that should 
be looked at. The U.S. taxpayers' money should not be given for 
the production of textbooks in which children are asked to make 
speeches on jihad, to recognize the importance of jihad in 
every sphere of life, to talk about jihadi, which is martyrdom. 
That is not where the U.S. taxpayers' money should be going. 
That should be conditional, ``This money shall not go to the 
production of these textbooks.'' But the money should go toward 
English-language textbooks since the English language is so 
essential now for jobs and for opportunities. And the U.S. 
Government can help produce good-quality English-language 
textbooks for schoolchildren, and that is important.
    But should the Government of Pakistan depend on donors? I 
think there's a good point made here by you, Mr. Chairman, that 
this has to be domestically driven. And one of the ways to 
judge that political will is by the amount of GNP spent on 
education. And, unfortunately, neither Pakistan nor Bangladesh 
fall into that category of actually spending what they should 
be spending, which is 4 percent of GNP. They fall far, far 
behind. So then to expect that the internationals will pick up 
the rest of the tab, they should be made to stick to their 
commitment, they should be made--this should be conditional, 
and it is important.
    So, other than that, where do we go, in terms of U.S. 
assistance? One of the things the U.S. Government should not do 
at all is to provide any assistance for the madrasa school 
system. Not in Pakistan. Not in Bangladesh. Not in Afghanistan. 
What is failing--and that is where the emphasis should be--is 
the public school system.
    On Afghanistan, let me very, very briefly say that there's 
been a sea change in some ways in Afghanistan because of the 
fall of the Taliban. Female children have come back to school. 
But that doesn't mean that the challenges are still not 
immense. The infrastructure was totally destroyed; the country 
was destroyed in the war. Rebuilding means that the Karzai 
government is going to keep on needing massive U.S. assistance.
    What is needed, of course, is also security, because, even 
after the Taliban have fallen, girls are being attacked, their 
schools are being attacked, teachers who are teaching them are 
being attacked. Even though there's a great will, right now, to 
enroll the girls in school, physical insecurity is something 
that will discourage parents from sending their children to 
school.
    The challenges are immense. At this point in time, the 
opportunity is also huge, in particular in Pakistan, because 
the United States is engaging on education reform, to press 
upon the Pakistan Government to undertake the measures that it 
should take, and take them fast. I don't think Pakistan has 
that much time that it can afford to have yet another 
generation of children badly educated or illiterate or educated 
in jihadi madrasas.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Ahmed follows:]

 Prepared Statement of Dr. Samina Ahmed, South Asia Project Director, 
            International Crisis Group, Islamabad, Pakistan

    I want to thank Chairman Richard Lugar, and the ranking member, 
Senator Joseph Biden, for holding this important hearing, and inviting 
me to testify on behalf of the International Crisis Group on the 
continuing challenges of education reform in South Asia.
    The Crisis Group has been in South Asia since December 2001, and 
has published reports directly relevant to the issues under this 
committee's review. We are deeply concerned that the absence of 
meaningful education reform will aggravate social and economic rifts, 
and feed the spread of extremism amongst the region's youth.
    Education in South Asia has been the subject of renewed 
international focus in the wake of the attacks of September 11, and 
millions of dollars in donor funds have been allocated for education 
programs. However, a lack of government commitment, political 
interference, and a deteriorating physical infrastructure threaten to 
undermine these efforts. My testimony will expand on these concerns as 
they apply to Pakistan, Bangladesh, and Afghanistan, with a particular 
focus on President Pervez Musharraf's education reforms, whose outcome 
will be absolutely crucial given Pakistan's key role in the war against 
terrorism.
    In a report that the International Crisis Group published yesterday 
on ``The State of Sectarianism in Pakistan'' we emphasize that:

          Sectarian conflict in Pakistan is the direct consequence of 
        state policies of Islamisation and marginalisation of secular 
        democratic forces. Co-option and patronage of religious parties 
        by successive military governments have brought Pakistan to a 
        point where religious extremism threatens to erode the 
        foundations of the state and society. . . .
          Instead of empowering liberal, democratic voices, the 
        government has co-opted the religious right and continues to 
        rely on it to counter civilian opposition. By depriving 
        democratic forces of an even playing field and continuing to 
        ignore the need for state policies that would encourage and 
        indeed reflect the country's religious diversity, the 
        government has allowed religious extremist organisations and 
        jihadi groups, and the madrasas that provide them an endless 
        stream of recruits, to flourish.

    As we look at the education system more specifically, it 
nevertheless is vital to see and understand the broader political 
environment in which the education system functions.
    Pakistan and Bangladesh have almost parallel education systems. As 
they did under British colonial rule, both countries maintain a three-
tiered education structure:

          1. Private English-medium schools catering to privileged 
        families;
          2. A highly centralized public school sector including Urdu 
        or Bengali medium schools for the poor;
          3. Religious seminaries, or madrasas.

    Each sector has its own syllabus, exam systems, and fee structures. 
The growing disparities between these sectors, in terms of the quality 
of education and the professional opportunities available to graduates, 
are exacerbating already sharp social and economic divisions.
    Pakistan and Bangladesh are signatories to the World Declaration on 
Education for All (EFA, signed in Jometien, 1990), yet are falling 
significantly behind on achieving agreed targets. Both spend well below 
the 4 percent of GDP on education recommended by UNESCO (currently 
Pakistan has allocated 2.7 percent; and Bangladesh 2.3 percent). Most 
of this goes toward salaries, leaving extremely limited funds for 
development and other productive inputs. Their public school 
infrastructure is deteriorating, with dropout rates in primary 
education fluctuating around 50 percent in Pakistan, and 33 percent in 
Bangladesh. In rural areas and urban slums we've visited in Pakistan in 
the last year, many schools were in locations where there was very 
little public transport and their learning environments were 
deplorable--many lacked boundary walls, water and toilet facilities, 
electricity, and proper furniture. That parents are unwilling to send 
their children to such schools should come as no surprise.
    Not only do one of every two children in Pakistan drop out before 
completing primary school (5th grade), but also there is an equally 
devastating flaw in public school education. The content of that 
education is increasingly irrelevant since it does not prepare students 
for the demands of a modern economy (or for higher education). In 
Bangladesh, a National Curriculum and Textbook Board (NCTB) devises the 
national curriculum and produces public school textbooks. In Pakistan, 
a central Curriculum Wing determines the government syllabus, and 
Provincial Textbook Boards then produce all public school textbooks. 
Teachers are prohibited from deviating from the prescribed material. 
These virtual monopolies have prevented the emergence of innovative and 
flexible education systems. Teachers and students we've interviewed in 
the field argue that public school education is no preparation for 
employment. As a result, many families chose instead to send their 
children into labor, or to madrasas, which provide accommodation, food, 
and other basic necessities, and yield professional opportunities in 
mosques, madrasas, and other religious institutions.
    Bangladesh's madrasa sector has mushroomed, reaching an estimated 
64,000 madrasas from roughly 4,100 in 1986, with little if any 
government oversight. This has accompanied the rise of militant Islam, 
including increased numbers of radical groups, some with ties to global 
terrorist networks, such as the Harkat-ul-Jihad-al-Islami. Two Islamist 
parties, the Jamaat-e-Islami and Islami Oikyo Jote are coalition 
partners in the Bangladesh Nationalist Party-led government. According 
to the latest official estimates (2003), there are 10,430 madrasas in 
Pakistan. However, adding the numbers provided by each of Pakistan's 
five madrasa boards, the figure is closer to 13,000. Both figures mark 
a significant increase from the official estimate of 3,000 madrasas in 
1988.
    Both countries continue to harbor Islamist radical groups who seek 
recruits from poverty-stricken and education-deprived areas. Increased 
jihadi rhetoric in madrasas and mosques, including calls for an anti-
American global jihad, is a major cause of concern. Without a viable 
public school system that expands students' economic opportunities, 
more and more children are likely to drift toward extremism.

                 REFORMS UNDER THE MUSHARRAF GOVERNMENT

    The Musharraf government has publicly acknowledged the problem, and 
made education reform a centerpiece of its modernization drive but has 
failed to follow through. In January 2002, the government launched its 
Education Sector Reforms (ESR) program, aimed at reforming the 
education system. In 2005, we continue to have serious concerns about 
the program's directions. Our findings indicate that three main 
obstacles beset meaningful education reform.
    First, the government has proved reluctant to divert more of its 
own resources to education. Repeatedly pledging to raise the education 
budget to 4 percent of GDP, it has yet to follow through on its 
commitment. To meet Pakistan's commitments to EFA, the government will 
need an estimated $7.9 billion. According to its EFA Action Plan, the 
government expects $4.4 billion of this, more than 55 percent, to come 
from foreign donors, symbolizing an unwillingness to invest its own 
resources in education reform.
    Second, Pakistan's public education bureaucracy is highly 
centralized and inefficient. Since salaries and opportunity in the 
public and private sectors depend on educational qualifications, 
positions within the education department--and degree-granting 
institutions are some of the most lucrative in government service. 
Appointments are based on politics rather than merit within the 
education sector, thereby severely impairing the quality of teaching. 
Overly centralized control has further prevented effective monitoring 
over public school teachers and administrators.
    Third, the government has repeatedly yielded to political pressure 
from religious parties that have openly opposed education and madrasa 
reforms. These lobbies have managed to hijack curricular content to 
promote their own ideological and political agendas. We are 
particularly concerned about the public school curriculum's emphasis on 
religious indoctrination. General Zia-ul-Haq's Islamisation policies in 
the 1980s had resulted in a massive expansion in the numbers of 
madrasa, with the numbers increasing from 1,745 in 1979 to almost 3,000 
by 1988. During this period too, militant interpretations of Islam were 
systematically incorporated into the mainstream public school 
curriculum. Current national syllabus guidelines require students 
between classes I-VI, for example, to ``recognize the importance of 
Jihad in every sphere of life'' and ``make speeches on Jihad.''
    In 2003, an independent Islamabad-based research group, the 
Sustainable Policy Research Institute (SDPI) documented religious, 
sectarian and gender biases in the public school syllabus in a report 
entitled, ``The Subtle Subversion: The State of Curricula and Textbooks 
in Pakistan.'' Although a goverment-formed committee of independent 
academics and education officials approved the report's recommendations 
for an immediate and comprehensive review of the national curriculum, 
subsequent pressure from the religious parties prompted the government 
to finally reject its proposals. Then Education Minister Zobaida Jalal 
had also announced that Quranic references to jihad would be deleted 
from public school science books but backtracked under pressure from 
the religious right, and those references remain in place.
    In this context, the ESR objective of streamlining the madrasa 
syllabus with the mainstream curriculum is questionable. Any effort to 
do so would be premature without a comprehensive review and improvement 
of the public school curriculum.
    The government's capitulation to the religious right on education 
reform stems from its reliance on them to counter its civilian secular 
opposition. The six-party Muttahida Majlis-i-Amal presently controls 
the NWFP government and governs Balochistan in alliance with the ruling 
Muslim League. MMA officials head the provincial education ministries 
of both these provinces and have publicly opposed the reform of the 
public school sector.
    This reliance on the religious right has also led the government to 
back down on its pledges to reform the madrasa sector. In June 2002 the 
government approved a draft bill, the Deeni Madaris (Voluntary 
Registration and Regulation) Ordinance calling for the voluntary 
registration of madrasas, imposing restrictions on foreign grants and 
donations, and barring foreign students or teachers without valid visas 
and official permission. A week after Cabinet approval, however, 
President Musharraf opted not to sign the bill after it was strongly 
opposed by madrasa board representatives.
    The lack of effective registration requirements and oversight has 
resulted in the madrasa sector's alarming and unchecked expansion. 
Today most registered madrasas are licensed under the Societies 
Registration Act of 1860 after the ban on such registration, imposed in 
1996, was removed in 2004. The act lacks any significant monitoring 
mechanisms over financial accounting, internal governance, or madrasa 
curricula; its only practical requirement is for registered 
organizations to submit an annual list of governing body members,

                             THE U.S. ROLE

    The United States can, and should, play an important role in 
education reform in Pakistan and Bangladesh. USAID should consider 
significantly expanding its current financial commitments for education 
in Bangladesh, which were below $5 million for fiscal year 2004, 
focused on early childhood and primary education, and are planned at 
similar levels for fiscal years 2005 and 2006. USAID has allocated $100 
million over 5 years to Pakistan's education sector, aimed at teacher 
training, engendering democratic ideals, improving the quality of 
exams, and enabling greater access to schools. The U.S. government has 
a stake in the direction and outcome of educational reform and should 
adopt a more proactive approach. That approach should affect both the 
direct primary education and literacy program but also some portion of 
the $200 million in annual budget support provided to the government of 
Pakistan over the next 5 years.
    The United States should:

    1. Condition continued education aid to Pakistan and Bangladesh on 
their raising education expenditure to 4 percent of GDP. Comprehensive 
reform efforts will not be sustainable under current expenditure 
levels. In that regard, some clear conditioning should provide for 
evidence of additionality in government resources going to expand 
access and quality of education from the budget support the United 
States is providing.
    2. Expand programming to address educational content, and attach 
conditions that its funds cannot be used, as they could under present 
circumstances, to support a curriculum, and any textbook material, that 
promotes intolerance toward women, and religious, sectarian, and ethnic 
minorities; and contains references to jihad, or any historical 
inaccuracies. The United States should urge Pakistan to immediately 
resume reviewing public school curriculum and textbooks to address 
historical and factual inaccuracies, glorification of armed struggle 
and jihad and minority and gender biases. USAID should extend its 
programs to support the private production of quality English language 
textbooks for public schools, presenting valuable substitutes to the 
Provincial Boards and NCTB's texts. This is crucial to improving public 
school educational content.
    3. Assist in the shift to English-medium instruction. Since the 
language of instruction in elite private schools is English, given the 
demand for English in Pakistan and Bangladesh's public and private 
sectors, the products of Urdu and Bengali medium government schools are 
at a severe disadvantage in competitive job markets. The United States 
should assist in all aspects of this shift from textbooks to teacher 
training to monitoring results.
    4. Urge the Pakistan Government to follow through on its commitment 
to establish better oversight on the madrasa sector; to put in place a 
new madrasa law that requires financial transparency, curriculum and 
management reform, and mandatory registration of all madrasas under 
this new law, including those currently registered under the Societies 
Act. Pakistan should also be urged to immediately resume reviewing 
public school curriculum and textbooks to address historical and 
factual inaccuracies, glorification of armed struggle and jihad, and 
minority and gender biases.
    5. Ensure against politically motivated teacher and administrative 
transfers. USAID should require all local partners to sign memorandums 
of understanding with the relevant education ministry to curb the 
transfer of any teacher trained under their programs for a minimum 
period of 3 years.
    6. Target more funds based on district need. In Pakistan, much of 
the education funding currently is limited to only a handful of Sindh 
and Balochistan districts, some of which are relatively developed and 
pose no significant threat of extremism amongst youth. A recent 
proposal to expand the $60 million USAID-funded Education Sector Reform 
Assistance (ESRA) program from 9 to 25 districts is a welcome step, and 
should be followed through. However, the new recipients should be 
identified on the basis of need, the number of donors already active in 
the district, as well as areas that have witnessed an expanding madrasa 
sector or increased jihadi activity. USAID should also consider 
extending ESRA to NWFP, where tribal customs and the spread of 
extremism continue to hamper education especially for girls. In some 
NWFP districts we found clusters of up to 14 villages without a single 
girls' school. In 2004, female enrollment made up about 35 percent of 
total enrollment in NWFP, the lowest ratio of any province.
    7. Address infrastructure constraints. In determining any program's 
performance targets, USAID should take into account practical 
constraints. Targeted enrollment rates in most rural areas of Pakistan 
cannot, for instance, be achieved without addressing factors such as 
transport and security problems, particularly relevant in addressing 
education for girls and women.
    8. Avoid diverting scarce aid funding to the madrasa sector. The 
United States Government must not allocate any of its assistance for 
madrasa schools in Pakistan and Bangladesh. Donor funding and 
engagement is unlikely to reform the madrasa sector and the provision 
of modern facilities will only make madrasas more attractive 
educational venues, increasing the clergy's social and political 
influence. United States educational assistance should instead remain 
focused on strengthening Pakistan and Bangladesh's failing public 
school systems.
    9. Finally, with regard again to the broader political context in 
which the education system functions, the United States should strongly 
press the Government of Pakistan to reaffirm the constitutional 
principle of equality for all citizens by repealing all laws, penal 
codes, and official procedures that reinforce sectarian identities and 
cause discrimination as well as those laws that discriminate against 
women and minorities and to disband all private militias, particularly 
those organized for sectarian and jihadi causes.

                              AFGHANISTAN

    Afghanistan also presents a daunting set of challenges, linked 
directly to that country's reconstruction. Over two decades of war and 
repressive government have left a shattered economy and physical 
infrastructure, and some of the lowest human development indicators in 
the world. By all accounts, Afghanistan's school system is in ruins. 
However, the Taliban's ouster has opened up new opportunities in 
education, especially for girls who were banned from attending school, 
and has led to unprecedented levels of enrollment. Over 4 million 
students have registered in schools since 2002, with female enrollment 
estimated at around one-third of the total amount. Yet, the existing 
infrastructure is unable to meet the increased demand for schooling. An 
estimated 80 percent of schools were damaged or destroyed by war, and 
many have yet to be restored. Millions of children remain out of 
school, and current teacher/student ratios are unsustainable, by some 
accounts averaging around 1:60.
    Security remains a primary concern. Girls' schools continue to face 
external threats, and many have come under attack. In 2003, 
Afghanistan's female literacy rate was 19.6 percent (compared to 49 
percent for males). Many regions remain under warlord control. Militia 
forces and remnants of the Taliban and al-Qaida continue to operate in 
and around Afghanistan, seeking recruits amongst the country's 
disaffected youth. Former soldiers, including child soldiers, and 
returning refugees are especially vulnerable in the current 
environment, and more extensive efforts are needed to reabsorb them 
into Afghan society. According to an Asian Development Bank (ADB) 
estimate in July 2002, there were 25,000 to 30,000 ex-child soldiers in 
Kandahar alone. A strong education system would contribute 
significantly to such efforts.
    Given ongoing security concerns and limited resources, President 
Hamid Karzai's government will continue to require significant levels 
of external funding to rebuild and revitalize its education system. We 
believe an effective approach should include expanded efforts in:

          1. Establishing a strong physical infrastructure, including 
        new schools and adequate educational facilities.
          2. Policy-oriented capacity building of regional education 
        departments and other policymaking institutions, whose 
        responsibilities include curriculum development and long-term 
        education policy.
          3. Involving Afghan civil society in the delivery of 
        education.
          4. Building a broad and equitable education system. 
        Afghanistan's education infrastructure must extend its reach to 
        accommodate a scattered, highly diverse, and multiethnic 
        population.
          5. Continued and expanded teacher training programs, geared 
        especially to induct more female teachers into the sector.
          6. A sustained and coordinated international effort to 
        provide security, especially in remote areas of the country 
        where the writ of the central government has proved limited, 
        and where attacks against civilians, especially against women 
        and girls, continue.

    In conclusion, Mr. Chairman, South Asia's economic growth and 
security depend on a strong education sector. The failure to implement 
meaningful reform in Pakistan and Bangladesh's madrasa sectors and 
deteriorating public education systems and to revitalize Afghanistan's 
educational infrastructure will undermine regional stability, promote 
extremism, and prevent the spread of democratic ideals.

    The Chairman. Well, thank you very much, Dr. Ahmed.
    We now call on Mr. Method, as our final first-panel 
witness.
    Mr. Method.

STATEMENT OF FRANK METHOD, DIRECTOR OF INTERNATIONAL EDUCATION 
POLICY AND SYSTEMS, RESEARCH TRIANGLE INSTITUTE, WASHINGTON, DC

    Mr. Method. Thank you, Chairman Lugar. Good morning, and 
thanks for the opportunity to appear before the committee.
    Research Triangle International is a not-for-profit 
research institute working to support education reform around 
the world, primarily funded by USAID, including working with 
the Education Sector Reform Program in Pakistan and a number of 
other countries in the region.
    I've worked on international education policy and strategic 
planning most of my professional life. I'm particularly proud 
of having been involved, over the last 15 years, in the 
international effort to create policy consensus and advocacy 
for the investments needed to achieve Education For All, which 
I consider one of the most powerful strategic agendas of our 
time.
    I put the emphasis particularly on ``all.'' The emphasis on 
``all'' is what drives the linkages between education and 
rights, citizenship, responsibility of government to meet its 
full commitment to the society, and shape the society.
    I submitted a statement for the record, and I'm only going 
to summarize some of the key points.
    First, education systems do more than educate children; 
they also build and shape the nation. Education reform must be 
about more than the schools and pedagogic inputs. National 
efforts to improve curriculum, to develop more appropriate 
reading and learning materials which respect the dignity, 
rights, and beliefs of all learners, are imperative. At least 
equally imperative, is attention to the children who are not in 
school and whose opportunities to learn have been frustrated. 
Tolerant, peaceful, and stable societies cannot be built or 
sustained when large numbers of young people reach adolescence 
frustrated, alienated, without opportunities to participate 
effectively in their communities, economies, and political 
systems.
    Educators cannot do it alone. Improving education requires 
fundamental changes in public policy, public administration, 
financing, and the political will to make the changes. There is 
no easy, inexpensive, or quick solution to the problems.
    It's possible to paint a very bleak picture of education in 
the Near East and South Asia Region. I agree with the 
characterizations that we've just heard. Class sizes and 
dropout rates are too high. Education opportunities for girls 
and women are inadequate. Too often, bureaucratic sclerosis 
wastes resources, slows change, stifles innovation.
    However, progress is being made, albeit slowly. There are 
reform plans in place for many countries. Jordan is a 
particularly good example, but there are others--in Egypt, in 
Pakistan, Indonesia, and elsewhere. The United States does not 
need to instigate reform so much as it needs to respond 
aggressively and substantially to the opportunities that exist. 
There are opportunities. There is reform. We should get behind 
it.
    Since the events of September 2001, United States education 
assistance levels have increased substantially, particularly in 
Asia, in Near East, less so in other regions. There now are 
programs in Morocco, Egypt, Jordan, Iraq, Yemen, Afghanistan, 
Pakistan, India, Bangladesh, Indonesia, Cambodia, in the 
Philippines, and under development for Sri Lanka.
    The main concerns are that the programs still are 
relatively narrowly focused on primary education and on 
quantitative measures. There's great pressure to demonstrate 
short-term impacts--schools built, teachers trained, textbooks 
provided, rising examination scores.
    However, education systems change slowly and incrementally. 
Advances toward more tolerant and resilient societies are first 
demonstrated by increased participation in education decisions, 
more open and informed public debate about education policies, 
and increased public accountability at all levels, particularly 
at the level of the school. Much more effort is needed on 
education standards, objective data and data-management 
systems, monitoring and reporting systems.
    Achieving broad agreement on what good education is, or 
should be, and what parents have a right to expect, is the 
essential first step toward the participation needed for 
accountability and progress. A great deal can be done, and is 
being done by nongovernment organizations supporting programs 
for specific communities and needy populations. However, 
sustainable reform requires public leadership, comprehensive 
planning, and broad mobilization. The most effective reforms 
include efforts to decentralize education systems, improving 
accountability, allowing flexibility, and creating support for 
local initiatives. Additional resources would be used 
effectively both to expand the current programs and to support 
emerging priorities. My recommendations are for increased 
attention to media and technology, quality standards, early-
childhood development, and secondary education. Those are 
discussed more in the prepared statement.
    There's been success with the use of television and radio 
to support instruction and enrich the learning environment. The 
United States-supported Alam Simsim Program in Egypt has been 
extraordinarily successful, and has now been extended to 21 
other countries. Information technologies also are needed as 
management tools for the more data-intensive approaches to 
quality improvement. These areas of media and the application 
of information technologies are areas of particular strength 
and experience in the United States. There is a lot that we can 
offer in this area.
    Performance standards are key to managing for results, as 
well as to increasing accountability and parent support for 
reforms. Improving data management and measurement tools are 
among the most cost effective and politically acceptable 
strategies for external support of national reforms, improving 
management and accountability at all levels.
    Quality early-childhood development addresses the needs of 
the whole child, not just preschool education. Community-based 
programs are particularly effective, engaging parents with the 
learning needs of children and helping to strengthen local 
civil-society organizations. Such strategies also help in 
supporting new leadership roles, social and economic 
opportunities for women.
    Young people, 12 to 15, in all cultures face decisions 
about their identity and future. Discouraged or alienated 
adolescents are potentially dangerous, especially where there 
are few roles other than illicit occupations or militant 
political movements. A priority area for new initiatives is the 
development of new models of lower secondary education, 
operating at a smaller scale (so that they can get closer to 
the communities) with integrated learner-centered curriculum, 
cross-trained educators, and effective use of media and 
technology. The United States could lead such an effort and 
help to set that agenda.
    Secondary education also should include work-related skills 
development. The preferred strategy is to integrate skills 
development in the general secondary curriculum, including 
problem solving, critical-thinking skills, and other soft 
skills. I do not recommend vocational/technical education 
programs at the secondary level.
    With respect to madrasas, there are good reasons to be 
concerned about some of the organizations supporting madrasas 
and other forms of Islamic education, particularly those which 
operate outside of the purview of government. The respective 
governments are aware of the political agendas of these 
organizations, which, in most cases, are directed as much 
against the secular nature of the government as they are 
against the West in general, or the United States in 
particular.
    However, generalizations about the madrasas, themselves, 
are very risky. The majority of Islamic schools are run by 
responsible educators attempting to teach national core content 
along with Islamic studies and social values. Increasingly, 
these schools are being integrated as part of hybrid systems of 
public education or supported directly by governments as 
parallel systems of public education. There is little reason to 
oppose such integration. Particularly in the poorer countries, 
it is difficult to see how the universal education goals can be 
met without some reliance on privately initiated, funded, and 
managed schools, including the religious schools.
    The major danger in many communities is the lack of 
education opportunities of any kind and low quality of existing 
schooling, particularly for the poor and rural. Raising the 
quality of public education, including addressing the issues of 
inappropriate content, should be the priority. Strategies of 
direct support for madrasas with externally funded inputs are 
not recommended. Many, perhaps most, Islamic education 
organizations or associations would be reluctant to accept such 
support, particularly if it's aimed, or seen to be aimed, at 
influencing content or reducing autonomy. Further, the 
political backlash against any initiative perceived as 
externally directed or influenced may reduce the ability of 
governments to work with external assistance on other aspects 
of needed reforms and improvements of the public education 
systems.
    In conclusion, addressing the needs of education reform for 
all, and in all countries, is among the most strategic steps 
the United States can take toward helping countries become more 
tolerant, democratic, open to new ideas, and capable of 
participating in the changing global economy. There is much 
more to be done, and the United States has many opportunities 
for leadership.
    Thank you.
    [The prepared statement of Mr. Method follows:]

 Prepared Statement of Frank J. Method, Director, Education Policy and 
       Systems Group, Research Triangle Institute, Washington, DC

                              INTRODUCTION

    Education systems do more than educate children; they build 
nations. Education reform must be about more than the schools, and the 
pedagogic inputs to education; it also must be about how education 
decisions are made, how resources are mobilized and distributed, how 
societies address special needs and the rights of all learners, how the 
school systems are accountable to parents and communities, and what 
options parents have if they are dissatisfied with the education their 
children are receiving.
    The achievement of quality education, for all, is one of the most 
important challenges of our times. It is one of the most powerful ways 
of affirming basic rights and supporting positive changes in the lives 
of children as well as their households, communities, and nations. 
Improvements in education opportunities for girls and other 
disadvantaged or marginalized populations are particularly important, 
affecting not just their personal opportunities and choices but also 
the health, economic, and social progress of the larger societies. The 
positive and lasting effects of expanding education opportunities and 
improving the quality of education are well documented, and the policy 
priorities for doing so are a basis for international cooperation as 
well as for national investments. In fragile states and for countries 
such as those in the Arab world and South Asia where there are 
challenges of political legitimacy and social cohesion, the efforts 
required to achieve quality education for all are central to national 
reform.
    Assisting countries to accomplish this priority agenda, fully and 
well, should be one of the assistance priorities for the United States. 
There is no better investment in terms of meeting basic human needs, 
the affirmation of basic fights, the reduction of poverty and inequity 
and accelerating social progress. There is no more necessary investment 
in terms of helping countries move toward democracy, moderate their 
political and social dynamics and participate effectively and 
successfully in open, competitive economies.

I. Overview of United States assistance to education in Asia and the 
        Near East
    The United States helped establish the goals for Education for All 
(EFA),\1\ beginning with cosponsorship of the World Conference on 
Education for All in Thailand in 1990 and continuing through the World 
Education Forum (WEF) in Dakar in 2000, and the international 
mobilization related to the Millennium Development Goals (MDG) \2\ 
USAID currently cochairs the Fast Track Initiative by which funders 
have committed to mobilizing the necessary funding for those countries 
putting in place serious plans of action to achieve universal primary 
education of acceptable quality for all students. The United States, 
both through official agencies and through the involvement of the NGO 
communities, can be proud of its leadership and constructive 
contributions to this shared strategic agenda. It is one of the most 
far-reaching initiatives of the international community and the United 
States has helped shape it and support it. This effort must be 
sustained and enlarged. There is much more to be done.
---------------------------------------------------------------------------
    \1\ See http://www.unesco.org/education/efa/index.shtml.
    \2\ See http://www.un.org/millenniumgoals/.
---------------------------------------------------------------------------
    The EFA and WEF commitments are to a broad international 
partnership including private sector and nongovernment communities as 
well as the bilateral and multilateral funders and international 
organizations. The international commitments are to support national 
plans of action, led by national leaders with broad participation of 
the national partners, public and private, including civil society, 
nongovernment organizations and public opinion generally. UNESCO, the 
World Bank, and other international organizations have taken 
responsibility for ensuring that these plans are technically sound, 
well-documented and monitored against agreed goals, metrics and 
indicators of progress. Basic education for all is to be understood in 
its broad framework of learning systems beginning in early childhood 
and continuing through community-based and lifelong learning. Central 
to these goals and commitments are improving instructional quality and 
learning standards, with explicit attention to distributional concerns, 
gender equity, and the learning needs of poor and disadvantaged 
children.
    Despite broad support for the EFA goals, it has been difficult to 
meet the promised funding levels. In part this reflected limited funds 
and the many competing priorities. In part this reflected ``bean 
counting'' approaches to education and development, which left 
countries making quantitative progress to rely on their own resources 
for further education improvement. Until the events of September 11, 
2001, forced attention to the social conditions, weak and 
nonrepresentative governments and extremist political movements in much 
of the developing world, including the countries of North Africa, the 
Middle East, Central and South Asia, most assistance for education 
improvement focused narrowly on quantitative expansion, teacher 
education and better distribution of opportunities, particularly for 
girls. Issues of quality, administrative and financial 
decentralization, local accountability, curriculum reform, early 
childhood education, and attention to youth and adults outside of 
school received lesser priority.
    Total USAID support for education across the Asia and Near East 
Region (ANE) was only $71.8 million in fiscal year 2001, including $66 
million of ESF funds. The United States played a significant role in a 
few countries, but not a leading role in any. There was an important 
program supporting education for girls in Morocco and a significant 
program of school building in Egypt, scheduled to be completed in 2001 
with no plans for further education programming.
    Since fiscal year 2001 the assistance levels for the ANE Region 
have increased substantially, the program priorities have broadened to 
include administrative and financial reform, decentralization and local 
participation and the range of countries assisted has expanded. ANE 
funding for education in fiscal year 2005 is projected to be $239M 
(plus any supplementals) and countries with significant education 
sector programs now include Morocco, Egypt, Jordan, Afghanistan, Iraq, 
Pakistan, India, Cambodia, and Indonesia. Expanded programs are under 
development for Yemen, Bangladesh, the Philippines, and possibly Sri 
Lanka.
    Each of these programs responds to the particular circumstances and 
needs of the country.

  <bullet> They include countries undertaking major reform efforts such 
        as the Education Reform for a Knowledge Economy (ERfKE) 
        initiative in Jordan--one of the most ambitious reform efforts 
        anywhere, combining reforms at the early childhood, basic and 
        secondary levels to produce graduates with the skills needed 
        for the knowledge economy. The integrated strategy includes: 
        Governance and administrative reform, a sophisticated Education 
        Decision Support System (EDSS) supporting policy analysis; 
        effective system management, transparency and accountability 
        with comprehensive and coordinated educational research, policy 
        analysis, and monitoring and evaluation activities; and 
        substantial investment in school infrastructure, teacher 
        training and e-learning application of instructional 
        technologies and media. USAID is assisting with early childhood 
        education, teacher training for new coursework related to 
        business skills and development of an improved school-to-work 
        strategy.
  <bullet> They also include countries such as Afghanistan and Iraq, 
        where education systems need to be built or rebuilt virtually 
        from the ground up.
  <bullet> And, they include countries such as Yemen and Bangladesh, 
        and to some extent Pakistan, where the governments are 
        relatively weak, financing for education is inadequate, 
        corruption and bureaucratic inefficiency waste resources and 
        consensus on how best to achieve national education objectives 
        for all, in all parts of the country, does not yet exist.
  <bullet> In a few countries such as Morocco, assistance now includes 
        activities at the lower secondary level and increasing 
        attention to the linkages between education, workforce 
        development, and job growth. This reflects the growing concerns 
        about large numbers of youth and young adults without 
        employment prospects, or skills for the jobs that do exist.
  <bullet> In other countries such as Indonesia, Pakistan, and Egypt 
        the focus is on helping countries decentralize education 
        administration, improve local accountability, and increase the 
        participation of parents and community leaders.
  <bullet> An important new regional initiative is the Education and 
        Employment Alliance, supported by USAID through the 
        International Youth Foundation, which seeks to mobilize the 
        private and nonprofit sectors to work with youth in Egypt, 
        India, Indonesia, Morocco, Pakistan, and the Philippines.

    Additional education program support is provided regionally through 
the Middle East Partnership Initiative focused on education 
opportunities for girls and strategies to improve access, quality, and 
skills development across the region, and through other USG programs 
such as the child labor programs of the Department of Labor.
    One of the encouraging emerging trends is the substantial 
involvement of the U.S. private sector in support of education 
improvement in the region. Private initiatives such as the Education 
and Employment Foundation, initiated by Ron Bruder with $10M of his own 
funds is an excellent example. Corporations such as CISCO, Microsoft, 
General Electric, and others are supporting programs both through their 
philanthropy and through their direct investments in programs managed 
by NGOs, or in the case of CISCO, learning through a direct partnership 
with the Jordanian Ministry.
    For reasons that are not entirely clear, the major U.S. foundations 
which played leading roles in earlier decades, including in countries 
with which the United States found it difficult to work through 
official mechanisms, no longer play a leading role. This is unfortunate 
as the foundations can more easily and appropriately support 
strengthening of the social sciences and their application to education 
reform and improvement, work on sensitive issues of language and 
curriculum content, research and experimentation on leading edge 
approaches that cannot easily be supported by official development 
assistance programs.

II.Overview of education in the region
    It is possible to paint a very bleak picture of education progress 
in the region. According to recent reports, up to half of adult women 
in the Arab world are illiterate and more than 10 million children in 
the region don't go to school. In parts of South Asia, illiteracy rates 
and the numbers of children not in school are even higher. Countries 
have large young populations. Examination scores are low, both against 
the standards of the countries and against international comparative 
measures. The physical quality of schools in rural areas is often very 
low, sometimes little more than the shade of a tree or a building 
without adequate water and sanitation. In urban areas schools typically 
are very crowded, often double-shifted, and frequently in buildings 
such as large former residences not built as schools. Class sizes of 60 
children or higher are not uncommon. Teacher training is inadequate, 
supervision ranges from bureaucratic and political to inattentive, 
absenteeism is unacceptably high, morale and incentives tend to be low, 
and in-service professional support is unsystematic and infrequent. 
Dropout rates are high and for all but the best students and students 
able to afford private education options, access to secondary education 
is limited and inequitably distributed. Even comparatively wealthy 
states such as Saudi Arabia and Kuwait lag badly in terms of EFA goals, 
particularly in terms of the education of girls and the commitment to 
educate all children.
    However, I do not share the bleak view. Progress is being made and 
it is possible to make further and faster progress with increased 
assistance and better national leadership. Substantially more resources 
are needed and could be used effectively both for existing programs and 
for complementary activities such as secondary expansion and 
improvement (particularly lower secondary), early childhood 
development, increased emphasis on workforce development and work-
related skills (not necessarily vocational-technical training in the 
schools), administrative decentralization and management improvement, 
improved monitoring, measurement and accountability systems.
    Unquestionably, there are very large quantitative problems, most 
countries remain relatively poor and there are serious problems of 
distributional equity and access, particularly for girls but also for 
rural areas, cultural and linguistic minorities. Improving these 
systems will take time, 10-15 years minimum, and the changes will come 
slowly and incrementally. There is no quick fix, nor is there any 
inexpensive or risk-free and politically easy strategy. Progress will 
take sustained leadership, funding, technical and administrative 
expertise. It also will take a difficult combination of patient 
confidence in long-term strategies and the courage to take short-term 
risks and to learn from mistakes.
    The encouraging trend is that most countries have now put in place 
plans for moving toward Education for All. These are uneven and it 
remains to be seen whether the countries will have the political will 
to actually implement the plans fully and the international community 
will honor the commitments to mobilize resources to help these 
countries achieve the EFA objectives. But, they do exist and are a 
basis for action and investment, as well as a benchmark for monitoring 
progress. UNESCO, the World Bank, and others, including USAID, provide 
important support for improving data systems, monitoring and assessment 
against agreed goals and internationally monitored indicators of 
progress. Further encouraging is that most countries are making 
quantitative progress, albeit more slowly than they need to achieve. 
Youth literacy rates for the 15-24-year-olds are rising along with 
schooling rates and gender parity is improving in all but a few 
countries, particularly Yemen, Saudi Arabia, parts of Pakistan and 
Bangladesh. A third basis for optimism is, there is beginning to be 
more partnership with the private sector and broader consensus across 
the public sector that education reform, expansion, and qualitative 
improvement is essential for achieving social objectives, maintaining 
political cohesion and stability, and creating the conditions for 
investment and job creation. Finally, there now is substantial 
expertise in the region. A few countries such as Tunisia, Jordan, and 
Qatar are becoming exemplars for the region and there is increasing 
potential for regional cooperation and exchange.
    This growing public policy consensus and broad support, reaching 
well beyond the sectoral concerns of most educators, is articulated in 
the series of Arab Human Development Reports. For example, the 2003 
Arab Human Development Report addressed the ``knowledge deficit'' in 
the Arab world, suggesting that overhauling the region's outdated 
education systems is necessary for future economic prosperity and human 
development. The report noted that Arabs themselves need to drive this 
process of change, drawing from their rich cultural, linguistic, and 
intellectual heritages.
    The same point should be kept in mind for all countries of the 
region. Assistance is much needed, and welcomed in most countries, but 
it is the national leaders, public and private and at all levels, who 
must assess and understand their issues, build consensus, take the 
political risks and make the budgetary and administrative commitments 
to drive aggressive national plans of action. There is much the 
international community can do to provide technical support and 
critically needed inputs, but sustainable and effective reform leading 
to full mobilization to achieve quality education for all has to be 
nationally led, owned, and managed. There is much that can be done, and 
is being done, working through nongovernment organizations and 
alternative schooling systems in countries that have not yet made such 
commitments. Such programs often are very innovative and effective in 
addressing specific needs, particularly for poor and marginal 
populations, girls and women and others not being effectively reached 
by public education programs. However, other outcomes resulting from 
the building of national systems of public education, and the 
administrative and accountability reforms necessary to build such 
systems fully and effectively, will not be achieved by strategies 
bypassing the weaknesses of public administration and public 
leadership.
    Public funding, public policy, and public administration of public 
schools will continue, for better or worse, to be the dominant 
influence in most countries (Lebanon may be the exception). To effect 
major changes in these systems, donors must work within the framework 
of national leadership and national plans of action. This is often very 
delicate and cannot be externally driven except at the margins.

    The Chairman. Well, I thank you very much, Mr. Method, for 
your testimony.
    We'll now have a period of questioning. The Chair regrets 
to announce that a Democratic Senator or Senators have objected 
to the committee meeting 2 hours after the Senate came in. 
Thank goodness we started early. And so, it would appear that 
we will be able to continue until 11:45. But I mention that 
because we will have a period of questioning, and then we want 
to hear the other witnesses, likewise, and have an opportunity 
for their testimony today.
    Let me begin by pointing out that you have all made a 
distinction between the preoccupation of many in the United 
States on the madrasas schools--which you all see, at least in 
Pakistan, and perhaps elsewhere, as a very real concern--and 
the much broader concern of the public school movement, as a 
whole.
    I think you, Mr. Burki, pointed out that many students who 
are alienated by their public school experience, or lack of it, 
may be as hostile to their countrymen and the rest of the 
world, as those who have special indoctrination. Perhaps so. 
But, in any event, it indicates, as both you and Dr. Ahmed have 
pointed out, the enormity of the problem. You're suggesting 
that 4 percent, perhaps, of the GNP of Pakistan should be 
devoted to education. Obviously, only a small fraction of that 
is happening. Generous contributions by the U.S. Government, or 
other governments, are going to supplement this. But Pakistan 
is a very large country with many students, as you pointed out. 
Perhaps close to half of the entire population is in what you 
might say an educable area. That is a big figure.
    What is reasonable, in terms of the economic development of 
Pakistan? I don't mean to dwell entirely on that country, but 
clearly it's a country in which GNP is rising. I suspect that 
per capita income is rising, although I'm not certain of that, 
given population increases. What is a reasonable percentage in, 
say, an intermediate period, 10 years of time? Four? One? One 
and a half? In other words, if you were taking a look at this 
from the rest of the world, and you keep mentioning, strongly, 
to Pakistani leaders, ``Spend more on education,'' and then 
there is a pushback factor there, and they're saying, ``Listen, 
you don't understand all of the problems that we have. We're 
not a wealthy country, and we're developing rapidly, but we can 
only do so much,'' can you give us some parameters of what the 
argument should be?
    Mr. Burki. Mr. Chairman, at this point Pakistan is spending 
less than 2 percent of its GDP----
    The Chairman. I see.
    Mr. Burki [continuing]. On education. There is virtual 
consensus amongst development people that a country should 
spend more than 4 percent; preferably, 5 percent of GDP. So 
Pakistan has to double its expenditure, in terms of GDP, from 2 
to 4 percent.
    I gather that this is the program that the government has 
launched at the urging of the donors, that this would, indeed, 
happen over the next 3 to 5 years.
    The Chairman. In 3 to 5 years, a doubling might happen?
    Mr. Burki. A doubling will happen. That is their intention. 
Which also include--includes the money that is coming in from 
outside. A total of $1.34 billion have been committed by 
various donors to--for the support of education in Pakistan. 
These are over different periods of time. The World Bank is the 
largest donor, with about $600 million of soft money and 
grants. Asian Development Bank is also quite active in this. 
The United States is putting in $100 million. There are several 
countries who have converted their debt into grants for 
education.
    So, my expectation is that by the year 2010, 5 years from 
now, if everything goes well, Pakistan should be spending what 
developing countries normally spend on education; that is to 
say, about 4 percent of GDP. My expectation is that about one-
fourth of this will come from the outside.
    The Chairman. So, maybe 1 percent of the 4?
    Mr. Burki. One percent of the four will come from outside.
    The Chairman. Outside.
    Mr. Burki. It will be the donor money.
    There is also a great deal of money which is now being sent 
to Pakistan by way of contribution by the diasporas in the 
United States and in Britain for educational reform. I have not 
seen any numbers on this, but it is a significant amount, and 
it is increasing. And it is my suggestion that that money 
should also be used in a way that it adds to the development of 
education.
    The Chairman. Is the diaspora----
    Mr. Burki. Mr. Chairman----
    The Chairman [continuing]. In any way organized? Are 
Pakistanis in the United States----
    Mr. Burki. Yes, diaspora is organized. It has--taking 
advantage of your tax laws, a number of nongovernment 
organizations have been set up in this country, which hold 
various functions around the United States and raise money. 
There is an intention on the part of some of these 
organizations, not to establish new schools, not to spend money 
on new brick and mortar, but to go to the government and say, 
``Well, why don't you sell this school to us, or sell this 
university to us, and we will take it over, and we will improve 
it, on the condition that we will provide education to poor 
children, so we will not charge a large amount of money.''
    The Indian diaspora has been very successful in doing 
something very similar, and some of us have been talking to the 
Indians to learn some lessons from their initiatives.
    In terms of the amount of income that the Indian diaspora 
has, it is much greater than Pakistan's, but then India is 10 
times as large as Pakistan. So, in terms of proportion of GDP 
generated by the Pakistanis working in the United States, it is 
one of the largest diasporas in the world, and willing to 
contribute a lot of money for the social welfare of their own 
country.
    Mr. Chairman, you also asked me the question about economic 
performance in Pakistan. It has been good in the last 2 or 3 
years. Last year, the gross domestic product increased at the 
rate of 6.1 percent. Population increased at 2.2 percent, which 
means that there was a 3.9 percent increase in per capita 
income. This year, the government expects the increase in GDP 
to be above 7 percent; so, population increasing at 2 percent 
will mean a GDP per capita increase of 5 percent.
    Now, these are gross numbers. These are aggregate numbers. 
Pakistan is a country in which income distribution is highly 
skewed. The top 10 percent of the population earns much more 
than the bottom 10 percent of the population than is normal for 
most developing countries. So, because of the skewness in the 
distribution of income, when GDP increases, a significant part 
of it goes into the pockets of the rich, rather than the poor, 
and that is a problem which can only be solved through 
education and creating employment opportunities and so on.
    I just want to reiterate what I said earlier, that things--
developments are in the right direction in Pakistan. But 
Musharraf's government--I think my colleague Samina Ahmed was 
alluding to this in her own presentation--has been not always 
willing to take on the forces of conservatism. And I think 
where the donor community could come in, is to persuade 
Musharraf and his colleagues that it is extremely important to 
move the country toward modernity, rather than toward 
obscurantism. And there are sometimes efforts to move the 
country forward toward modernization, but then the molvees, the 
mullahs, come in and they make a lot of noise, and the 
government does backtrack in several different ways.
    The Chairman. Dr. Bassem, let me ask the same question to 
you about the experience in Jordan. How much of the GNP of 
Jordan is devoted to education? And what is the goal of the 
country in that respect?
    Dr. Awadallah. We are actually spending more than 4 percent 
of GDP on education. Most of the expenditure, however, has been 
in recurring--in current expenditure. And until we developed 
this Education for Reform Initiative, very little was spent on 
capital expenditure. We were reliant on donor assistance, 
particularly on loans from the World Bank, in order to 
construct new schools; and those were project loans, they were 
not part of an overall strategy for reform.
    It was only in 1999 that we started thinking about this 
through a public/private partnership, and it took us about 2 
years to put the plans together. In the year 2001, when we came 
up with the social and economic transformation plan, one of its 
major tenets was educational reform. So that's when we came up 
with all the requirements for educational reform--the 
construction of new schools, the computerization of the 
schools, the linking of the schools through a highspeed 
broadband network, the training of the teachers, the 
educational platform, the revamping of the content, the 
introduction of e-learning. All of these formed the component 
of education reform for the knowledge economy.
    We brought all the donors together, and we asked USAID, we 
asked the Japanese, we asked the Europeans, we asked the 
Canadians, we asked the World Bank, we asked some of the Arab 
gulf funds that have given us loans, as well, for this project, 
we asked the Islamic Development Bank in Jeddah, and other 
donors--we asked them all to form a donor group, which will 
support the educational reform in Jordan. Obviously, their 
support has to be matched but what--by what we come up with, in 
terms of our budget. So it has been more or less a 50-50 split 
between what the donor community has provided us for the 
educational reform, and what we have come up with, out of our 
domestic revenues in the budget in order to accelerate and go 
ahead with this reform plan.
    The first phase of this education reform for the knowledge 
economy is 500 million U.S. dollars. That's the cost of it. And 
that will take us into the year 2007 to 2008. The second phase 
will complete the cycle, and we will get rid of the double 
shifts, which were referred to earlier. There were major 
constraints, social constraints, especially with regards to 
girls and women going to school, especially during the 
wintertime, when the sun sets at early hours and families will 
not allow, socially, their girls to go out of their houses 
after 3:30 or 4 p.m. in the afternoon. So we had to deal with 
the double shifts in many of the schools. We had to deal with a 
lot of the schools in rural areas which were not really 
schools; they were one rooms, which had a blackboard, and it 
was a small room taking more than 40 or 50 students. We had to 
attend to all of these issues, and we are making a marked 
improvement, in terms of the educational reform.
    One thing, Mr. Chairman, that I want to mention is, 
educational reform is extremely important at the primary level; 
but, as the Doctor mentioned, the tertiary level is extremely 
important. When we speak about higher education, it's even more 
important. One of the key areas that His Majesty the King has 
focused on is the Shari'ah teaching. Because we noticed that 
the rejects of the educational system, those who come last on 
their scores, on their high school scores, get into the 
Shari'ah schools, or the Shari'ah departments at the different 
universities. And those are the ones who turn out to become the 
preachers in the mosques, and who captivate their audiences 
every Friday at noon prayers, and captivate them into thinking 
what they would like them to think.
    We really think that the preaching and the Shari'ah 
teaching in universities should be done along the lines of the 
law degrees in the United States. It should be a post-graduate 
curriculum, rather than an undergraduate curriculum. And this 
is what we are working on right now, in terms of reforming our 
higher education system in order to make sure that we address 
this issue.
    Beyond the Shari'ah discipline, I think just focusing on 
areas of vocational training--and I agree with you, sir, that 
perhaps vocational training should not be part of the 
educational training, but it should be a separate, parallel 
system that would cater to the requirements of the labor 
market. And herein, as I said, is the major challenge which we, 
in Jordan, have yet to face, matchmaking the output of the 
educational process with the requirements of the labor market, 
not only in Jordan, but across the Middle East. And this is 
something which is extremely important.
    In the past, we've relied on gulf countries to absorb 
Jordanian labor force. Over the last few years, we've seen, in 
the gulf countries, a nationalization effort. They do not 
import labor from Arab countries as much as they used to, 
before. We've noticed that visa requirements and immigration to 
the Western, more-advanced countries has been sharply 
curtailed, which necessitates the need for us to create more 
jobs for our growing labor market. And this is not only unique 
for Jordan, this is across the Middle East and North African 
region; indeed, for the Bemina region.
    Thank you, Mr. Chairman.
    The Chairman. That's a very important point. We are talking 
about education and expansion, how vital that is, but each of 
you, in your own way, has testified that there has to be 
something after, that there has to be something there--a job, a 
career, an opportunity--or else you have another dislocation in 
society that is very disquieting.
    I just wanted to ask you, Mr. Method, as you take a look at 
several countries in your purview--we've had very, very good 
testimony about Pakistan and Jordan--is their experience 
unique? Can you generalize, in any respect, about the countries 
that you have surveyed, and how much they are spending, how 
much they're obtaining from outside the job picture, as related 
to these elements we've been discovering in Pakistan and 
Jordan?
    Mr. Method. It's difficult to generalize----
    The Chairman. Yes, of course.
    Mr. Method [continuing]. Across this set of countries that 
covers several continents. Most countries are underspending. I 
think one of the things to keep in mind is that it's a matter 
of the political commitment that is made to achieving this 
objective that drives the funding. That's part of what I meant 
when we talked about the importance of emphasizing all--the 
political will to make difficult changes--where it's treated as 
an imperative, you know, no excuses, ``You've got to do it, 
like we do in the United States.'' Somehow, governments have to 
find a way to raise those funds.
    In most of the countries of the region, it's not treated as 
an imperative. It's treated as a public-administration task. 
People start with, ``All right, this is how much we have for 
resources. How are we going to allocate it?'' And that 
allocation becomes a political process, rather than some kind 
of categorical commitment. By moving it to a categorical 
commitment--and I think external donors can help to move it 
there--you force changes in fiscal policy, you force 
politically difficult decisions as to who's going to be taxed. 
Pakistan could raise considerably more funds if it had the 
political will and the political strength--and it is a fragile 
government--to take on some of the feudal landholding practices 
in the 20 families or so that control much of the wealth in 
Pakistan.
    The Chairman. Let me interject to point out that in your 
testimony, you point to Jordan, Tunisia, and Qatar as models 
for reform. Do they have political will or some framework for 
achievement? Likewise, are they small countries, as opposed to 
large populations, and, therefore, do they have better hope of 
a comprehensive plan becaise they have fewer persons to work 
with?
    Mr. Method. Clearly, in Jordan, the fact that the King (and 
the Queen) took a personal interest in this and made it happen, 
helped to make it happen. In Qatar, the sheik and the sheikha 
have taken a personal interest, and have driven that very hard.
    I think Tunisia has done better than others. Jordan is 
trying to do somewhat the same, trying to change the 
relationship to the employing sectors--much more consultation 
with the employers, many more forms of advisory mechanisms, 
much more of a demand-side approach to achieving education--
whereas, other countries still are rather stuck in an 
unreformed curriculum that is relatively rigid, that tries to 
supply people to the labor market without really knowing what 
the labor market wants, that tends to overemphasize the hard 
technical skills and underemphasize the soft skills that 
employers want, in terms of information-seeking capacities, 
critical-thinking skills, ability to work in teams, all of 
those aspects. I think that's one of the areas for further 
emphasis.
    I do also agree that there needs to be--I don't know about 
equal attention--but certainly serious attention to the 
tertiary education systems. I would like to see more variants 
of the U.S. community-college model being adapted in these 
countries. I think that that's a very effective way of linking 
the schooling system to the world of work, intermediating with 
the employers through a variety of advisory mechanisms, the 
consultative mechanisms that shape those community colleges.
    The Chairman. Well, you touched, each of you, in a way, 
upon the jobs issue. At least two of you have mentioned that 
there may be greater problems in students, from the countries 
we're discussing today, finding work in the United States. Is 
this a part of what I touched upon in my introductory 
statement, namely our current visa restrictions? Or is there 
more reticence with exchange programs and work-study programs? 
Maybe this is not an area that you have studied, but certainly 
in the past this has been an outlet for many talented persons. 
This committee has been seized with the issue with a task 
force, as I mentioned, in talking with Assistant Secretaries of 
State and Homeland Security and the executives at NIH and what 
have you, who have testified about what a great contribution, 
particularly graduate students are making in our medical 
research institutions, or, for that matter, in our engineering 
colleges. But this is obviously changing, because we have 
apparently put more barriers in those areas, or more 
opportunities are found elsewhere, and people are not selecting 
to come here. I'm curious as to whether you have any comments 
in this general area.
    Yes, Dr. Bassem.
    Dr. Awadallah. Mr. Chairman, thank you for raising this 
issue. If you look at the talent that is present from many 
countries--Pakistan, maybe Iraq, Jordan, Palestine, Egypt--you 
find enormous talent, particularly in the United States, but 
also in Europe--but, in particular, in the United States--that 
has found equal opportunity here, that has found the ability to 
come and contribute to American society, to American knowledge. 
And they have gone back to their countries and to contribute to 
the improvement of life in their own countries. And they are 
good emissaries and ambassadors of the American way of life and 
of what America stands for, because they experienced equal 
opportunity and freedom in this country.
    We are terribly worried about what is happening right now. 
We do understand, obviously, the security considerations, but 
this should not be, in any way, used to stop the flow of people 
who are coming into this country. Today, you look at the 
Jordanian Cabinet, and over three-quarters of the ministers in 
the Jordanian Cabinet were educated in the United States.
    The Chairman. Very interesting.
    Dr. Awadallah. Now, in--if the situation continues like it 
is today, in 20, 30 years time this is not going to be the 
case. Now you will see that the dichotomy in Iraq, people who 
have been closed in Iraq for the last 30 years under Saddam 
Hussein. They have no idea what the United States is all about. 
Probably all they know about the United States today is just 
military occupation, and they do not know anything about 
American values, they do not know anything about American 
freedom. Whereas, people who lived in the United States, Iraqis 
who lived in the United States and who have gone back now to 
Iraq, see the United States in a different light. Same applies 
for Palestinians. Same applies for Syrians or Egyptians. And it 
is a very important point, which I hope that the administration 
will attend to.
    Thank you.
    The Chairman. Well, I didn't want to generalize the point, 
but I'd just underline the fact that, in terms of our so-called 
public diplomacy--and we are still working at this arduously--
we have these opportunities that have come, historically, as 
you say, with this high percentage of the Cabinet of Jordan. 
This is certainly true of the young people in the Rose 
Revolution in Georgia, for example. I had the privilege of 
entertaining six of them, 6 years ago in the Senate dining 
room, without any idea that they were going to be ministers in 
Georgia. But the fact is that we can give our money, and some 
of our institutions are working, but it's another thing if a 
Pakistani or a Jordanian or a Tunisian, who has some idea of 
what goes on in this country, and liked it, in fact, later 
becomes the leader for reform, or among that leadership, in his 
or her home country. We're all talking about some indigenous, 
homegrown qualities. But, as you say, if people have no idea--
isolated in Iraq, for example, all these years--as to what in 
the world we are doing here, then an injection of money 
suddenly may have some benefit, but not nearly what we think, 
and perhaps not in the forms that we find is compatible with 
local needs. So I appreciate your making that point.
    Yes, Doctor.
    Mr. Burki. Mr. Chairman, I'd just like to reinforce what 
you're saying. The change that has come about, possibly, 
because of 9/11, has produced an enormous amount of resentment 
in Pakistan, particularly amongst people who are naturally 
friends of the United States. If you go back into my country's 
history, you will see that, for the first 20 years after 
Pakistan was born, in 1947, the preferred destination for 
higher education was Britain. I went there as an undergraduate, 
myself. This was Colonial-linked, and so on. But about the mid-
1960s, it began to change, and the preferred destination, 
therefore, became the United States. And up until very 
recently, something like 10,000 students used to come to the 
United States. Not all of them went back, but even those who 
stayed back have performed very good service for their country. 
I keep on talking about diaspora. These are the members of 
diaspora who are now heavily engaged in the development of 
their own country.
    So, I would like to just reinforce what you're saying, Mr. 
Chairman, that, as a part of United States public policy, it is 
extremely important to reopen the United States to students in 
Pakistan and other Muslim countries, rather than make it more 
difficult for these people to access your wonderful 
institutions.
    I have just finished reading Tom Friedman's excellent book 
called ``The World is Flat,'' and the picture that he paints of 
the world is a picture of which Pakistan should be a part, 
which is supplying services to the aging populations of the 
United States, Japan, Germany, and so on, without migrating to 
these countries, but acquiring those skills first by coming 
over here, and then going back to their own countries.
    So, we've got to get that thing started once again. It has 
been interrupted by 9/11, but I hope wiser counsels will 
prevail and access, once again, would become available to 
frustrated students becoming angry because they find it so 
difficult to gain access that they desperately want.
    The Chairman. Dr. Ahmed.
    Dr. Ahmed. Mr. Chairman, there was a question raised at the 
beginning of this testimony which was on arms sales, and I will 
link it to what you have said now. With the money that the 
United States is providing for education reform, the United 
States is winning a lot of goodwill within Pakistan. These are 
not children of families that can come to the United States to 
study. Only the elite can do that. And that's, as Mr. Burki 
said, a very thin layer of Pakistani society.
    And let's not assume that money and wealth means 
leadership, not here in the United States, where opportunities 
are present for people to find their way up the ladder just 
like that; in Pakistan, with the opportunities being present, 
we would hope to see that leadership emerge from all classes of 
society, not just for young people who are economically mobile 
and socially mobile.
    So, here is a thing that I think we need to understand. It 
is also the type of assistance given and where it's visible. In 
some of the areas that I have actually seen USAID projects, 
there's virtually nothing, but there's a little bit of money. 
It's not very much, but it's made a difference.
    What does Pakistan need? And this was a question that was 
raised earlier on. You had asked that question, and I'd like to 
add to the answer that you gave. It is a question of political 
will. It is a question of saying, ``This is a priority for my 
country,'' not, ``We are poor, and we can't afford it, and 
we'll wait for another 5 years, and we'll have another, God 
knows, how many more children who will probably be out in the 
streets or in madrasas.'' That will come from leadership, and 
that leadership, unfortunately, is lacking. The United States 
is making a contribution, and we would hope that that 
contribution would be in these areas that Pakistan so 
desperately needs--in social-sector development, in education, 
in health.
    If you actually look at the indicators--pick any indicator, 
it really doesn't matter--it's abysmal.
    The Chairman. Well, we thank you very much for that wisdom.
    I thank the entire panel, and I appreciate, so much, your 
papers, which will be made a part of our record, and, equally, 
your thoughtful responses to these questions. We look forward 
to staying in touch with you. You are good friends of the 
committee, and good friends of all the ideals that we have 
talked about today. And we thank you.
    The Chair would like to call, now, the witnesses who will 
be a part of our second panel.
    [Pause.]
    The Chairman. The Chair would like to call the meeting back 
to order.
    We are very honored to have, as a distinguished panel, Ms. 
Elizabeth Cheney, Principal Deputy Assistant Secretary of State 
for Near Eastern Affairs, the United States Department of 
State; and Mr. James Kunder, Assistant Administrator for Asia 
and the Near East, in USAID.
    I'll ask you to testify in the order in which I have 
introduced you. As in the case of the first panel, your full 
prepared statements will be made a part of the record. We will 
ask you to summarize, hopefully in about a 10-minute period, 
and then we will ask questions.
    Ms. Cheney.

   STATEMENT OF ELIZABETH CHENEY, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY FOR NEAR EASTERN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Cheney. Mr. Chairman, thank you very much for the 
opportunity to be here and to speak with you this morning about 
what is a really critically important issue of education reform 
in the broader Middle East.
    I think that, as we gather today, we really are in a moment 
of historic opportunity for the people of the Middle East. I 
think if you look at, sort of, what's happened across the 
region in the last several months--beginning with the elections 
in Afghanistan, the elections then in the West Bank and Gaza, 
the elections in Iraq, the assassination of Prime Minister 
Hariri, and the uprising from the people of Lebanon since then, 
as well as the Saudi elections, the very bold announcement by 
President Mubarak that he will, in fact, be pushing for 
constitutional reform and multiparty elections in Egypt, the 
reforms that you heard about on the part of the Jordanians, in 
terms of their economic reforms, educational reforms, and 
political reforms--there really, I think, is a movement of 
change across the region. And I think for us, in the U.S. 
Government, the task is to do everything we can to help support 
that change.
    I think it's a critical element for us in securing long-
term victory in the war on terror that we do everything we can 
to provide hope and opportunity to the region's young people, 
in particular. And I think that means focusing on reforming 
schools so that we are sure they teach tolerance, so we're sure 
that they guarantee that people have the skills they need to 
compete in the 21st century economy, ensuring that economic 
systems are open and are growing enough so they can create 
jobs, and ensuring that political systems, as well, are open so 
people can have a voice in determining their own destiny and 
their own future and how they're governed, and I think, 
finally, and, in my opinion, perhaps most importantly, that we 
work to empower women and to ensure that women across the 
regions have a voice in their society as equal participants and 
equal players and have access to the same opportunities that 
the men and the boys in those societies do. As the President 
has said, increasingly ensuring that liberty spreads in other 
regions is necessary to secure our own liberty at home.
    As you're aware, Mr. Chairman, 50 percent of the population 
of the broader Middle East and North Africa is under the age of 
20, and economies today are simply not growing quickly enough 
to create jobs that those people will require once they're 
entering in the labor market. We are faced, in most countries 
in the region, with closed political systems, with illiteracy 
rates--I think it's 75 million men across the region, and 45 
million women--sorry, 75 million women and 45 million men are 
illiterate today. In many countries we have a 50-percent 
illiteracy rate among women. At the same time, you've got 
school systems, as I said, that are failing to teach values of 
tolerance and failing to equip people with the tools that they 
need.
    As we look at the systems that we see in place, I think, as 
the U.S. Government, this means it's critical for us to support 
efforts to help to reform those schools systems. We're doing a 
number of things. One is working directly with Ministries of 
Education in countries where they've demonstrated that they've 
got a political will to make change. We provided $4.5 million, 
for example, for the Jordan Education Initiative that Minister 
Awadallah briefed on earlier today. We also are working at--to 
ensure that our assistance is felt at a grassroots level. And 
in places where we see less of a political will to change, we 
want to ensure that we are doing everything we can to touch 
people's lives, to teach women how to read, and to provide 
scholarships both to attend school and also in English language 
training.
    I recently returned from--I was in Morocco last week, where 
I had the opportunity to meet with some recipients of some of 
our microscholarships. And it's a very impressive and effective 
program, where, for a small amount of money, we're providing 9 
months of English language training to high school students and 
college students, college-aged students, from some of the 
poorest areas around Rabat and Casablanca, and really giving 
these kids an opportunity to experience a better future that 
they clearly wouldn't have had otherwise.
    We're working both bilaterally and multilaterally on these 
issues of education reform. Multilaterally, we signaled, 
beginning at the Sea Island Summit last year, that the G-8 
partners are very committed. We've launched a separate G-8 
education initiative, which is focused on improving school 
systems and also very much focused on literacy. These goals 
were reaffirmed last December in Rabat, at the Forum for the 
Future, and we'll be having an educational ministerial meeting 
in May at the Dead Sea in Jordan. Our Secretary of Education, 
Margaret Spellings, will be representing the United States 
there.
    Bilaterally, the largest portion of our funds on education 
reform are provided through USAID, so I'll let my colleague, 
Assistant Administrator Kunder, talk about those.
    From the Department of State's perspective, we've got 
several different programs underway. Through our Bureau of 
Educational and Cultural Affairs, we've got approximately $356 
million, which we anticipate will have a focus on the Muslim 
world and on youth in the Muslim world. Issues like exchange 
programs, some of the very things that the last panel was 
talking about, in terms of making sure students have the 
resources to come to the United States. We recognize that 
that's critically important to building relationships. We also, 
through ECA, are funding a teacher-training program in 
Afghanistan, and our Fulbright programs across the region, 
including new programs in Iraq and Afghanistan.
    In addition to that, we have the Middle East Partnership 
Initiative, which has dedicated $75 million, out of the $293 
million appropriated to the Partnership Initiative, to 
education and women's literacy. And we have a number of 
different programs that the Partnership Initiative is funding. 
We've launched partnership schools. We're working now, 
initially in Oman and Algeria, to identify schools, in 
conjunction with those governments, that the Partnership 
Initiative can then go into the schools and work on a whole 
range of issues--work on curriculum, work on IT training, 
training for the administrators and the teachers--to help use 
those as pilot schools that very much can then become a model.
    We also are providing translated textbooks and translated 
children's books. We were guided in this by the findings in the 
first Arab Human Development Report, in 2002, that demonstrated 
that the numbers of books that are translated into Arabic every 
year really are dwarfed by numbers across the rest of the 
world, in terms of English translation, French translation, 
Spanish, even Greek. So we provided a grant to help to get 
textbooks and children's books into schools.
    We're also providing funding to an organization called Arab 
Civitas, which is focused on helping to provide citizenship 
training through the schools so that students are equipped to 
participate in the emerging democratic political systems.
    We're also, finally, very focused on public/private 
partnerships, such as the Jordan Education Initiative. And the 
other model, that I think is very impressive, is the 
Alexandria, Egypt, model, where the local community, the local 
private sector, has taken a major role in helping to reform 
those schools systems. And, through USAID in Egypt, we've 
provided funding to help replicate that model in other cities 
across Egypt.
    In addition to these programs, we're also supporting 
university partnership in 10 countries. We're funding Visiting 
Student Leaders, which is another exchange program. We're 
helping to provide Internet service in Yemeni High School. And 
we're very much looking at how we measure the success, going 
forward, of these. Some of these programs' results are 
relatively easy to measure. If you're talking about literacy 
training, for example, you can measure how many people you've 
taught how to read. Scholarships for girls, you can measure 
enrollment statistics.
    It obviously becomes more difficult and will take more time 
to be able to determine, you know, which programs are having a 
moderating influence in society, but it's something that we 
will be following closely, obviously, as we go, in the coming 
months.
    We're working, right now, to produce annual--our 2005 
country strategies for every country across the region, which 
will be looking at the whole range of foreign-policy issues we 
have in our bilateral relationships, but will include, 
obviously, a large portion of freedom agenda issues. And the 
education reform will be central to that.
    So, in closing, I think I would just like to say we'll 
continue to stress the importance of education reform, both in 
our policy dialogs with governments in the region, as well as 
working with NGOs, and in working to ensure that we're doing 
everything possible to provide tangible, real, and effective 
assistance, recognizing that, in many cases, we are not the 
largest or the only donor, and we need to ensure that we aren't 
being duplicative. But I think there's a lot of important work 
the United States can do, both at the policy level and at the 
assistance level.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Cheney follows:]

  Prepared Statement of Elizabeth Cheney, Principal Deputy Assistant 
Secretary for Near Eastern Affairs, Department of State, Washington, DC

    Thank you for the opportunity to speak with you today on the 
important topic of educational reform in the Broader Middle East and 
North Africa. The President's vision to promote freedom and democracy 
in the region is about giving young people hope for their future--a 
positive future built on the prospect of opportunity and prosperity--
that strengthens regional stability and our own national security.
    In the area of education reform, we need to support efforts to 
ensure that schools in the region teach tolerance and prepare students 
to compete in the global economy. We need to work to improve literacy, 
particularly among women. We are willing to lend our strong support to 
Ministries of Education in the region that have demonstrated commitment 
to reform.
    We also need to do more to ensure that our assistance touches, is 
seen by, and improves the lives of more people at the grassroots level 
in the countries to which we provide assistance. In the area of 
education, this can be achieved by making greater use of literacy 
programs, scholarships for women and girls to attend school, and 
support for programs--such as those in Alexandria, Egypt--that involve 
the private sector in education reform.

                             THE CHALLENGE

    Fifty percent of the region's population is under the age of 20. 
Economies across the region are not growing quickly enough--and are not 
sufficiently open to the outside world--to create jobs for these young 
people to fill. At the same time, rigid and closed political systems do 
not give citizens in many countries a voice in shaping their destiny or 
choosing their leaders. Finally, too many school systems across the 
region are failing to teach tolerance or to provide students with the 
tools they need to compete successfully in the global marketplace.
    Regional stability and a reduction in the appeal of extremism 
depend on giving people in the region more power to shape their lives, 
their societies, and their futures. This endeavor will require reform 
of political, economic, and education systems, and the empowerment of 
women. Reform efforts will need to ensure people have a democratic 
voice in the governance of their countries, to strengthen the rule of 
law to protect citizens' rights, to modernize economic systems in order 
to create opportunity, and to facilitate access to quality education, 
particularly for women and girls, so that all citizens are properly 
equipped to participate fully in society.
    The groundbreaking 2003 Arab Human Development Report was pivotal 
in drawing attention to the critical issue of failing education systems 
that produce citizens ill-equipped for the challenges of the modern 
world. The authors of the report stressed this point again in the 
newest Arab Human Development Report released this month. Progress in 
the region is inextricably linked to strong democratic institutions and 
economic growth, which are not possible without significant reforms in 
educational systems.
    There is no question that implementing genuine educational reform 
is a difficult process that entails overcoming numerous hurdles and 
working through a series of challenges. The Broader Middle East and 
North Africa has some of the lowest literacy rates in the world--
particularly among women. Over 75 million women are illiterate, as are 
over 45 million men. Afghanistan, Pakistan, Yemen, and Morocco are 
countries of particular concern. In Egypt alone, over 13 million 
Egyptian women contribute to a national female illiteracy rate of 56 
percent--according to the United Nations.
    Businesses in the region consistently report that national 
education systems are not producing graduates with the skills and 
qualifications needed by the private sector in order to compete in the 
modern, international marketplace. Basic education needs to be relevant 
to societal needs and workforce requirements if the region is to make 
progress on economic growth and social development. So, support for 
indigenously led efforts to train teachers, reform curricula, and 
provide vocational training is also important in helping to address the 
region's educational challenges.
    The conversations on reform that are taking place throughout the 
Broader Middle East and North Africa are encouraging. And there are 
encouraging signs of change in the area of education in the region as 
well. As I already mentioned, the governorate of Alexandria in Egypt 
has been leading the way toward a school system characterized by 
greater local-level control and by strong collaboration and involvement 
on the part of parents and local businesses in shaping the education 
that is provided to their children.
    The United States and its allies have clearly signaled their desire 
to support governments committed to education reform and to provide 
them with both material support and the benefit of their international 
experience.
    At Sea Island, GA, the United States joined with G-8 partners and 
countries of the Broader Middle East and North Africa in committing to 
work together to support regional political, economic, and educational 
reform efforts, including support for the improvement of educational 
systems and a literacy initiative to impart literacy skills to an 
additional 20 million people by 2015. At the historic Forum for the 
Future in Rabat last December, G-8 and regional leaders reaffirmed 
these goals and agreed to convene a meeting of Education Ministers in 
Jordan this May to discuss the critical success factors necessary for 
reform. The education ministerial is sure to produce robust and 
constructive engagement and dialog on this key set of issues.
    The key for the United States is to allocate our resources in a 
targeted fashion that does not duplicate other donors' efforts. In 
addition, we need to take advantage of opportunities where governments 
are committed to reform.

                             THE RESOURCES

    Over $98 billion in assistance has been provided to the Broader 
Middle East and North Africa by the rest of the world over the last 10 
years. According to the Development Assistance Committee of the 
Organization for Economic Cooperation and Development, OECD countries 
provided in excess of $74 billion in bilateral assistance between 1993 
and 2003. The World Bank provided more than $24 billion during the same 
period (primarily in loans, but also via a small number of grants).
    Of the $74 billion provided by the OECD countries over the last 10 
years, $4 billion went to support education; $2.4 billion of the $24 
billion provided by the World Bank was directed toward education during 
the same timeframe.

                               THE DONORS

    The World Bank, and Germany and France have been the largest 
providers of foreign assistance to the Broader Middle East and North 
Africa in the area of education. The Bank provided over $2.4 billion in 
loans and grants between 1993 and 2003, while France and Germany 
provided approximately $1.5 billion each. According to the OECD, the 
United States provided $290 million over the same period; all of the 
U.S. money was provided in the form of grants.
    The picture is somewhat different when it comes to foreign 
assistance for basic education. The World Bank is by far the largest 
donor; it provided over $900 million between 1993 and 2003--primarily 
in loans, but also via grants. The United States took second place with 
over $190 million, all provided via grant assistance.
    Education reform is a difficult thing to do in any context, but 
particularly in the Broader Middle East and North Africa. As I have 
described, a huge amount of assistance is being provided to education 
systems throughout the region. There are many programs and there are 
many players. And the United States is not the biggest player in this 
area either.
    In recent years, the United States has significantly increased the 
amount of education assistance provided to the region. In fiscal year 
2005, we will dedicate almost $200 million to BMENA countries. The 
fiscal year 2006 budget requests $270 million for education assistance 
to BMENA countries, an increase of 37 percent over the 2005 levels.
    Within the broader picture of total foreign assistance to education 
reform in the Broader Middle East and North Africa, we need to focus 
our activities and to ensure that we are not duplicating the effort of 
others.
    Looking forward, the U.S. Government will focus its technical 
assistance funding on Ministries of Education, which have demonstrated 
a true and tangible commitment to education system reform.
    We will also focus our efforts toward the grassroots level by 
providing literacy programs and scholarships to attend or stay in 
school--particularly for women and young girls. In this way, we can 
ensure that our assistance is not wasted, has a tangible impact upon 
the lives of people in the countries we are assisting, is visible at 
the street level and achieves results.
    In countries where government Ministries of Education have 
demonstrated a commitment to reform, we will, of course, stand ready to 
provide governments with the best support that we can mobilize. This 
means not just funding, but it also means concerted action together 
with other donors to make the fruits of international experience in 
reforming education systems available to our partners in the region.
    As you know, Mr. Chairman, the United States Government has three 
primary avenues through which it directs bilateral assistance to 
education and educational exchanges in the Broader Middle East and 
North Africa:

          (1) USAID through development assistance and economic support 
        funds;
          (2) The Department of State's Bureau of Educational and 
        Cultural Affairs; and
          (3) The U.S. Middle East Partnership Initiative's policy and 
        program initiatives.

    My colleague, Mr. Kunder, will speak in more detail about USAID's 
activities in the region. I would like to take a moment to describe the 
Department of State's activities in the area of education reform.
    The Department of State's Bureau of Educational and Cultural 
Affairs (ECA) promotes democracy and reform through global exchange 
programs. With a 2005 appropriation of $356 million, ECA exchanges will 
target youth and youth influencers around the world. ECA's special 
emphasis will be on countries with significant Muslim populations in 
order to reinforce positive trends toward economic and societal change 
through professional and academic exchanges.
    ECA sponsors a number of programs which support teachers and 
teacher-trainers from the region, particularly in English language 
instruction, and provides them with firsthand opportunities to learn 
about the U.S. educational system, the principles of student-centered 
teaching, effective democratic school governance, and parental 
involvement.
    For example, the Afghanistan Teacher Education Project has brought 
more than 60 women educators from Afghanistan to the United States to 
enhance their professional and teacher training skills.
    Similarly, the Fulbright Foreign Language Teaching Assistant 
program places new English language teachers from the Broader Middle 
East and North Africa on United States campuses for one academic year. 
They teach Arabic and other regional languages, and enroll in United 
States studies and/or English as a Second Language (ESL) methodology 
classes. Egypt, Jordan, and Morocco have been regular participants in 
the program.

           THE U.S. MIDDLE EAST PARTNERSHIP INITIATIVE (MEPI)

    Let me now turn more directly to MEPI and its contribution to 
combating terrorism through education. Through MEPI we are linking the 
President's vision for democracy and freedom to our policy dialog with 
governments in the Middle East. As such, MEPI partners with those 
countries that have demonstrated a clear, political commitment to 
enacting reform in the education sector.
    The U.S. Middle East Partnership Initiative has received $293 
million in appropriations since its inception. Close to a quarter of 
these funds, or approximately $70 million, is being spent--in some 
cases in countries unserved by USAID--on promoting educational reform. 
MEPI's specific emphasis is on: Improving the quality of basic 
education; expanding access to basic education for all people, 
especially girls and women; and promoting skills development compatible 
with workforce needs.
    The President's 2006 budget requested $30 million for MEPI's 
education reform efforts. Of MEPI's current funding, 25 percent 
supports programs that facilitate curriculum reform, teacher training, 
and community and private sector involvement in education.
    Based on new, innovative models, MEPI has helped launch creative 
alternatives for improving the quality of, and access to, education for 
children in the primary and secondary levels through its Partnership 
Schools Program. This program allows MEPI to promote school autonomy in 
systems that have traditionally been very centralized. MEPI anticipates 
that by fall 2005 we will be able to conduct an initial assessment of 
the impact of the program's innovative instructional and management 
methods in the classroom, and how the methodology translates into 
actual enhanced autonomy and freedom of choice among students, 
teachers, and institutions.
    The 2002 Arab Human Development Report noted that the Arab world 
translates about 330 books annually, one-fifth the number that Greece 
translates. The authors of the report also noted that the cumulative 
total of books translated since the times of Caliph Maa'moun (9th 
century) is 100,000, almost the average that Spain translates in 1 
year.
    In an effort to encourage independent reading, critical thinking, 
and analytical skills in young readers, MEPI launched ``My Arabic 
Library,'' a major program that provides colorful and interesting 
Arabic language reading materials to third and fourth grade classrooms 
in the region. MEPI can demonstrate that this program is having a 
tangible impact. Three thousand schools will receive more than 1 
million books, targeting approximately 120,000 students and 6,000 
teachers at its launch. In the long term, the program will contribute 
to a substantive change in the approach toward education.
    MEPI is targeted to respond quickly to emerging opportunities and 
to respond with programs targeted at the individual challenges faced by 
each country. Through the Arab Civitas civic education program, which 
is implemented in primary and secondary schools, MEPI also provides 
support to countries in the region wanting to build public awareness of 
civic rights and responsibilities. The program promotes an 
understanding of, and commitment to, democratic values and principles.
    MEPI also has the flexibility to craft public-private partnerships 
to bring about effective education reform efforts. In Jordan, MEPI has 
partnered with the Ministry of Education and Cisco Learning to develop 
the Jordan Education Initiative, which provides a high-quality on-line 
curriculum and teacher training programs in the field of English. 
MEPI's education programs provide viable options and effective tools 
for people in the region who seek to implement reform in a manner that 
offers security and prosperity for all of their people.
    We are in the process of working with our Embassies and USAID 
missions to update our country strategies in the area of reform, 
including education, and would be happy to discuss these with the 
committee as the process unfolds.

                               CONCLUSION

    In closing, Mr. Chairman, the United States Government will 
continue to stress the need for positive change in education in our 
ongoing dialog and relationships in the Broader Middle East and North 
Africa and beyond. Where governments demonstrate a commitment to reform 
we will work closely with them to help make their efforts succeed. We 
will also focus our effort toward the grassroots level where we can be 
assured that our resources will have a tangible impact on individuals 
and their education.
    Thank you for the opportunity to appear before you. I look forward 
to your questions and to our discussion of this important issue.

    The Chairman. Well, thank you very much, Ms. Cheney. We are 
especially appreciative, in the construct of the hearing, that 
we've heard from four distinguished witnesses, who have given 
us a view of the situations in individual countries. We are 
equally privileged to have a response by persons who, as you 
have illustrated in a very comprehensive way with a variety of 
programs, are attempting to understand, to listen, and to meet 
those requirements.
    We have asked our second witness to carry on in that 
spirit. Mr. Kunder, we're delighted to have you here, and would 
you give your testimony?

STATEMENT OF JAMES KUNDER, ASSISTANT ADMINISTRATOR FOR ASIA AND 
   THE NEAR EAST, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Mr. Kunder. Thank you, Mr. Chairman. We do very much 
appreciate your calling the hearing. I know it's obligatory to 
say that, but it really does help us focus our analysis when 
you call these kinds of hearings.
    I wanted to start off by introducing you to four of the 
newest recruits in the global war on terrorism. These are Ikri 
Mikri, Tuktuki, Halum, and Shiku. They are four Sesame Street 
characters introduced, just last week, to Bangladeshi 
television as part of the Sisimpur Program, or Sesame Street in 
Bengali.
    A couple of years ago, we would have been talking about how 
this was an extension of the U.S. Sesame Street program. In 
fact, it's an extension of the Egyptian Sesame Street program, 
which we've now rolled off into Bangladesh. So we're trying to 
get out these programs--teaching these values of tolerance and 
understanding of minority groups, and so forth, that we do with 
similar programming in the United States.
    I have another audio/visual display, if I can. This is a 
certificate I received for Cisco Systems computer training a 
couple of weeks ago, where I was taught by a very competent 19-
year-old woman. I have to admit, I wasn't a very good student. 
She was a very good teacher. The interesting thing was that I 
received this certificate in the reconstructed Ministry of 
Women's Affairs in downtown Kabul, Afghanistan, and the young 
woman was an Afghani woman participating in a joint U.S. 
Government/Cisco Systems training program.
    I raise these things, not to be humorous, but to display 
that, as Liz has said, we are trying, across the region, to use 
the taxpayer dollars we've been entrusted with, to use the best 
techniques we can in audio/visual training, in 
telecommunications, in private/public, business/government 
partnerships to win this war on terrorism.
    These are humorous examples, but, of course, we understand 
we're engaged in a deadly serious battle. We've got programs 
going from the hardscrabble Hezbollah villages of southern 
Lebanon to the jungles of Mindanao, where we're doing 
demobilization programs for Moro Liberation Army fighters. So 
this is very serious work. And I think the taxpayers would be 
gratified that the kind of work that we're trying to do with 
the dollars we have available is as creative as possible.
    I'd like to address, first, very briefly, the toughest 
question that I think the committee asked us, and that is the 
question of the link between education and moderate behavior. 
We have tried to do very serious research at USAID using 
partners like the RAND Corporation and other think-tanks to 
understand, as carefully as we can, whether there's a causal 
link between education and moderate behavior, or, ultimately, 
the avoidance of terrorism.
    It's very difficult to draw a direct causal relationship on 
a one-to-one basis. That is to say, it's very hard to say that 
if an individual was educated to a certain level, he or she is 
less likely to engage in terrorist behavior. However, what we 
think we can show--and this is an important part, both of USAID 
programming and MEPI programming at the State Department--is 
that democracy and participation lead to moderation across 
societies. Tolerance and democracy and moderate behavior come 
from participation in democratic processes. Education--public 
education, private education, primary education, and secondary 
education--all contribute to democracy and participation. So we 
have an indirect link, we think, between education and the kind 
of behavior we hope folks will display across the region.
    I have to tell you--truth in advertising--I wanted to make 
that point, specifically, because, in part of your opening 
statement, sir, you mentioned the shift in resources from other 
development programs in Pakistan into education. We believed 
that was a good thing, and that's why we did it. You also 
raised the question of whether we should shift resources from 
what we call traditional development programs into education. 
Our answer to that would be that the goal of increasing 
moderate behavior and combating terrorism across the region is 
simply not a question of shifting money from one line item into 
another. Job training, participation for men and women in the 
society, democratic principles, and education, all contribute 
as a comprehensive package. The good news is, development 
works. As these societies advance, we will see less terrorist 
behavior and immoderate behavior. But just to shift money 
between line items, we don't believe is the answer to solving 
that problem.
    If I could, we have just a couple of charts here, and I'll 
be very brief. I believe you have these in front of you, sir. 
This chart tries to summarize much of what the first panel 
said. The sheet that says ``Complexity of the Education 
Challenge,'' the range of education problems that we try to 
highlight here is the result of our research that indicates 
that it's not just classrooms, it's not just teacher training, 
it's not just numbers of students enrolled; there are a range 
of access issues that have to do with how many schools are 
built, how many kids are out of school, low literacy rates, 
especially for women, and lack of early-childhood development 
programs, like the Sesame Street programs I talked about 
earlier. But then, these access problems have to be matched by 
investments in quality. If we don't have well-trained teachers 
and administrators, if we don't have systems to monitor 
education progress, if we don't have parental and community 
involvement in the school, and if we don't have pedagogy that 
increases student participation, that simply emphasizes rote 
learning, the education programs won't achieve the results we 
intend.
    And, finally--and you were getting to this question with 
the previous panel, and Liz referred to it, as well--the 
programs have to be relevant. The reason a lot of the kids 
aren't in school, or the reason a lot of the kids drop out, is 
they simply don't see any economic advantage. So a lot of our 
programs have focused explicitly, on the link between economic 
growth and jobs and relevant training.
    The second sheet, then, talks about education as a 
moderating influence, and talks about the kinds of strategies 
we've tried to launch across the region. So we promote quality 
education and economic opportunities, increase education 
opportunities for unemployed and out-of-school youth. We're not 
just focused on the kids in school, but we're focused on 
informal training programs for those kids who are out of 
school, street kids and so forth, who might be particular 
targets for terrorist recruitment.
    Third, we've looked at providing alternative schools to 
radical madrasas. We come out at the same point that the 
technical panel talked to, that the best goal we can achieve is 
to support public education and alternative education, and let 
the madrasa phenomenon wither, because the parents who are 
sending their kids to madrasas are primarily sending them there 
because they don't see a good alternative.
    Fourth, we're trying to teach critical-thinking skills and 
tolerance, both in our early-childhood development programs and 
in the public school system.
    Fifth, we're trying to increase access to education 
opportunities through school repair and accelerated learning--
these kind of programs are particularly critical in post-
conflict situations, for example, in Afghanistan, where girls 
missed so much schooling under the Taliban; we're trying to get 
them into accelerated training programs--provide training to 
bridge the school-to-work transition, and improve education 
monitoring and information systems.
    I'll close with just two particular points. Your opening 
statement talked about the fact that we're spending only about 
3 percent of U.S. foreign-assistance dollars in education. We 
probably need to provide the committee, with your permission, 
some additional numbers on that.
    [The information referred to follows:]

         Percent of U.S. Foreign Assistance Spent on Education

    The total Asia and the Near East (ANE) fiscal year 2005 budget 
(Economic Support Funds, ESF; Development Assistance, DA; Emergency 
Supplemental funding, and IRRF apportionments) is $4.673 billion. Of 
this, $331.4 million or 8.6 percent is for education programming. The 
fiscal year 2005 totals include $60 million in supplemental education 
funding for Afghanistan. The following table provides a country 
breakdown of ESF, DA, Emergency Supplemental, and IRRF apportionment 
combined totals for education.

                                   ASIA AND NEAR EAST EDUCATION BUDGET ($000)
----------------------------------------------------------------------------------------------------------------
                                    Fiscal year  Fiscal year  Fiscal year  Fiscal year  Fiscal year
                                     2002 total   2003 total   2004 total   2005 total  2006 total*     Total
----------------------------------------------------------------------------------------------------------------
Afghanistan.......................        6,500        8,400      107,405       97,937       97,000      317,242
Bangladesh........................        2,500        2,350        2,971        3,500        3,000       14,321
Burma.............................        3,000        1,500        1,500        1,000        1,000        8,000
Cambodia..........................            0        2,500        2,000        6,000        1,250       11,750
Egypt.............................       84,400       49,000       33,500       63,000       24,800      254,700
India.............................        2,658        4,008        8,912        7,580        6,700       29,858
Indonesia.........................        3,000        2,000       23,000       26,500       31,011       85,511
Iraq..............................            0       75,583       90,200            0            0      165,783
Jordon............................            0        4,000        5,000        8,640       14,000       31,640
Lebanon...........................        4,000        3,100        4,200        4,000        4,000       19,300
Morocco...........................        1,428        1,528        2,000       14,640       12,400       31,996
Nepal.............................            0            0          811          392          392        1,595
Pakistan..........................       15,000       21,500       28,000       66,673       66,703      197,876
Philippines.......................            0        2,000        4,000        9,680        6,680       22,360
Sri Lanka.........................            0        2,250        1,250        3,375        2,750        9,625
Vietnam...........................          350          600            0            0            0          950
West Bank/Gaza....................            0        2,800        2,200        8,700       11,000       24,700
Yemen.............................        4,800        7,898        3,270        4,996       12,703       33,667
ANE Regional......................        1,764        2,184        6,117        4,810        2,300       17,175
                                   -----------------------------------------------------------------------------
Total ANE.........................      129,400      193,201      326,336      331,423      297,689    1,278,049
----------------------------------------------------------------------------------------------------------------
* FY 2006 totals do not include all supplemental funding allocations.


    Mr. Kunder. We believe those numbers reflect the huge base, 
if you will, that's been established by the Iraq and 
Afghanistan reconstruction programs over the last couple of 
years, and we think the education expenditure is probably a 
little closer to 10 percent. Having said that, we agree with 
the basic assertion--I haven't cleared this statement; I'm not 
up here to request more funds without consulting with our OMB 
colleagues first--but we are talking about launching, in 2007, 
what we call an Education for 21st Century Jobs Initiative that 
would link together the basic education, the skills training, 
and then bringing the private sector in so that the jobs are 
relevant, so that the training and education are relevant to 
21st century jobs. That's something we'll want to talk to the 
committee about.
    And, second, in closing, we very much agree with the 
closing discussion that the chairman had with the last panel 
about the need to do exchange programs. We cannot, no matter 
how much we increase funding, expect ourselves, the U.S. 
taxpayers, to build the schools, print all the textbooks across 
the region. Even at the existing funding level, we're probably 
spending about 50 cents per student, between Morocco and the 
Philippines. If we spent the entire U.S. foreign-assistance 
program every year on this region, we'd spend about $15 per 
student per year, and that's not enough to build the schools. 
Clearly, we have to get the governments mobilized.
    What we've tried to do is come up with creative model 
programs, like the parent-participation program that Ms. Cheney 
referred to earlier, in Alexandria, Egypt, which we're now 
rolling out across Egypt. To do that, we've got to have good 
partners in the ministries. Dr. Bassem Awadallah is a perfect 
example of a Jordanian who came to the United States for higher 
education. We need to have those kind of partners.
    In the early nineties, USAID, alone, was funding about 
17,000 foreign students to come here for graduate or post-
graduate work. Now that number had declined to under 5,000. The 
State Department, through its exchange programs, has tried to 
compensate somewhat, but the numbers aren't backed up. And, 
most troubling, we have all seen the numbers lately, that even 
the non-U.S.-Government-funded number of students coming to 
this country is declining, for a range of reasons. We've got to 
fix that problem.
    We can do good model programs across the region, like 
Sesame Street, like the girls' and parent-participation program 
in Alexandria, but, ultimately, we've got to expect the 
governments of the region to take the models we've helped them 
develop and implement them in their systems.
    I would take respectful exception to what Senator Nelson 
said earlier. The cash-support programs, the financial-support 
cash-transfer programs, like in Pakistan and Egypt, are not 
irrelevant, because if we use these programs to engage in good 
policy dialog with our colleagues, and then encourage them to 
roll out successful model programs, they can make a valuable 
contribution for education.
    So, thank you, again, for the opportunity to testify. These 
are some of the things we're doing that might be useful.
    Thank you, sir.
    [The prepared statement of Mr. Kunder follows:]

 Prepared Statement of James Kunder, Assistant Administrator for Asia 
     and the Near East, U.S. Agency for International Development, 
                             Washington, DC

    I welcome the opportunity to appear before you today to discuss the 
work of the U.S. Agency for International Development in Asia and the 
Near East on the theme of ``Combating Terrorism through Education: The 
Near East and South Asian Experience.'' We appreciate the importance of 
education as a force for peace and progress, and welcome this 
opportunity to share the experiences of our ongoing education programs 
in these two critical subregions.
    USAID works in 28 countries in Asia and the Near East--from Morocco 
to the Philippines and as far north as Mongolia. The region is home to 
64 percent of the world's population and two-thirds of the world's 
poor. Across the region, there are many religious and cultural 
traditions. Some of the countries working to address terrorist threats 
have Muslim majorities. Some do not, such as Nepal and Sri Lanka.
    Understanding and responding to the drivers of terrorism in all the 
countries we work in, requires a good knowledge of local conditions and 
putting in place programs that are directly relevant to those issues. 
Our field missions give USAID a capacity to act effectively to make 
appropriate education interventions. They do so within a framework of 
complementary investments which support stability, openness, and 
economic opportunity. Education alone is not ``the answer'' but it is 
absolutely critical to success.
    I am proud that our many investments have shown positive results in 
improving access, quality, and the responsiveness of national education 
systems. This statement outlines some of the problems we face, some of 
the work we have done and notes accomplishments. There is an array of 
responses that can and do work. Oftentimes, in concert with host 
countries, other donors and the private sector, good ideas can be 
scaled up. In many settings, the resources are not there for the kind 
of robust response that is required to provide national level coverage.
    Given the current knowledge deficit in the Near East and South Asia 
regions, education is one of our highest priorities. USAID's program 
approach supports the 9/11 Commission Report recommendation that ``the 
United States should reach out to young people and offer them knowledge 
and hope.'' The current education challenges in the region are: The 
lack of access to functioning schools, low quality and irrelevant 
curriculum, a large number of out-of-school youths, high illiteracy 
rates, particularly for females, and unemployed youth without the 
necessary skills to find gainful employment. We have responded to these 
challenges by focusing our programs on increasing equitable access to 
education opportunities, improving the quality and relevance of 
education, improving literacy and strengthening workforce skills. We 
are monitoring the impact our programs--we have enrolled over 170,000 
(56 percent girls) accelerated learning students in Afghanistan and 
69,214 students are enrolled in literacy courses in Pakistan. We have 
printed and distributed 27 million textbooks in Afghanistan. We have 
recognized the important role of information technology in changing the 
way education is delivered and incorporated in our programs. We are 
encouraging the use of public-private partnerships and are 
collaborating closely with MEPI, Peace Corps, and other agencies to 
leverage our impact and to avoid duplication.
    Since 2001, USAID's education portfolio in the Near East and South 
Asian region has dramatically expanded from 1 to 13 programs. The 
budget for education in the following 13 countries rose from $99.5 
million in fiscal year 2002 to nearly $274.5 million in fiscal year 
2004: Afghanistan, Bangladesh, Egypt, India, Iraq, Jordan, Lebanon, 
Morocco, Nepal, Pakistan, Sri Lanka, West Bank/Gaza, and Yemen. Four of 
the USAID Missions housing these programs--Afghanistan, Pakistan, 
Yemen, and Iraq--opened recently. We established them to handle 
priorities arising out of U.S. foreign policy goals and ongoing 
development challenges in the region.
    As noted in the 9/11 Commission Report, the Muslim world has fallen 
behind the west politically and economically for the past three 
centuries. Governments find it challenging to meet the population's 
daily needs, including education. This has created an environment where 
young Muslims lack the tools and opportunities to effect change in 
intolerant political regimes. This has also created an environment 
where disaffected groups can be more easily turned against elements of 
western culture and institutions. Creating an environment of 
opportunity, tolerance, and greater openness to women and other 
marginalized groups must come from within Muslim societies themselves. 
The United States can help support the development of a more tolerant 
and open society by supporting quality education opportunities.
    In response to the weakness of many national education systems, 
alternative schools have emerged, such as madrassahs, a small 
proportion of which spawn extremism. USAID, regional experts, and 
researchers agree that providing access to quality education for 
children and out-of-school youth of vulnerable populations is one 
deterrent to radical or fundamentalist ideology which may lead to 
support for, or participation in, acts of terrorism. As stated in the 
National Strategy for Combating Terrorism, education programs diminish 
the underlying conditions that terrorists seek to exploit, particularly 
in rural, isolated areas. Access to a quality and relevant education 
provides children and youth with independent and critical thinking 
skills, leadership and life skills, and exposure to democratic values.
    Although the global commitment to ``Education for All'' have led to 
increased enrollments and general improvements in the quality of life, 
educational quality, and increased learning opportunities in the Near 
East and South Asia, many countries in the region continue to struggle 
to meet the population's education needs.

                      CURRENT EDUCATION CHALLENGES

    Current education challenges in the regions include a lack of 
access to functioning schools, a large number of out-of-school youth, 
high absenteeism and drop out rates, low transition rates from primary 
to secondary school, and high illiteracy rates.
    High illiteracy rates, especially for women, are a critical problem 
facing the region. Key countries such as Iraq, Yemen, Afghanistan, 
Pakistan, Egypt, and Morocco have 40-60-percent illiteracy rates and 
illiterate populations larger than 10 million. In the Arab States 
alone, women account for nearly two-thirds of the illiterate 
population.
    Another critical gender concern has to do with large numbers of 
disaffected youth, mainly boys, who may come to form the primary social 
base for radical Islamist movements. Without immediate alternatives, 
the current breakdown of conventional institutions of family, schools, 
and community (compounded by increasing urbanization and bleak 
employment prospects) will continue to foster youth alienation, a sense 
of fatalism and lack of dignity. Unemployed and disenfranchised youth 
form a restive pool of recruits for extremist groups.
    Compounding this problem is the curriculum, which is often outdated 
and irrelevant to socio-economic needs. Poorly qualified and trained 
teachers and school administrators are recurring problems. The lack of 
reliable systems to assess and monitor education imposes another 
obstacle to solving the problems. Finally, resources for education 
support fall short of the need.
    The Asia and Near East region has experienced a drastic demographic 
shift and now houses the largest generation of youth ever--368 million 
young people (age 15-24) in the 19 countries where USAID has a 
presence. The youth bulge puts enormous pressure on governments with 
limited capacity and resources to provide education and employment 
opportunities. The quality of education is low and too many students 
leave school without the skills and knowledge needed to find gainful 
employment.
    The following section presents USAID's strategy for helping the 
nations in the Near East and South Asia overcome their education 
challenges. Driving this strategy is the recognized need to help 
nations in the region open access to information, create learning 
environments that encourage critical thinking skills and democratic 
practices, and provide education that will lead to gainful employment. 
Target populations include girls, women, and disenfranchised youth.

                       USAID'S EDUCATION STRATEGY

    To prevail over these challenges, USAID's strategy for education 
programs is to provide learners the opportunity to gain the general 
skills and knowledge needed to function effectively in all aspects of 
life. This is done through programs that focus on:
    1. Increasing equitable access to education opportunities: 
Targeting groups that have been marginalized in the education system, 
such as out-of-school youth, girls, and disabled children, and those 
who have been impacted by conflict or disaster is of primary importance 
for ensuring equitable access to learning opportunities and the 
continuation of skills development. In post-conflict and post-disaster 
situations, transitioning children and youth into learning environments 
as soon as possible to normalize their lives is a priority.
    2. Improving the quality of education and providing more relevant 
education opportunities: Improving the quality and relevance of 
education is a pivotal goal in that it encourages children to attend 
and to stay in school. It also offers the additional benefits of 
workforce development. This is particularly important in countries that 
lack relevant education materials, qualified teachers, and 
accountability for student learning in the school system.
    3. Improving literacy and strengthening workforce skills: Education 
programs that improve literacy rates, develop curriculum, human 
capacities, and livelihood skills, and aim to link skill development 
with employment opportunities; particularly in areas with high youth 
unemployment are another priority for the region.
       increasing access to quality education: achieving results
    In order to respond to the multifaceted educational challenges 
confronting the region, USAID supports a variety of education programs 
which include both formal and nonformal education efforts. Support for 
improving the formal basic education system spanning preprimary to 
secondary school and which also encompasses literacy and training 
programs, are the primary focus of USAID's support. Increasingly, 
school-based efforts linked to employment, and higher education and 
university programs are also critical components of our overall 
approach to provide technical skills and expand cultural understanding 
in the region.
    To increase access to education opportunities, particularly for 
vulnerable populations, USAID supports scholarship programs, nonformal 
education activities, and school construction and rehabilitation. For 
example, in Pakistan, more than 2,873 literacy centers have opened and 
in a project cofunded by the Japanese, 130 schools are in the process 
of being rehabilitated to improve school access for children in 
Federally Administered Tribal Areas (FATA) and Frontier Regions (FR) 
which are remote and border Afghanistan. In Iraq we have rehabilitated 
over 2,400 schools. In Yemen we are working with the government on 
school construction and renovation, equipment and supplies for teachers 
and children, and teacher training in remote areas. These have been 
promising strategies for attracting out-of-school youth to classrooms.
    In key post-conflict programs, there is demonstrated success in 
school enrollments; for example, over 170,000 students (56 percent 
girls) are enrolled in accelerated learning classes in Afghanistan. 
These kinds of programs are highly visible and well-received as they 
flexibly address immediate needs, and provide a full primary school 
cycle in 3 years. They also target those who have been historically 
neglected by the primary school system. In Pakistan and Yemen, helping 
to provide improved schooling systems in the most isolated communities 
and involving community members in the rehabilitation and management of 
schools have been successful.
    In Afghanistan, 10,000 students, largely out-of-school children and 
youth, will be trained in sustainable literacy, numeracy, and life 
skills through the Afghan Literacy Initiative & Community Empowerment 
Program. The programs often combine literacy skills with relevant labor 
market needs.
    Teacher training is one key area for quality improvement. USAID 
education programs work with teachers to provide both in-service and 
preservice training that modernizes teaching methods so that they 
impart critical thinking and democratic values. Training often 
integrates content with introducing more active learning and child-
centered methods. Over 15,000 teachers in Pakistan have received this 
type of training, as well as 33,000 teachers in Iraq. We have also 
printed and distributed 27 million primary and secondary textbooks in 
Afghanistan, and 8.7 million revised math and science books in Iraq. 
Finally, radio-based teacher training in Afghanistan has been received 
positively by teachers in 17 provinces.
    Integral to the success of an education program is to make quality 
improvements and increase the relevance of the educational content to 
socio-economic realities. In Jordan USAID is enhancing the curriculum 
for a new Management and Information Stream track in secondary school 
to prepare youth for the workforce.
    Preparing learners at an early age for education is important. 
USAID support will enable innovative ``Sesame Street'' series in 
Bangladesh and Egypt to reach large audiences in quest of this goal. As 
many as 4 million preschool-age children will watch Sisimpur in 
Bangladesh, which premiered on April 15, Alam Simsim reaches 86 percent 
of rural Egyptian children and 45 percent of their mothers. Program 
themes include learning to be tolerant, practicing good hygiene, and 
getting a head start in school. Furthermore, early childhood 
development programs increase parent involvement in the child's 
education and school involvement. In Jordan, underprivileged families 
now have access to kindergartens, and in Pakistan 47,500 children and 
their parents have benefited from an early childhood project in the 
FATA district.
    Quality is also improved by strengthening involvement of the local 
communities in their schools (ex. training community school management 
committees) and making parents and students more responsible for their 
education (ex. developing school improvement plans). School management 
is improved at the local level, and experiences in various regions have 
influenced the way host country decisionmakers view solutions for the 
education issues. Such initiatives are underway in Bangladesh, 
Pakistan, Egypt, Morocco, and Yemen. Also, in Jordan, merging 
Information Technology and curriculum reform has been successful. This 
program has also brought private sector involvement into the area of 
curricula reform so that it better provides students with an education 
that links to market demands and needs.
    As mentioned earlier, the growing population of uneducated, 
unemployed youth is severely straining government efforts in all 
countries to provide adequate education and employment opportunities. 
USAID recognizes the importance of linking access to quality education 
to the 21st century workforce demands. In countries such as Pakistan, 
India, Jordan, Egypt, and Morocco, USAID is linking education to the 
real needs of the job market, by giving students the adaptable and 
portable skills needed to confront the changing workplace, especially 
information and communication technology (ICT) training. Jordan is 
developing e-Learning curriculum modules and upgrading teachers' skills 
in support of teaching and learning to improve the transition of 
gaduates from school to a work career.
    USAID fosters cultural understanding, openness, tolerance, and 
critical thinking with education exchange programs and scholarships. In 
Egypt, Jordan, and Lebanon, providing scholarship support to students 
from disadvantaged social and economic backgrounds to enroll in 
American education institutions have been successful. By the mid-1990s, 
more than 3,000 Jordanian students had won USAID scholarships to study 
at United States universities and the American University in Beirut. 
Many of them are leaders today. Five of Jordan's Cabinet Ministers in 
1987 and three Ministers in the 2002 Cabinet had studied under these 
scholarships.
    Furthermore, in-country post-secondary education programs support 
institutions to meet international standards and educate young people 
and academic professionals so that they can participate in the global 
economy. We support linkages between American universities and 
universities. These range from university linkage partnerships, such as 
the five United States-Iraqi higher education partnerships currently 
underway, to supporting the establishment of the American University of 
Afghanistan, a private, independent university.
    Finally, programs that model best practices in education on a small 
scale in order to demonstrate the positive effects of change has also 
proven successful. Pilot programs mobilize support from the public and 
from within the ranks of the local and national government officials 
who are charged with administering and delivering education services. 
Egypt's New School Program in Upper Egypt was a pilot that proved 
effective in increasing girls' enrollment. The lessons learned are 
being used to ``scale up'' models of quality primary education with an 
emphasis on girls and learner-centered teaching methodologies. The 
models will be applied nationally through the new USAID-supported 
Education Reform Program. These positive experiences tend to galvanize 
support for broader change and have the potential to impact the 
educational system beyond the local environments in which the projects 
operate.

                  MEASURING THE IMPACT OF OUR PROGRAMS

    Despite the growing security challenges, our education programs 
have brought about substantial and measurable results. USAID measures 
program impact and success in a variety of ways, commensurate with its 
diverse portfolio.
    One validation of our success happens when we see many of our 
``models'' adopted and brought to scale by host countries, relying on 
local, other donor, and private sector resources. Unfortunately, the 
capacity to do that across the region is constrained. Our recent 
education initiative has increased the U.S. commitment to education but 
much more needs to be done.
    At the project level, USAID measures the impact of providing 
education and training opportunities to out-of-school youth and 
vulnerable populations through student enrollment. Access and equity 
measurements include the number of students completing primary and 
secondary school, and increases in the percentage of girls and women 
enrolled in USAID-funded schools, literacy, and life skills classes. 
Using baseline data as the starting point, gender disaggregated 
enrollment numbers in USAID schools are tracked on a quarterly basis by 
the implementing partners on the ground. USAID has enrolled over 
170,000 students (56 percent girls) in our accelerated learning program 
in Afghanistan.
    Many of our programs are aimed at nonformal education programs 
aimed at improving literacy, especially for women, and training 
opportunities for out-of-school youth. USAID gauges enrollment 
increases and differentiates between students participating in programs 
as opposed to completing the required courses. In Pakistan, 69,214 
students are enrolled in USAID funded literacy courses and 17,850 have 
graduated from USAID's literacy centers. This process enables us to 
gauge not only enrollment increases and completion rates, but also 
dropout and repetition rates.
    Different measures are used to gauge nontraditional programs; 
success in measuring educational television programs is gauged by 
viewership: A 2003 study in Egypt concluded that Sesame Street (Alam 
Simsim) reaches 86 percent of rural Egyptian children under 8 years of 
age and 45 percent of their mothers. In Bangladesh, where Sisimpur 
aired on April 15, viewership will be regularly monitored and reported.
    In response to the poor quality of educational facilities and the 
need to provide quality alternatives to radical madrassahs, USAID 
tracks numbers of schools constructed and rehabilitated, and nature of 
the effort. This process differentiates between USAID's work in 
building stand-alone schools as opposed to rehabilitating a single 
classroom in any given school. In Egypt, for example, since 1975, USAID 
has tracked the construction of more than 2,000 new schools and 4,000 
classrooms; in Pakistan's Federally Administered Tribal Area (FATA), 
USAID will be tracking new school construction, the surveys and designs 
for 112 of which have been completed. In addition to infrastructure, 
USAID also provides students with textbooks and learning materials to 
increase retention and enrollment. USAID tracks both the production and 
dissemination of materials to ensure that numbers of textbooks 
delivered are commensurate with numbers printed; in Afghanistan we have 
thus far printed and distributed 27 million textbooks.
    USAID's teacher training and curriculum development programs are 
aimed at promoting tolerance, building democratic values, and fostering 
critical thinking in students and teachers. Measurements of educational 
quality include indicators of teacher quality, system efficiency, and 
learner achievements. Learner achievement can be measured by the number 
of basic education students who acquire critical thinking and problem-
solving skills by administering pre- and post-achievement tests. In 
Pakistan, teaching methodologies improved by 97 percent (based on 
classroom observation by experts), and student attendance is 10 percent 
higher, on average, in participating schools. Monitoring data suggest 
that teachers are using materials effectively 95 percent of the time.
    USAID tracks enrollment and successful completion of teachers in 
training classes in both in-service and pre-service programs. In 
innovative teacher training programs, such as the radio-based teacher 
training program for Afghanistan primary school teachers, teacher 
training is tracked by numbers of teachers enrolled in the class; 
currently 10,000 primary school teachers have enrolled for this radio-
based teacher training. USAID measures and tracks progress in this area 
through enrollment and completion numbers and qualitative assessments 
that include interviews, questionnaires, and classroom observation.
    In Morocco indicators such as percent of target beneficiaries 
employed post-intervention, percent of graduates with portable and 
adaptable skills, and replication of school-to-work modules in areas 
beyond the immediate target are used to monitor learning improvements.
    Finally, another indicator of impact is the adoption by Ministries 
of Education of USAID-supported efforts for countrywide expansion. This 
has happened in Jordan with early childhood education programs, and in 
Egypt, with modeling quality schools including using learner centered 
teaching.
    By supporting public participation in education through NGO 
development and community-elected trustee boards, USAID's education 
programs encourage democratic activities. To measure the impact of 
these programs, USAID tracks community satisfaction with the 
performance of USAID-supported community-based organizations and the 
number of decisions made and implemented at the community level.
    By improving the quality of education, and making it more 
accessible and relevant to the workforce, USAID's education 
interventions improve the employability of youth, lay an important 
foundation of support for economic growth and development of democratic 
institutions, and ensure a more equitable distribution of education.

                      ADJUSTING EDUCATION PROGRAMS

    USAID has adjusted its education strategies to create a healthier 
learning environment for children, youth, and adults in the Near East 
and South Asia on the basis of feedback from the most successful 
programs in the region.
    USAID recognizes that Information Technology (IT) is one way to 
change the way that students learn and teachers teach. There are now 
more efforts to link IT to schools and curriculum. Internet access is 
limited in the Arabic speaking world, resulting in a knowledge gap that 
negatively impacts both economic and political development, making Arab 
populations less competitive in the world economy. By providing future 
leaders and adults with increased access to the Internet, these 
students are exposed to many more ideas and increases cultural 
understanding. Teachers can use IT in the classroom to encourage 
critical thought and democratic values. Technology also helps to reach 
larger audiences, as in the radio-based training for teachers in 
Afghanistan and Sesame Street episodes in Egypt and Bangladesh.
    ANE has also learned that public-private partnerships are important 
to support education programs. USAID/ANE has committed $10 million to a 
regional Education and Employment Alliance which involves Egypt, 
Morocco, Pakistan, India, Indonesia, and Philippines to increase 
private sector participation in education. Activities mainly include 
working with local and multinational organization to provide resources 
to upgrade schools and provide technology inputs for schools. These 
activities aim to give children and youth a higher quality basic 
education and an education that leads to livelihood skills and gainful 
employment. As of January 2005, outreach activities continue with 
multinational companies, including Cisco, GE, Intel, Lucent, Microsoft, 
Nokia, Pearson, Unocal, and First Data Western Union.
    USAID has also been more directly working with host governments to 
make comprehensive reforms to education systems. Holistic changes have 
a broader impact in that they reach all levels from the students and 
parents, to administrators at the local and national levels. This 
systemic approach for improving education with Ministries of Education 
will lead to long-term improvements that can be sustained.
    Finally, USAID continues to refine programs to reach the most 
vulnerable populations. Those who have been marginalized from the 
education systems are primary targets for our programs. In the Near 
East and South Asia regions, illiterate adults, out-of-school youth, 
and marginalized children are the most vulnerable to the messages of 
terrorists. For this reason, USAID works closely with the State 
Department on the Broader Middle East and North Africa initiative.

                        COLLABORATING WITH MEPI

    Under the Middle East Partnership Initiative (MEPI), managed by the 
State Department, USAID administers a variety of activities across the 
MEPI pillar areas of economic reform, political reform, education 
reform, and women's empowerment. The MEPI education pillar supports 
education systems that enable all people, especially girls, to acquire 
the knowledge and skills necessary to compete in today's economy and 
improve the quality of their lives and that of their families. MEPI and 
USAID have similar education goals: Access, Quality, and Skills 
Development which makes coordination between USAID and MEPI programs 
both essential, and synergistic.
    USAID has collaborated with MEPI in a variety of projects to 
jointly fund programs to establish United States-Middle East university 
partnerships to strengthen programs in such areas as education, 
business/economics, journalism, and information and communications 
technology.
    In fiscal year 2003, USAID/Egypt completed the integration of the 
MEPI strategy into a new program design that was launched in 2004 to 
support the Egypt Government's education reform initiatives. USAID also 
began implementing its first MEPI book project by distributing 
supplementary reading materials to 3,000 classrooms in Alexandria.
    In Jordan, MEPI is funding e-Learning modules for the English as a 
Second Language and Civics for the Jordan Education Initiative and the 
USAID mission monitors and manages some or this entire program in 
country.
    In Morocco, MEPI's literacy initiatives complement current USAID 
efforts to improve the quality of schools. The literacy program 
consists of two parts: A 10-month basic literacy training program for 
2,000 women that also includes health and nutrition literacy; and a 6-
month ``post'' literacy training program for a selected number of 
participants (approximately 80), that teaches simple business skills as 
a basis for income generation activities. The program also includes 
assistance and coaching for the creation and initial management of 
small businesses.
    In Yemen, USAID works closely with MEPI and the Public Diplomacy 
Office of the United States Embassy to design and implement an Internet 
communication and collaborative learning network for 20 high schools 
through Yemen with each other and with schools in the United States.
    With the development of a new education strategy, the USAID 
education team ensured that its new strategy aligned with MEPI pillars. 
Additionally, the education team participates in strategy and planning 
meetings and provides technical comments and assistance for the review 
of MEPI education proposals.
    USAID is also working with the MEPI office to support key tenets of 
the G-8 partnership with countries of the Broader Middle East and North 
Africa (BMENA). Several initiatives have developed under this 
partnership, one of which is on improving literacy in the region. USAID 
is providing policy and programmatic direction for this BMENA literacy 
initiative and coordinating its efforts directly with MEPI and the U.S. 
Department of Education.
    In conclusion, I would like to reassure the committee that 
education will continue to be a high priority in the region. While our 
current education approach responds to the overall goal of moderating 
radical intolerance and anti-Western ideologies, we also recognize that 
education needs to be complemented by a multisectoral strategy that 
fosters socio-political stability and economic growth. To build upon 
our current successes and take our existing programs to scale, we have 
launched a public-private partnership initiative focusing on creating 
training opportunities for youth employment in the workforce. While we 
will continue to monitor developments to ensure that we are ahead of 
the curve in addressing emerging issues, we will not rest on the 
laurels of our successes--it is far too important to the well-being of 
our Nation.

    The Chairman. Well, thank you very much, Mr. Kunder.
    Let me make a comment, based upon an Aspen Institute 
breakfast that occurred a couple of years ago. An author and 
participant in U.S. Government a while back, Jessica Stern, had 
written a book about her experience interviewing some male 
students at madrasa schools. One of the comments that she made 
at the breakfast, and, likewise, that she portrays in her book, 
is a chilling revelation, but maybe has a great deal of truth. 
She was asking, Why do young men in Pakistan--these are the 
people that she was dealing with--contemplate suicidal conduct? 
What happens to somebody, who is very young, who, at least from 
our standpoint, has decades of life still to live?
    At least, from the interviews with these young men, some of 
them, she gained the impression that some come together, and 
it's almost a fraternal experience in the madrasa schools, in 
which they come to a conclusion there really is no hope for 
them in this life. They see no prospects, in terms of political 
expression, no prospects of jobs, no prospects, really, of much 
education, beyond whatever they happen to be involved in. And 
along come--not into every one of the madrasa schools, but into 
some--persons who suggest, ``The next life will surely be 
better. As a matter of fact, we have an answer for you in a new 
world. And, as a matter of fact, a very important action method 
of getting to this may very well be your own willingness to 
give your life, a suicidal mission in behalf of that faith that 
will sustain you and bring you something else.''
    Now, for many Americans, this may seem farfetched and 
extreme. We find it hard to contemplate. But, on the other 
hand, Ms. Stern was making the point that--not very many 
people, but if a percentage of persons even contemplate such 
conduct because of despair and total hopelessness, why they 
have a problem, but we also have a problem. And all of the 
educational attempts that we've been describing this morning 
are not addressed to a very minute percentage, perhaps, of 
young males in Pakistan who might contemplate suicidal conduct 
and try to work it out under the guidance of whoever. But, at 
the same time, Americans do need to come to, I think, an 
understanding of the vast amount of pessimism, despair, and 
difficulty among so many young people. As we've heard today--
whether it's the age of 25 or 21 or 18--well over half of the 
country may be in many of these bleak situations.
    Therefore, what we are involved in has a strong 
humanitarian quality. It should, and always has, as American 
educators, American Government has reached out. But one of the 
reasons why we have been reaching out more vigorously is the 
whole change in our foreign policy after 9/11. We thought the 
seas were big enough to protect us. And we found they were not. 
But young people who had valid visas--some of them, sadly 
enough, educational visas--were involved in 9/11 activities in 
this city and in New York. And the world changed.
    Now, I make this point because we have reacted. And the 
programs that you have outlined today are comprehensive in 
scope. But again and again in this committee, as well as 
elsewhere in the Congress, we will find some colleagues who 
will say, quite rightly, that we have a lot of work to do here 
at home. We're debating our educational budgets now. What 
should be the Federal component of that? Or what should be the 
governmental component at the State and local levels? How are 
Americans doing? And so forth.
    So, we come, and we point out what we must improve in this 
country. No Child Left Behind. You mentioned Secretary 
Spellings and her advocacy, which has been remarkable. The 
President's. And yet this is a struggle for us, as we 
disaggregate statistics in our own country of students who are 
African-American, students of Hispanic backgrounds, students of 
color in other backgrounds.
    I mention this because in this committee there's a 
compatibility, in talking about students abroad. There is, 
perhaps, a compatibility in some other committees as well. But 
the case, in part, is national security; in part, humanitarian. 
But then, in part, it comes back to something we were 
discussing earlier on with the first panel, and I would like 
your reflections on, too. And that is, regarding our exchange 
programs, or other opportunities available that require visas. 
In the past, many foreign students and researchers were 
admitted, for example, to Purdue University in my State, to 
engineering programs, and to NIH programs--we heard from those 
authorities on April 4 at our student/research visa task force 
roundtable--and these students enriched our society enormously.
    Now, many of these young people, students and researchers 
alike, at some point return to their home countries and they 
offer leadership within their own education systems, such as 
the Minister from Jordan whom we heard from today, as well as 
fully three-quarters of the Jordanian Cabinet. So, if the 
United States is not participating fully in these programs--
because of national security concerns--where are future leaders 
gaining the inspiration, if not with an experience here that 
they find to be a good one? And how will we ever succeed in 
public diplomacy without having public diplomats who are 
Jordanians, Pakistanis, and the like?
    These seem to me to be issues that are really gripping this 
committee. Let me share, anecdotally, as I attended the trustee 
meeting at Denison University--my alma mater--over the weekend, 
the admissions office claimed that last year at Denison, a 
small college of 2,100 students, that there were 90 applicants 
from India 2 years ago, but last year there were only 26. Now, 
it could be that, for some reason, Indians decided that Denison 
was not the place for them, all in 1 year. But the fact is, 
without going tediously through the statistics country by 
country, the discouragement level has been profound. Even 
though, on the aggregate side, we've heard, in our task force, 
that student enrollment worldwide is off only maybe 3 percent, 
as you add up everything; clearly, the dropoff is severe.
    Now, we have security problems. I mentioned the other side 
of the coin. Students had visas, and they came and bombed the 
United States. On the other hand, in trying to change that 
situation, we have, I think, radically changed the picture, so 
that even as we have the output of programs and moneys that you 
suggested today, the personnel in the countries, the indigenous 
leadership that may carry it forward, we may be faltering, 
unless we are thoughtful about this.
    How do we invigorate the exchange programs, or create more 
of them? How important are they? Have you both been working on 
these visa problems? You can't do it all by yourselves, but, 
clearly, within the administration, some changes are occurring 
in rulemaking and in provisions so that times of inspection or 
examination or various other processes are not being entirely 
removed, but they're being modified so that a more user-
friendly situation is being created. Can you describe, with any 
optimism, how this whole business might be going?
    Ms. Cheney, do you have some thoughts?
    Ms. Cheney. Thank you, Mr. Chairman. I share, completely, 
your view, and the administration shares your view, that 
exchanges are critically important and that, whether you look 
at the military-to-military exchanges we've historically 
undertaken, or the exchanges through our colleges and 
universities, and down to the high school level, it clearly 
helps to build friendships, and those are very important as we, 
you know, pursue our foreign-policy objectives.
    I think that the situation has improved. I think that in 
the immediate aftermath of September 11, for, as you noted, 
completely understandable reasons, we, you know, were faced 
with the need to clamp down and to review our system and to 
ensure that we had a better system in place so that the people 
that wished us ill were not able to get into the country. In 
the process of doing that, there were, you know, numerous 
examples of students who had gone home for the summer, weren't 
able to return, people who were caught in that.
    I think that, as I have traveled the region and talked to 
people, there is still concern about it. I do think that it's 
improving. And I do think people understand that our intent is 
never to cause offense, it's never to prevent students from 
studying in the United States--we recognize how important that 
is--but we have to maintain, obviously, our own national 
security concerns.
    One of the things that Maura Harty, who handles consular 
affairs for us at the Department, has been very effective in 
doing is traveling across the region, and she's very interested 
and willing to go into these countries and have large meetings 
with groups of nongovernmental organizations, the governments, 
to talk about what the new processes are. And I would be happy 
to come back to you with more details on, sort of, 
specifically, the improvements we've made. But I do think it's 
very important that we have exchanges.
    One of the issues we deal with on exchanges is, sort of, 
What is the balance? Given that there are limited resources, as 
there are for everything, determining whether it makes sense to 
put those resources into providing scholarships for 4 years or 
for post-graduate study for a small number of people, or 
looking to do more scholarships for a shorter period of time 
for a larger number of people. And I don't think we have, sort 
of, scientifically determined what the right balance is. I 
think we're trying to do both.
    I think that one of the reasons it's so important for us to 
reach out with--sort of, to larger numbers of people with 
shorter time periods spent in the United States goes back to 
this issue that you began with, in terms of, How do you get to 
those people that are the most likely recruits for the 
terrorists? And in many cases they're people who perhaps don't 
have English, who have not completed secondary school, or 
clearly, are not in university, and I think those that are the 
people that need exposure to the United States. And it's why 
we've started a range of new programs we're calling 
microscholarships, which provide English language training and 
then enable them--give them the skills to compete for other 
programs we're funding so they can be student leaders, be 
student interns to come to the United States, but so that we 
reach out to a broader range of people.
    The Chairman. That's true. How many people might be 
involved in those programs, the microscholarships?
    Ms. Cheney. We'll have to get you the numbers.
    The Chairman. If you would, that would--that's----
    Ms. Cheney. I think it's very important.
    The Chairman [continuing]. I think, an insight that we 
haven't heard about before, and I----
    Ms. Cheney. Well----
    The Chairman [continuing]. Think that's very important.
    Ms. Cheney. We are also expanding it significantly. It's a 
program--it started just last year as a pilot program----
    The Chairman. I see.
    Ms. Cheney [continuing]. In a couple of the Near East 
countries, and it's been very successful and very effective way 
for us to reach people we wouldn't, otherwise. So we're going 
to be putting more money into that from the Partnership 
Initiative this year, and we'd be happy to come back up with 
the specific numbers we've reached already.
    The Chairman. Great.
    Ms. Cheney. One final point I think is, when you talk about 
the issue of the attraction of terrorists and the attraction of 
extremists for young people, in a number of countries in the 
region you have a phenomenon where political activity has been 
banned on campuses, but religious groups can operate on 
campuses. And it's something that I think we all need to work 
to, to open up that system. You know, now, in a number of 
countries, if you're 18 years old, and you're a university 
student, and you feel, like most university students do, that 
you want to change the world, your outlet for doing that is the 
Islamist groups, and that's clearly not a healthy situation for 
those countries or for us. And so, it's why there is such an 
important synergy between our political reform efforts and our 
education efforts, so that we can help expand the groups that 
those people can have access to and can give a voice to.
    The Chairman. This may not be a useful analogy, because, 
obviously, Germany is a wealthy country, but in 1983 when the 
United States was attempting to diplomatically work with the 
Germans to support the NATO resolution to put Pershing missiles 
in Germany, I was one of those that was sent to Germany to do 
some missionary work of that sort with German institutions. The 
late Senator John Heinz, was very, very helpful when I got 
back, in introducing legislation that created the Congress-
Bundestag Exchange Program, which commenced in 1983 as a part 
of that diplomacy, but it continues, with well over 10,000 
students--they long ago passed that mark, and are now heading 
toward 20,000--from both sides, about 500 a year, from the 
grassroots of Germany and the United States go to the 
grassroots of the other country for 1 year. It's a high school 
program, as opposed to post-graduates or something of this 
variety. Even after you have 20,000 Germans and Americans over 
the course of time, this is a small percentage of either 
country, but, nevertheless, just getting to your point, the 
microbusiness, here are people who suddenly, on both sides, 
have to begin thinking about another language, about living 
with families, about the hinterland, not the capitals. Perhaps 
other countries could not match this level of exchange that we 
now have with Germany. Just take Jordan, which we've been 
talking about today. Jordanians might say, ``Well, we'd be 
hard-pressed to support American exchange students in Jordan, 
in the same way you might support Jordanians in the United 
States.''
    I don't want to make too much of a stretch of this, but I'm 
wondering whether that model, the Congress-Bundestag Exchange 
Program, offers some possibilities so that this is perceived, 
literally, as one from each of the congressional districts. And 
that was one of the ideas of Congress-Bundestag. We have 435 
districts and 100 Senators, so, ipso facto, about 500-and-some 
Americans ought to be eligible to go to Germany, and they have 
districts and so forth.
    I'm intrigued by what you're saying. I wonder whether 
somebody is stimulated to ask that question or to ask you to 
study what might be in the cards, so that we will have 
individual programs tailored to each country and there would be 
individual responses from countries. Perhaps we have become 
equally excited about their initiatives, as with Millennium 
Challenge. We're offering incentives. I have found, I'm sure, 
as you have, in my travels, that countries want to get on the 
list, they want to be a part of the 16 countries chosen to 
participate in the Millennium Challenge program, or, at least, 
on the waiting list. That may be totally improbable, because 
they sort of understand that this is a remarkable way of 
sharing, without giving up sovereignty, of using indigenous 
resources and leadership, and still meeting what we think are 
important standards--freedom of the press, enterprise, women's 
rights, things of these sorts.
    Ms. Cheney. Mr. Chairman, I think that's exactly right. And 
I think that it's very important--we have focused on having 
students from these countries come to the United States, but I 
think that, too often, it's true that we, in the United States, 
view all of these countries--we call it ``the region,'' or 
``the regions,'' and we talk about it as though it's a unified 
whole, when, in fact, each country is very different.
    The Chairman. Yes.
    Ms. Cheney. And I think that having American students visit 
these countries and study in these countries really helps to 
improve our knowledge base about what's happening in each 
country.
    When I was in Morocco, last week, there was a group of 
American high school students there meeting with a group of 
Moroccan high school students, you know, doing, basically, a 
model United Nations, talking about ways that we can move 
forward on reform and on the peace process. And, on both sides, 
when you get to meet somebody face to face, it really does help 
to destroy the stereotypes that exist. So, I think it's----
    The Chairman. Terrific.
    Ms. Cheney [continuing]. Very important.
    The Chairman. Mr. Kunder, with USAID and the budget and the 
organization that you have, are you able to identify to Members 
of the Congress the mission that USAID is performing? I do not 
necessarily seek to break it out from everything else that you 
are doing, but, at the same time, there is certainly a 
constituency of interest in what we're talking about today. 
Your charts are helpful in giving the objectives, but do you 
also have statistics, data, that you would give to Members who 
wanted to inform themselves more comprehensively about what 
you're doing? Without violating administration tenets, could 
you give some hint as to, if we were to invest more money, 
where would it be wise to look? What kind of things should we 
be discussing in this committee as we try to gain a 
constituency of consent with our Members in the body, as a 
whole?
    Mr. Kunder. As you might well imagine, sir, we probably 
have more data than you can possibly want, but I think what 
might be useful is, we do have a country-by-country breakdown 
of the types of initiatives we're doing in each country in the 
education and training field. We'd be glad to provide that to 
the committee. And then if there are some issues of interest we 
could focus in on and provide more in-depth information. So the 
information is definitely available.
    I just want to thank you for saying what you said about the 
United States humanitarian interest in the region, because, 
naturally, we've focused in on the issue at hand today, which 
is combating terrorism, but I think the American people do 
honestly care that men and women, and boys and girls, succeed 
across the Asia and Near East Region. That's what makes us the 
kind of country that does invite people to come here and learn 
something about our values, and I think that's the kind of 
message we want to send, as well.
    But we have the information available. We'll make that 
available initially, a breakout of our country programs, and 
then if you want to focus on more detail, we'll be glad to 
provide it.
    [The information referred to follows:]

                    Education Initiatives by Country

    Education initiatives are designed to meet the needs of the people 
and overcome the various challenges within each country context. Below 
is a chart that describes the complexity of improving education in the 
ANE region in three specific areas of access, quality, and relevance.

                  COMPLEXITY OF THE EDUCATION CHALLENGE
------------------------------------------------------------------------
             Access                     Quality            Relevance
------------------------------------------------------------------------
<bullet> Large numbers of out-of- <bullet> Poorly     <bullet> Outdated
 school children and youth.        trained teachers    and inappropriate
<bullet> Insufficient access to    and                 curricula for the
 quality schooling alternatives.   administrators.     job market.
<bullet> Low literacy rates,      <bullet> Lack of    <bullet> Large
 especially for women.             systems to assess   numbers of
<bullet> Lack of early childhood   and monitor         underemployed
 education opportunities.          education.          youth without
                                  <bullet> Inadequat   skills needed for
                                   e community and     workforce.
                                   parental           <bullet> Inadequat
                                   involvement in      e links and
                                   schools.            training
                                  <bullet> Pedagogy    opportunities for
                                   focuses on role     global market.
                                   memorization,      <bullet> Inadequat
                                   leading to lack     e links with
                                   of critical         private sector
                                   thinking skills.    for market-driven
                                                       training.
------------------------------------------------------------------------

    Within this challenging context, education initiatives have had 
many successes. Below is an illustrative overview of some of the ways 
USAID has had regional impact in moderating terrorism through 
education. Below are the results to some key education indicators 
organized in the same three-prong typology as above.

                     Illustrative Regional Overview
------------------------------------------------------------------------
             Access                     Quality            Relevance
------------------------------------------------------------------------
<bullet> Built or rehabilitated   <bullet> 120,000    <bullet> 110,000
 15,000 schools in 10 countries.   pre-school,         students with
<bullet> Currently, there are      primary, and        access to
 720,000 students in Accelerated   secondary school    technology in
 Learning programs in              teachers trained    classrooms and/or
 Afghanistan and Iraq.             in 8 countries.     schools in 7
<bullet> 165,000 women, girls,    <bullet> Approxima   countries.
 and boys now literate in          tely 50 million    <bullet> 70
 Afghanistan, Egypt, Morocco,      textbooks printed   centers supported
 and Pakistan.                     in Afghanistan      to bridge links
<bullet> 4,000 literacy and/or     and Iraq.           between school
 community centers opened in      <bullet> 50,000      and work in 5
 Afghanistan, Egypt, Morocco,      back to school      countries.
 and Pakistan.                     kits distributed   <bullet> Life
<bullet> Sesame Street reaches     to teachers in      skills training
 over 8.5 million children (not    Afghanistan and     provided for
 including parents) in Egypt and   Iraq.               100,000
 Bangladesh.                      <bullet> In 7        participants in 9
<bullet> Support for early         countries,          countries.
 childhood education reaching      Education          <bullet> 250
 approximately 120,000 students    Management          public-private
 in Bangladesh, Jordan, and        Information         partnerships
 Pakistan.                         Systems (EMIS)      established to
<bullet> 5,500 students from 10    support and         support various
 ANE countries were provided       development used    education
 scholarships for long-term        to better monitor   activities in 7
 study in the United States and    education-related   countries.
 other countries.                  progress.
                                  <bullet> 1,100
                                   ``Model Schools''
                                   to exemplify the
                                   importance of
                                   girls' access to
                                   education,
                                   technology
                                   improvements in
                                   schools, relevant
                                   curricula, and
                                   active teaching
                                   methods in 6
                                   countries.
                                  <bullet> 40,000
                                   professionals
                                   provided support
                                   for short-term
                                   training
                                   opportunities
                                   from 8 ANE
                                   countries.
                                  <bullet> 25 higher
                                   education
                                   partnerships
                                   (American Liaison
                                   Office)
                                   established in 7
                                   ANE countries.
------------------------------------------------------------------------

    In addition, there are three regional education initiatives that 
USAID undertakes:

  <bullet> A Regional Education and Employment Alliance was launched 
        last year to increase private sector participation in 
        education. This Alliance provides innovative solutions to 
        improve education and enhance opportunities for gainful 
        employment. USAID has committed $10 million over 2 years to the 
        program. Its initial phase will focus on six priority 
        countries: Egypt, India, Indonesia, Morocco, Pakistan, and the 
        Philippines.
  <bullet> Jobs for the 21st century aims at matching education and 
        training with labor market needs through a variety of 
        approaches that combine job-relevant education, trade 
        initiatives, and private sector engagement.
  <bullet> The Arabic Book Translation Project begun this year, 
        assesses the feasibility of a regional, demand-driven program 
        to make modern, affordable textbooks available in Arabic and 
        English for the Middle East by creating partnerships among U.S. 
        and Middle Eastern publishers and universities and building a 
        more coherent regional market.

    The following chart is a closer look at the country-by-country 
breakdown of education programs in the Asia and Near East Region. The 
table displays the total amount of funds provided for education 
initiatives from fiscal year 2002 through fiscal year 2006 with some 
illustrative highlights of accomplishments in the field.

                 ILLUSTRATIVE COUNTRY-BY-COUNTRY RESULTS
                 [Budget, fiscal years 2002-2006 ($000)]
------------------------------------------------------------------------
             Access                     Quality            Relevance
------------------------------------------------------------------------
                          AFGHANISTAN--$317,242
------------------------------------------------------------------------
<bullet> Trained 6,800 teachers   <bullet> Launched   <bullet> Begun the
 and enrolled 170,138 students,    Radio Teacher       establishment of
 of which 58% are girls, in the    Training in 2003    an International
 Accelerated Learning (AL)         in three pilot      School in Kabul
 program which has expanded to     provinces, and      to provide modern
 cover all 17 provinces.           expanded it to      American-style
<bullet> Establishing the          all 17 provinces    curriculum to
 American University of            in 2004. This       expatriate and
 Afghanistan, a private American-  program currently   Afghan children.
 style university in Kabul.        reaches 65,000     <bullet> Funding a
<bullet> Rehabilitating the        teachers by radio   U.S university
 Kabul Women's Dormitory to        and 7,479           consortium in
 accommodate 1,100 women from      additional          2005 which will
 mainly rural areas who will       teachers through    support Balkh
 attend university in Kabul. The   face-to-face        University
 first students arrived for the    training.           Faculty of
 new academic year in March 2005. <bullet> Funded      Agriculture
<bullet> Built or refurbished      three technical     (BUFA) in Mazar-e
 315 schools, primarily in         advisors to the     Sharif, in their
 remote areas, since 2002. An      Ministry of         efforts to
 additional 184 schools are        Education to        modernize
 under construction.               improve overall     curriculum,
                                   quality and         teaching
                                   strengthen          technologies and
                                   ministry capacity.  techniques.
                                  <bullet> Funding    <bullet> Training
                                   three technical     8,000 students
                                   advisors to the     around the
                                   Ministry of         country in
                                   Higher Education    functional
                                   to strengthen and   literacy,
                                   develop higher      economic self-
                                   education policy    reliance
                                   and strategic       grassroots
                                   planning.           democracy and
                                                       women's rights
                                                       through the
                                                       Literacy and
                                                       Community
                                                       Empowerment
                                                       Program.
                                                      <bullet> Teaching
                                                       5,500 women to
                                                       read and write,
                                                       qualifying them
                                                       for further
                                                       training as
                                                       community health
                                                       workers or
                                                       midwives.
                                                      <bullet> Establish
                                                       ed the Women's
                                                       Teacher Training
                                                       Institute in
                                                       Kabul in 2004 as
                                                       a central
                                                       resource for
                                                       government and
                                                       agencies to
                                                       access training,
                                                       materials, and
                                                       modern
                                                       pedagogical
                                                       approaches that
                                                       support practical
                                                       and sustainable
                                                       literacy,
                                                       numeracy, and
                                                       life skills.
------------------------------------------------------------------------
                           BANGLADESH--$14,321
------------------------------------------------------------------------
<bullet> Sisimpur (Sesame         <bullet> Training
 Street) debuted on April 15,      1,800 pre-school
 2005; potential audience of 8     teachers in new
 million children.                 interactive
                                   teaching
                                   methodologies.
<bullet> Establishing 1,800 pre-
 schools across the country,
 parent and child-to-child
 learning and reading group.
------------------------------------------------------------------------
                              BURMA--$8,000
------------------------------------------------------------------------
<bullet> Education opportunities  <bullet> Science    <bullet> Close to
 provided to over 2,500 student    instructional       200 students were
 and adult learners.               materials           trained in adult
<bullet> 50 special education      supplied to the     literacy classes,
 students now attending classes.   schools for 6,000   which were taught
                                   middle school       in 7 different
                                   students to         languages.
                                   access.
------------------------------------------------------------------------
                            CAMBODIA--$11,750
------------------------------------------------------------------------
                                  <bullet> Activitie  <bullet> Curriculu
                                   s starting in all   m and standards
                                   22 provinces, in    being developed
                                   all 18 provincial   (including life
                                   teacher training    skills) and
                                   colleges and in 6   teacher training.
                                   regional training
                                   colleges.
------------------------------------------------------------------------
                             EGYPT--$254,700
------------------------------------------------------------------------
<bullet> Since 1975, USAID has    <bullet> Training   <bullet> More than
 constructed more than 2,000 new   and technical       45,000 girls and
 schools and 4,000 classrooms.     support was         young women have
<bullet> 170 multigrade classes    provided to 4,000   received
 were established with community   educators.          scholarships and
 contributions and support                             literacy, life-
 resulting in the enrollment of                        skills, and
 over 30,000 new students (80%                         health
 girls) previously out of school.                      information and
                                                       training.
<bullet> 3.5 million children
 view Alam Simsim (Sesame
 Street), often with their
 mothers.
------------------------------------------------------------------------
                             INDIA--$29,858
------------------------------------------------------------------------
<bullet> 250,000 children         <bullet> Over 2     <bullet> 690,000
 mainstreamed and/or retained in   million primary     children will
 schools through transitional      school children     benefit from the
 bridge programs, back-to-school   are receiving       program; health
 camps and improved quality of     radio instruction   and hygiene
 education.                        from this school    concepts issues
                                   year (2005-2006).   incorporated in
                                                       the curriculum
                                                       and teachers,
                                                       Village Education
                                                       Committees and
                                                       Children's
                                                       Cabinets trained
                                                       in these
                                                       concepts.
                                                      <bullet> Through
                                                       public-private
                                                       partnerships, the
                                                       effective use of
                                                       Education
                                                       Technology to
                                                       enhance quality
                                                       and relevance of
                                                       education and
                                                       skills training
                                                       will be promoted.
------------------------------------------------------------------------
                           INDONESIA--$85,511
------------------------------------------------------------------------
                                  <bullet> $157       <bullet> USAID and
                                   million DBE         Chevron signed a
                                   initiative          $10 million
                                   launched in April   public-private
                                   2005 to work in     alliance
                                   100 districts       supporting
                                   with 4,500          vocational
                                   schools, 4          education for men
                                   million students,   and women in
                                   and 55,000          Aceh.
                                   teachers.
                                  <bullet> Improved
                                   local government
                                   and community
                                   management of
                                   schools in 20
                                   districts in East
                                   and Central Java
                                   through MBE pilot
                                   program.
                                  <bullet> Working
                                   with 2,600
                                   teachers, and
                                   70,000 students
                                   in 200 schools
                                   (20% are
                                   religious-based).
                                  <bullet> 900 other
                                   schools have
                                   adopted USAID
                                   models developed
                                   under MBE, using
                                   their own
                                   resources.
------------------------------------------------------------------------
                             IRAQ--$165,783
------------------------------------------------------------------------
<bullet> 2,529 schools            <bullet> Printed
 rehabilitated.                    and distributed
<bullet> 84 model schools          35.7 million
 established.                      textbooks for
<bullet> 10,000 out-of-school      grades 1-12 in
 youth enrolled in an              both Dari and
 Accelerated Learning program.     Pashto since
<bullet> Early childhood           2002. An
 learning television series        additional 6.2
 developed and broadcast.          million have been
<bullet> 10 students given         printed and are
 scholarships to study for         ready for
 Masters degrees and Ph.D.s in     distribution.
 U.S. universities.               <bullet> 130,000
                                   primary and
                                   secondary school
                                   teachers and
                                   administrators
                                   trained.
                                  <bullet> More than
                                   8.7 million math
                                   and science
                                   textbooks edited,
                                   printed, and
                                   distributed.
                                  <bullet> Education
                                   Management
                                   Information
                                   System (EMIS)
                                   developed for
                                   Ministry of
                                   Education.
                                  <bullet> Hundreds
                                   of thousands of
                                   desks, chairs,
                                   chalkboards,
                                   teacher supplies
                                   distributed.
                                  <bullet> 2.9
                                   million school
                                   bags and supplies
                                   distributed.
                                  <bullet> 5 U.S.
                                   university
                                   consortia
                                   developed
                                   partnerships with
                                   10 Iraqi higher
                                   education
                                   institutions.
                                  <bullet> 43
                                   computer labs and
                                   spcialist science
                                   (e.g., cell
                                   biology, soil
                                   science, GIS/
                                   remote sensing)
                                   labs renovated
                                   and provided with
                                   state-of-the-art
                                   equipment.
                                  <bullet> More than
                                   1,500 faculty
                                   have attended
                                   refresher
                                   courses,
                                   seminars,
                                   workshops, and
                                   conferences in
                                   Iraq, the region,
                                   and the United
                                   States.
                                  <bullet> 23
                                   specialist
                                   libraries (e.g.,
                                   law, agriculture,
                                   public and
                                   environmental
                                   health,
                                   archaeology)
                                   refurbished and
                                   provided with
                                   more than 20,000
                                   books and given
                                   access to online
                                   resources.
------------------------------------------------------------------------
                             JORDAN--$31,640
------------------------------------------------------------------------
                                  <bullet> 40         <bullet> School-to-
                                   supervisors and     Careers Programs
                                   all 258 teachers    are being piloted
                                   were trained on     in 12 public
                                   the first           schools.
                                   national           <bullet> 5 Cisco
                                   curriculum for      Networking
                                   kindergarten.       Academies have
                                  <bullet> 400         been established.
                                   teachers and 42    <bullet> Basic
                                   supervisors were    life skills have
                                   trained on IT       been promoted in
                                   content knowledge   100 schools.
                                   and pedagogy.
------------------------------------------------------------------------
                            LEBANON--$19,300
------------------------------------------------------------------------
<bullet> Support more than 1,000  <bullet> Higher
 students coming from              education support
 financially disadvantaged         to 4 colleges and
 backgrounds with scholarships.    universities.
------------------------------------------------------------------------
                            MOROCCO--$31,996
------------------------------------------------------------------------
<bullet> 100 young Moroccan                           <bullet> Literacy
 women from various parts of the                       and numeracy
 country are enrolled in CISCO                         classes provided
 CCNA training, thanks to the                          to some 4,000
 WIT scholarship program.                              women.
                                                      <bullet> Over 180
                                                       poor rural girls
                                                       are in the
                                                       program today,
                                                       enjoying safe and
                                                       conducive
                                                       environment for
                                                       life-long
                                                       learning.
                                                      <bullet> A public-
                                                       private
                                                       partnership
                                                       provides job
                                                       readiness
                                                       training (with a
                                                       focus on women)
                                                       to 12 Moroccan
                                                       institutions.
                                                      <bullet> 700
                                                       students (40%
                                                       women) are
                                                       attending Cisco
                                                       Certificate
                                                       programs combined
                                                       with job-
                                                       preparedness
                                                       training.
------------------------------------------------------------------------
                              NEPAL--$1,595
------------------------------------------------------------------------
                                  <bullet> More than  Approximately,
                                   7,500 children in   8,000 women
                                   14 districts        gained knowledge
                                   received NFE and    and leadership
                                   psychosocial        skills,
                                   counseling.         increasing their
                                                       participation in
                                                       key leadership
                                                       positions by 23%.
                                                      <bullet> More than
                                                       1,300 families
                                                       received
                                                       vocational
                                                       education for
                                                       income
                                                       generation.
------------------------------------------------------------------------
                           PAKISTAN--$197,876
------------------------------------------------------------------------
<bullet> 2,873 adult literacy     <bullet> 7,004      <bullet> 63 local
 centers were opened, graduating   school management   NGOs were awarded
 17,850 out-of-school youth and    committees are      small grants to
 adults.                           developing school   conduct literacy
                                   improvement plans.  classes, train
                                  <bullet> 765         teachers, and
                                   teachers provided   organize parent-
                                   early childhood     teacher
                                   education           association.
                                   training           <bullet> 24 public-
                                   benefiting 25,500   private
                                   students.           partnerships
                                  <bullet> 109         established
                                   master teachers     between corporate
                                   and school          Pakistan and the
                                   administrators      education sector
                                   trained in the      in support of
                                   United States.      school
                                                       improvement.
                                  <bullet> 234
                                   schools were
                                   rahabilitated,
                                   and enrollment
                                   for 5- to 9-year-
                                   olds increased
                                   from 25-50%.
                                  <bullet> Education
                                   Management
                                   Information
                                   System (EMIS)
                                   developed for
                                   Ministry of
                                   Education.
------------------------------------------------------------------------
                          PHILIPPINES--$22,360
------------------------------------------------------------------------
<bullet> 58,842 children from     <bullet> 1,500      <bullet> 6 private-
 grades 1-3 now have access to     elementary and      public alliances
 better learning systems in math   high school         established,
 and reading.                      teachers trained    matching USAID
                                   to improve          resources at more
                                   teaching of         than a 1:1
                                   English and ICT.    ration.
<bullet> Social mobilization and  <bullet> 13 model
 advocacy led to new enrollments   schools for
 of 3,000 at the elementary        increasing
 level.                            teacher, parent,
                                   and community
                                   involvement in
                                   activities.
<bullet> Alternate Learning       <bullet> 14
 System provided for 10,500        private madaris
 children and out-of-school        adopted
 youth.                            Department of
<bullet> 100 community learning    Education
 centers constructed or improved   curriculum.
 in school-less barangays.        <bullet> 120
                                   schools equipped
                                   to use
                                   Educational TV.
                                  <bullet> Over 1
                                   million new
                                   textbooks and
                                   learning
                                   materials donated.
------------------------------------------------------------------------
                            SRI LANKA--$9,625
------------------------------------------------------------------------
                                  <bullet> Emglish    <bullet> Skill
                                   language amd IT     development for
                                   training.           unemployed youth.
                                                      <bullet> Vocationa
                                                       l school
                                                       development in
                                                       tsunami area for
                                                       construction and
                                                       tourism skill
                                                       development.
------------------------------------------------------------------------
                       WEST BANK AND GAZA--$24,700
------------------------------------------------------------------------
<bullet> 1,500 scholarships to    <bullet> Conducted  <bullet> Provided
 vocational and technical          8-month needs       state-of-the-art
 students.                         assessment survey   skills training
<bullet> 476 talented and          of higher           for 5,000
 financially challenged            education.          students at 20
 undergraduate students (199      <bullet> Improved    community
 male and 277 female) received     efficiency of       colleges.
 scholarships.                     Ministry of
<bullet> Awarded 160               Higher Education
 scholarships for master's         by providing
 degrees in U.S. universities.     staff training in
<bullet> Modernized computer       Project Cycle
 labs at 20 community colleges     Management,
 to improve internet access.       Communication
                                   Skills, Human
                                   Resources, and
                                   Strategic
                                   Planning.
                                  <bullet> Funded
                                   Higher Education
                                   Management
                                   Information
                                   System assessment.
                                  <bullet> Provision
                                   of access to and
                                   training for
                                   electronic
                                   journals for all
                                   universities in
                                   West Bank/Gaza;
                                   provision of 5
                                   computers for
                                   each university.
------------------------------------------------------------------------
                             YEMEN--$33,667
------------------------------------------------------------------------
                                  <bullet> Identifie
                                   d 77 schools for
                                   renovation.
                                  <bullet> Training
                                   of trainers
                                   conducted.
                                  <bullet> Teacher
                                   and student kits
                                   for the more than
                                   540 students and
                                   37 teachers in
                                   grades 1-9
                                   developed for
                                   dissemination.
------------------------------------------------------------------------
          ANE REGIONAL EDUCATION & EMPLOYMENT ALLIANCE--$17,175
------------------------------------------------------------------------
                                                      <bullet> Discussio
                                                       ns have begun
                                                       with six priority
                                                       countries: Egypt,
                                                       India, Indonesia,
                                                       Morocco,
                                                       Pakistan, and
                                                       Philippines.
                                                      <bullet> Several
                                                       corporations have
                                                       been identified
                                                       as participants
                                                       including Shell,
                                                       Nike, Nokia, and
                                                       Microsoft.
------------------------------------------------------------------------


    The Chairman. Let me just ask a specific question. And this 
may be a university with whom you've not had contact. But I've 
been intrigued in the progress at Forman University, in 
Pakistan, in large part because the president of the university 
is now an American, Dr. Peter Armacost, who was president of 
Eckerd College, in Florida, prior to this calling. He is a very 
close friend of mine, and this is why I've admired his going to 
Pakistan. That university was attended by President Musharraf, 
so there's a certain high-profile quality when the President of 
a country has an interest in it. But the mission there is to 
try to have a student body of several thousand students who are 
Christian, Muslim, and of various other religions, under the 
same tent and with a curriculum and faculty that are devoted to 
this interdenominational or multifaith situation.
    Now, to say the least, creating more university 
opportunities of a more liberal arts character in Pakistan is a 
challenge. Doing so with Christians, Muslims, and others, 
comingling and so forth, is even more so. But it strikes me 
that this is an important innovation, even if a small one, in a 
country of 150 million people, as we heard earlier today. 
Because it does have the knowledge of the President of the 
country, and the support, I would direct the attention of some 
of your associates in that area, not specifically in behalf of 
Forman, but to find if there are other innovations of this 
sort, because it does bring a coming together. In this 
particular case, the denomination within the United States that 
is supporting Dr. Armacost is the Presbyterian Church ministry, 
which has a good amount of contributions worldwide. But all of 
this is not going to occur only through the U.S. Government, as 
we've heard earlier--but also through NGOs, religious groups, 
and other actors aiding the humanitarian situation. In this 
particular case, the Presbyterians, as I understand it, are not 
there in an evangelical capacity, specifically; they really are 
attempting to open up a degree of religious diversity and 
tolerance in the area.
    All of this coexists together. I'm wondering how USAID 
manages resources, U.S. Government responsibilities, but, at 
the same time, keeps track of the NGOs, and religious 
institutions, such as the Presbyterians, in this case, as well 
as others. For that matter, how does USAID work with Ms. Cheney 
and the State Department people? Are you on the same page? So 
you have regular meetings? In other words, how much 
coordination is there of this block activity? When I asked the 
Pakistani gentleman, earlier on, What part of the 4 percent, 
say, if that's the goal, of GNP?--and he said about 1 percent 
might come from outside gifts--ours, from other countries, 
NGOs, and so forth. I'm curious about the coordination of that 
one, quite apart from its coordination with the other 3 percent 
of the Pakistanis. Do you have any comment about this 
convoluted question that I've asked?
    Mr. Kunder. I do. First of all, on the question of the 
college in Pakistan, higher education is an area that I think 
we didn't----
    The Chairman. Yes.
    Mr. Kunder [continuing]. Touch on in great detail. But, of 
course, we do have a number of U.S. Government-supported 
institutions across the region. American University of Beirut, 
American University----
    The Chairman. Yes----
    Mr. Kunder [continuing]. Of Cairo, and----
    The Chairman [continuing]. Of course.
    Mr. Kunder [continuing]. So forth.
    The Chairman. Right. Well known.
    Mr. Kunder. And so, we do recognize these types of 
institutions as important components.
    I think, back to Deputy Assistant Secretary Cheney's 
comments about the cost-effectiveness issue, we can't bring 
everybody here for a 6-year graduate program, so to some extent 
we've got to look at short-term training, we've got to look at 
institutions in the region. So we do try to take a look at the 
full range of tools in the toolkit, if you will.
    The question of coordination of resources, trying to get 
the maximum impact for the taxpayer dollars, is something we 
try to pay attention to. I can't say we do it perfectly, 
because the subject matter is so vast, but we do try to pay 
attention to what the governments themselves are investing in, 
what the international financial institutions are investing in, 
the other bilateral donors are involved in, and, of course, the 
NGO community. Now we have this new partner that we're trying 
to leverage, the private-sector institutions, especially 
American firms, investing in the region.
    So across the region--we try to take all these things into 
account, and that's why I said earlier that we believe our 
niche is to develop innovative model programs, and then attempt 
policy dialog with the governments to try to roll these 
programs out.
    From my perspective, we work extraordinarily well with the 
MEPI program and our State Department colleagues. Of course, 
with the vagaries of organizational structure, the Asia/Near 
East Bureau of USAID overlaps with three State Department 
bureaus, but especially in the Middle East, both with MEPI and 
then, more broadly, on Middle East peace issues, we are working 
very closely together. Because we have invested, as a nation, 
in having USAID missions on the ground, U.S. professional 
employees on the ground, at our Embassies, and aid missions 
across, at least, 19 countries of this region, we have a 
focused venue in which to do that coordination so that Liz's 
team and the MEPI folks and our team are talking through what's 
the best policy in Jordan or Egypt or anyplace else in the 
region. At least that's my perspective on it.
    The Chairman. Well, let me just indicate that unhappily, 
11:45 a.m., has come, and so has a rollcall vote. The buzz that 
you just heard signals that Senators will be doing their duty 
in a different forum.
    But let me just thank both of you, again, for the 
tremendous preparation you made for this hearing in your 
testimony, as well as the publications you have shared with us. 
Our invitation to provide more are sincere. And, as you provide 
this data, we will make it available to all members of our 
committee and others in the Senate who, we pray, will have an 
interest in this subject. But you've contributed substantially 
to a good morning of thoughtfulness for Americans.
    And, having said that, the hearing is adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]
                              ----------                              


 Additional Prepared Statement and Questions and Answers Submitted for 
                               the Record


  Prepared Statement of Hon. Lincoln Chafee, U.S. Senator From Rhode 
                                 Island

    There is no question how important education is to combating the 
spread of terrorism. It is my strong belief that many of the conflicts 
and problems in the world, and particularly in the Near East and South 
Asia, could be lessened by strong investments in education.
    I have always been a strong supporter of funding for programs that 
bring students to the United States, knowing that international 
exchange plays a valuable role in decreasing the use of stereotypes and 
allowing students from other countries to experience American culture. 
It is also important to support fledgling programs in the Near East and 
South Asia. While many of these programs are small, these students tend 
to stay in the region and work as advocates for freedom and democracy.
    The situation in the occupied territories is a poignant example. 
With unemployment high and investments in the infrastructure of 
everything including education very low, it leaves little option but 
extremism for many. However, there are success stories. Take, for 
instance the American Studies Institute at Al-Quds University in the 
West Bank. Dr. Mohammed Dajani, the program founder, and a visiting 
scholar at Salve Regina University's Pell Center for International 
Relations and Public Policy, recently visited my office to share the 
hope he has in the good a small, and growing, program is accomplishing. 
The value of a program run primarily by Palestinians, for Palestinians, 
in the West Bank about American culture and values is unmatched. These 
students have begun to open their minds to a world far removed from 
their own, without leaving their homes, which is necessary due to the 
high cost of schooling abroad and the difficulty in traveling.
    It is inspiring what a small program with a strong leader like Dr. 
Dajani can accomplish with very little resources. Programs like this 
should be held up as a model for others in the region.
                                 ______
                                 

 Responses of Principal Deputy Assistant Secretary Elizabeth L. Cheney 
            to Questions Submitted by Senator Richard Lugar

    Question. Please provide more detail on the number of participants 
in micro-scholarships in the Broader Middle East and North Africa. What 
does it cost to fund each participant and what are your future plans 
for this program?
    Answer. The English ACCESS Micro-scholarships program was launched 
and funded by the Bureau of Educational and Cultural Affairs (ECA) in 
fiscal year 2004. It provides English training to nonelite high school 
students and helps prepare them for potential participation in future 
exchanges with the United States while giving them skills that will 
lead to greater economic opportunity. Three thousand six hundred 
students from 39 countries are participating in the English ACCESS 
Micro-scholarship program worldwide.
    Department guidelines indicate that approximately $1,000 should be 
budgeted per student for up to 2 years of instruction. In the chart 
shown below, the programs in countries covered by the Bureau of Near 
East Affairs (NEA) and Afghanistan paid for 1 year of instruction per 
student with these funds. ECA-administered ACCESS Micro-scholarship 
programs in other countries with significant Muslim populations, 
including Turkey and Pakistan and 22 other countries in the East Asia 
and Pacific, Africa, and South Asia regions will run for 2 years.
    In fiscal year 2004 the ECA Bureau provided a total of $1,947,565 
to fund English ACCESS Micro-scholarship programs for 1,724 students 
from the Broader Middle East and North Africa at a cost of circa $1,130 
per student. In other words, more than 47 percent of the total number 
of students funded by the program came from the Broader Middle East and 
North Africa and more than 54 percent of the total funding available to 
the program was spent on this region. The table below provides the most 
detailed data available from the field on the manner in which these 
funds were spent.
    In fiscal year 2006, the Department of State's Bureau of 
Educational and Cultural affairs plans to spend $4 million on the 
English ACCESS Micro-scholarship program and plans to spend at least 
half of this total amount on the Broader Middle East and North Africa.
    MEPI staff and ECA staff are discussing ways in which MEPI funds 
can be used to expand this ECA-administered micro-scholarship program.

              BMENA MICRO-SCHOLARSHIP STUDENTS AND FUNDING
   [1 year of instruction in all countries, except Pakistan and Turkey
                           which have 2 years]
------------------------------------------------------------------------
                                                                Cost/
             Country                   Cost       Students     student
------------------------------------------------------------------------
Afghanistan......................      $20,000           20       $1,000
Algeria..........................       80,000           80        1,000
Bahrain..........................       84,600           45        1,880
Kuwait...........................      135,000           75        1,800
Lebanon..........................      212,685          200        1,063
Morocco..........................      108,600          100        1,086
Oman.............................      250,000          106        2,358
Pakistan.........................       93,000           90        1,033
Qatar............................       52,560           40        1,314
Saudi Arabia.....................      100,000           50        2,000
Syria............................      148,000          140        1,057
Tunisia..........................      101,800          100        1,018
Turkey...........................      100,000          185          541
UAE..............................      100,000          100        I,000
West Bank........................      198,000          198        1,000
Gaza.............................      135,000          135        1,000
Yemen............................       48,320           80          604
                                  --------------------------------------
Total BMENA......................    1,947,565        1,724        1,130
------------------------------------------------------------------------


    Question. Please provide more details on the amount of time 
students and prospective exchange participants have to wait in order to 
receive a visa for travel to the United States. What measures are being 
taken to improve visa wait times for students and exchange 
participants?
    Answer. The table below compares the current amount of time 
students and exchange visitor program participants have to wait in 
order to receive an appointment for a visa interview with the time 
required for all other visa applicants in the Broader Middle East and 
North Africa. Islamabad issues visas for both Pakistan and Afghanistan. 
The amount of time required to process a visa from the time of the 
appointment to the final judgment varies with individual cases, 
although the majority of applicants receive visas within a few days of 
application.
    As shown in the table, in order to expedite the processing of 
visas, students and exchange participants receive priority treatment. 
As a matter of policy, if a student or exchange participant can show a 
need to obtain an earlier visa interview appointment in order not to 
miss the opportunity to study in, or travel to, the United States, such 
requests are granted. Appointment wait times are updated by our posts 
on a weekly basis and vary depending on workload, resources, and time 
of year. For example, some posts give higher priority to students the 
closer they are to their program start times. A student applying 3 
months before they intend to travel might wait longer for an 
appointment than a student whose program of study begins in a week. We 
are committed to ensuring that no student misses the start of classes 
due to a delay in being interviewed.

                          BMENA VISA WAIT TIMES
     [All visa applications vs. students and exchange participants)
------------------------------------------------------------------------
                                           Appointment wait time
              Post               ---------------------------------------
                                       F&J visas           All visas
------------------------------------------------------------------------
Abu Dhabi.......................  Same day..........  1 day.
Algiers.........................  2 days............  2 days.
Amman...........................  40 days...........  40 days.
Cairo...........................  2 days............  17 days.
Casablanca......................  Same day..........  14 days.
Damascus........................  2 days............  2 days.
Doha............................  Same day..........  Same day.
Dubai...........................  1 day.............  5 days.
Isalamabad......................  Same day..........  25 days.
Jerusalem.......................  1 day.............  12 days.
Kuwait..........................  2 days............  52 days.
Manama..........................  Same day..........  Same day.
Muscat..........................  Same day..........  Same day.
Riyadh..........................  7 days............  14 days.
Sanaa...........................  2 days............  2 days.
Tel Aviv........................  22 days...........  22 days.
Tunis...........................  Same day..........  Same day.
------------------------------------------------------------------------
Note.--Amman and Tel Aviv have special designated dates for students
  once a week, so the appointment wait time is shorter than indicated
  above; it is usually a week or two.


    Question. Would you support the creation of a program similar to 
the Congress-Bundestag exchanges for the Broader Middle East?
    Answer. We review our portfolio of exchange programs on an ongoing 
basis to ensure that they are helping to achieve the Nation's foreign 
policy goals and will give active consideration to a program of this 
type. My staff would be happy to consult with the committee's staff on 
the details of this program in order better to understand the benefits 
of a similar program targeted at the Broader Middle East.

                                  <all>

</pre></body></html>
